U.S. Department of Housing and Urban Development




                                                   Office of Inspector General
                                                    Semiannual Report to Congress

                                                   October 1, 2002 through March 31, 2003
     OIG MISSION STATEMENT
           AND VALUES


      The OIG’s mission is independent and objective reporting to the Secretary
      and the Congress for the purpose of bringing about positive changes in the
      integrity, efficiency, and effectiveness of HUD operations.

      OIG values are as follows:

     F       Relationships among OIG components and staff are characterized by
             teamwork and respect.

     F       Diversity is valued and promoted in the workforce.

     F       Excellence in the workforce is fostered through continuing concern for
             professionalism and career development.

     F       As a general rule, emphasis is placed on “doing” rather than
             reviewing, by delegating operational authority, responsibility, and
             accountability to the lowest appropriate level.

     F       Identifying and meeting client needs in a timely fashion are a primary
             concern. Clients are defined as the Secretary, the Congress, HUD
             managers and employees, and the public.

     F       OIG operations are focused on substance rather than process and rely
             on innovative as well as traditional methods to address issues of
             significance having potential payback in terms of improved integrity,
             effectiveness, and efficiency.




If you would like additional information or copies of the Report, please call (202) 708-0614, x 8195.
            The Report is also available on our internet site at www.hud.gov/offices/oig
INSPECTOR GENERAL’S MESSAGE


    I have just completed my first year as the HUD Inspector General. During
this time, I have set a new course based on innovation of ideas, collaboration
with program managers, and a challenge to our staff to excel. This Semian-
nual Report describes the results that we are beginning to see from this new
direction. I am proud of the efforts of the OIG staff in fulfilling the mandates
of the Inspector General Act of 1978.

    To start this report, we discuss the most serious challenges facing the
Department. HUD is working diligently to address many of these challenges
and is making measurable progress. Of note are organizational changes such
as the placement of the Departmental Enforcement Center under the direction
of the General Counsel and the Real Estate Assessment Center under the Assistant Secretary for Public and
Indian Housing. Also of note is a Human Capital Strategic Plan recently issued by the Department’s Executive
Steering Committee that is a strong step towards better management of its staffing resources. Several other
changes are also reported in Chapter 1 of this Report that we see as positive steps towards improved service to
HUD’s customers. We will continue to carefully monitor the Department’s initiatives in this area and report on
both progress and shortcomings.

    Our audits and investigations continue to reveal fraud and abuse in HUD’s Single Family Mortgage Insurance
Programs. Abuse in these programs receives significant media attention because of the tremendous economic
impact it has on the lives of citizens who are its victims, as well as the devastation its has on the housing markets
in many communities. Congress has requested that we allot additional resources for oversight of these programs,
which are plagued by various schemes such as “property flipping” and “predatory lending.” Our Report high-
lights numerous investigations around the nation of these types of abuses. We continue to work closely with
Departmental managers to eliminate these fraud schemes that are ruining family dreams of home ownership. OIG
is committed to working with the Department to identify problems and find systemic solutions to these fraudulent
practices. In this regard, we give special recognition to HUD’s Office of General Counsel and the HUD Quality
Assurance Division in the Home Ownership Centers for their cooperation in Single Family Program investiga-
tions.

    OIG efforts in Public and Indian Housing Programs center on fraudulent payments of rental subsidies. Studies
have estimated about $2 billion are overpaid for these tenant subsidies because of fraud and error; this problem is
also cited in the President’s Management Agenda. We are aggressively investigating these crimes, and continue
to partner with the Department to find ways to prevent this type of fraud.

    We continue to receive and respond to many requests from various Members of Congress. Congress man-
dates much of our work through legislation or through requests from individual Members or from Committees.
Significant results that we have to report for this period include:

Ø Work completed on Section 514 activities by HUD’s Office of Multifamily Housing Assistance Restructuring
  (OMHAR). Our audit of OMHAR found management weaknesses; subsequent audits of 40 grantees found ineli-
  gible and unsupported expenses.
Ø The first of a series of reviews planned on the use of Disaster Assistance Funds provided to the State of
  New York following the terrorist attacks on the World Trade Center. Our initial report focuses on $1.1
  million of net overpayments, and $7.76 million of payments made to grant recipients that did not have
  federal tax information on their applications that matched Internal Revenue Service records.

Ø The mandated Financial Statement Audits for HUD, the Federal Housing Administration, and the Govern-
  ment National Mortgage Association. Of note here is that the audits identified $1.1 billion that could be
  deobligatedand put to better use.

    I have made outreach efforts to HUD staff as well as HUD constituent groups, such as the Mortgage Bankers
Association and public housing professional associations, a key initiative for our office. We are communicating
that OIG can be a useful tool to help accomplish the goals Secretary Martinez has set out. My staff and I are
getting the word out through speaking engagements and related training efforts that, although we are indepen-
dent, we are not precluded from being a partner and coach in improving HUD management and operations.

   During my short time at HUD, I have come to appreciate the men and women of the OIG who are consum-
mate professionals. My thanks to them for their belief in, and support for, the mission of the Department.

   I pledge to work with Secretary Martinez in an effort to achieve HUD’s goals while remaining steadfast in
my dedication to rooting out fraud and abuse in HUD wherever it is found.




                                                          Kenneth M. Donohue
                                                          Inspector General
Information About the HUD Office of Inspector General


     HUD’s Office of Inspector General is one of the original 12 designated by the Inspector General Act of
1978. The OIG oversees HUD’s programs and operations with its audit and investigative personnel. While
organizationally located within the Department, the OIG has separate budgetary authority. The IG’s mission
is to provide independent and objective reporting to the Secretary and the Congress. OIG activities seek to:


Ø Promote efficiency and effectiveness in programs and operations;
Ø Detect and deter fraud and abuse;
Ø Investigate allegations of misconduct by HUD employees; and
Ø Review and make recommendations regarding existing and proposed legislation and regulations affect-
  ing HUD.


    The Executive Office and the Offices of Audit, Investigation, Counsel, and Management and Policy are
located in Headquarters. Also, the Offices of Audit and Investigation have field staff located in ten regions
and many field offices.

       OIG Cost of Operations 10/01/02 to 3/31/03 - $46.9 Million          OIG Results 10/01/02 to 3/01/03 - $300.8 Million




                                     Administration
                                     & Operations                                                     Questions Costs
                                         7%                                                                39%
               Central
              Contracts
                23%
                                                                             Funds Put to
                                              Personnel                       Better Use                Investigative
                                              Services                           39%                     Recoveries
                                                70%
                                                                                                            22%




                                  OIG Return on Investment: $300.8/$46.9 = 6.4 to 1 return
                                         Reporting Requirements

  The specific reporting requirements as prescribed by the Inspector General Act of 1978, as amended by the
                         Inspector General Act Amendments of 1988, are listed below:

                                      Source/Requirement                                               Pages

Section 4(a)(2)-review of existing and proposed legislation and regulations.                           69-72

Section 5(a)(1)-description of significant problems, abuses, and deficiencies relating to the       1-64, 73-75
administration of programs and operations of the Department.

Section 5(a)(2)-description of recommendations for corrective action with respect to signifi-          7-64
cant problems, abuses, and deficiences.

Section 5(a)(3)-identification of each significant recommendation described in previous             Appendix 2,
Semiannual Reports on which corrective action has not been completed.                                 Table B

Section 5(a)(4)-summary of matters referred to prosecutive authorities and the prosecutions            7-64
and convictions that have resulted.

Section 5(a)(5)-summary of reports made on instances where information or assistance was            No instances
unreasonably refused or not provided, as required by Section 6(b)(2) of the Act.

Section 5(a)(6)-listing of each audit report completed during the reporting period, and for         Appendix 1
each report, where applicable, the total dollar value of questioned and unsupported costs and
the dollar value of recommendations that funds be put to better use.

Section 5(a)(7)-summary of each particularly significant report.                                       7-64

Section 5(a)(8)-statistical tables showing the total number of audit reports and the total dollar   Appendix 2,
value of questioned and unsupported costs.                                                           Table C

Section 5(a)(9)-statistical tables showing the total number of audit reports and the dollar value   Appendix 2,
of recommendations that funds be put to better use by management.                                    Table D

Section 5(a)(10)-summary of each audit report issued before the commencement of the report-         Appendix 2,
ing period for which no management decision had been made by the end of the period.                  Table C

Section 5(a)(11)-a description and explanation of the reasons for any significant revised man-      No instances
agement decisions made during the reporting period.

Section 5(a)(12)-information concerning any significant management decision with which the          No instances
Inspector General is in disagreement.

Section 5(a)(13)-the information described under section 05(b) of the Federal Financial                 75
Management Improvement Act of 1996.
                                                Table of Contents
Chapter 1 - HUD’s Management and Performance Challenges ..........................................................1

Chapter 2 - HUD’s Single Family Housing Programs
       Audits ..................................................................................................................... 7
       Investigations ............................................................................................................ 9
       OIG Offices of Audit and Investigation - Joint Efforts ......................................................... 25

Chapter 3 - HUD’s Public and Indian Housing Programs
       Audits .................................................................................................................. 27
       Investigations ......................................................................................................... 32
       OIG Offices of Audit and Investigation - Joint Efforts ......................................................... 39
       Fugitive Felon Initiative .............................................................................................. 41

Chapter 4 -HUD’s Multifamily Housing Programs
       Audits ................................................................................................................... 43
       Investigations .......................................................................................................... 46
       OIG Offices of Audit and Investigation - Joint Efforts ......................................................... 48

Chapter 5 -HUD’s Community Planning and Development Programs
       Audits .................................................................................................................... 51
       Investigations .......................................................................................................... 55
       OIG Offices of Audit and Investigation - Joint Efforts ......................................................... 59

Chapter 6 - Other Significant Audits and Investigations
       Audits .................................................................................................................... 61
       Investigations .......................................................................................................... 64

Chapter 7 - Outreach Efforts ................................................................................................. 65

Chapter 8 - Regulations, Handbooks, and Other Directives
       Regulations ............................................................................................................. 69
       Notices of Funding Availability (NOFA) .......................................................................... 69
       Notice ................................................................................................................... 70
       Handbooks .............................................................................................................. 71
       HUD Standard Forms ................................................................................................ 72

Chapter 9 - Audit Resolution
       Delayed Actions ....................................................................................................... 73
       Federal Financial Management Improvement Act of 1996 (FFMIA)......................................... 75

Appendix 1 — Audit Reports Issued
Appendix 2 — Table A - Audit Reports Issued Prior to Start of Period with No Management Decision at
                        03/31/03
             Table B - Significant Audit Reports Described in Previous Semiannual Reports Where Final
                        Action Had Not Been Completed as of 03/31/03
             Table C - Inspector General Issued Reports with Questioned and Unsupported Costs at
                        03/31/03
             Table D - Inspector General Issued Reports with Recommendations that Funds Be Put To Better
                        Use at 03/31/03
Appendix 3 — Profile of Performance
 Chapter 1           —   HUD’s Management and Performance Challenges

Major Issues Facing HUD                                      Each year, in accordance with the Reports
                                                         Consolidation Act of 2000, the OIG is required to
     The Department’s primary mission is to expand       submit a statement to the Secretary with a summary
housing opportunities for American families seek-        assessment of the most serious challenges facing the
ing to better their quality of life. HUD seeks to        Department. We submitted our last assessment on
accomplish this through a wide variety of housing        December 23, 2002. These reported challenges are
and community development grant, subsidy, and            the continued focus of our audit and investigative
loan programs. HUD’s budget approximates $31             efforts. HUD is working to address these challenges
billion annually. Additionally, HUD assists families     and in some instances has made progress in correct-
in obtaining housing by providing Federal Housing        ing them. The Deputy Secretary’s monthly Execu-
Administration (FHA) mortgage insurance for single       tive Management Meeting focuses on the actions
family and multifamily properties. FHA’s outstand-       taken by each Assistant Secretary in meeting the
ing mortgage insurance portfolio is more than one        President’s Management Agenda (PMA). The PMA
half trillion dollars. Ginnie Mae, through its mort-     includes government-wide and HUD specific initia-
gage-backed securities program, gives lenders            tives. The HUD specific initiatives are intended to
access to capital markets.                               formulate viable strategies and plans to address the
                                                         major problems facing the Department. The
     While HUD is a relatively small agency in terms
                                                         Department’s management challenges and current
of staff, about 9,300 nationwide, it relies on the
                                                         efforts to address these challenges are as follows:
performance and integrity of many outside entities
to administer a large number of diverse programs.        Department-wide Organizational
Among HUD’s administrators are hundreds of cities
that manage HUD’s Community Development Block            Changes
Grant funds, hundreds of Public Housing Authori-             For nearly 10 years, the Department has
ties that manage assisted housing funds, thousands       struggled with organizational and management
of HUD approved lenders that originate and service       changes in an effort to streamline its operations.
FHA insured loans, and hundreds of Ginnie Mae            These changes were inevitable as HUD struggled to
mortgage-backed securities issuers.                      manage more programs and larger budgets with
    With hundreds of separate programs, achieving        fewer staff. The past Administration made an effort
HUD’s mission is an ambitious challenge for its          to realign the Department along functional lines,
limited staff. HUD management problems associated        separating outreach from program administration.
with program operations have kept two major HUD          Also, they attempted to place greater reliance on
programs on GAO’s list of high-risk programs.            automated tools, processing centers, and contracted
HUD’s management team, the GAO, and the OIG              services. As HUD implemented these realignments,
share the view that improvements in human capital,       many employees were assigned new duties and
acquisitions, and information systems are essential      responsibilities and many new employees were
in addressing HUD’s high risks in the Rental Hous-       hired. While these organizational changes had good
ing Assistance Programs and Single Family Hous-          intentions, the disruptions caused by these sweeping
ing Mortgage Insurance Programs. The inclusion of        changes further compounded problems in effec-
HUD’s reported management challenges and high-           tively managing HUD operations. Among the prob-
risk areas as part of the President’s Management         lems were unclear lines of authority, many staff in
Agenda is indicative of HUD’s important role in the      the wrong location, staff not trained in new duties,
federal sector. The Federal Government places a          and difficulty in providing supervision to remote
high priority on correcting those weaknesses to          staff.
remove HUD programs from GAO’s high-risk list.


Chapter 1— HUD’s Management and Performance Challenges                                                      1
     Our past Semiannual Reports noted that many             program delivery and oversight functions,
organizational changes were slow to be put in place,         where there was a critical need.
and some of those in place were ineffective. For
                                                         Ø New regional management positions were
example, they lacked delegations of authority,
                                                           created to give HUD’s field operations greater
written policies and procedures, and training
                                                           operational control over the administrative
support. HUD’s current management team likewise
                                                           budget resources they need to pursue their
found problems with the organizational and opera-
                                                           operating and program goals, and to strengthen
tional changes made by the previous Administra-
                                                           the local focus on workload management to
tion. For example, they found organizational and
                                                           meet national performance goals.
staffing realignments, such as the Community
Builder function, an ineffective use of HUD’s human          These operational changes delegate additional
capital. As a result, last year, decisions were made     authority to the Field. We see these as positive steps
and actions were taken to pursue separate realign-       in bringing operational activities and authority
ments of Headquarters and Field activities to better     closer to the customers HUD serves. We continue to
utilize resources. Changes included:                     see this as a management challenge as Departmental
                                                         realignments become fully functional.
Ø The Departmental Enforcement Center (DEC)
  was placed under the direction of the General
  Counsel to consolidate legal resources in
  support of a potentially stronger program              Financial Management Systems
  enforcement effort. HUD’s program enforce-
                                                             HUD needs to complete the development of its
  ment efforts were previously under the Office of
                                                         financial management systems. The lack of an
  General Counsel prior to the creation of a
                                                         integrated financial system in compliance with
  separate DEC.
                                                         federal financial system requirements has been
Ø The Real Estate Assessment Center (REAC) was           reported in our financial audits as a material weak-
  placed under the direction of the Assistant            ness in internal controls since FY 1991. Some
  Secretary for Public and Indian Housing in             progress is being made. For example, HUD has
  order to improve REAC’s working relationships          made financial management systems improvement a
  with program staff and program partners and            top priority. It has established an Executive Advi-
  strengthen accountability for resource use and         sory Committee consisting of principals from key
  results.                                               offices to direct a HUD Integrated Financial Man-
                                                         agement Improvement Project. HUD has hired an
Ø The Office of the Chief Procurement Officer            Assistant Chief Financial Officer for Systems and
  and Office of the Chief Information Officer            has reorganized the Systems Office to ensure
  were placed under the direction of the Assistant       additional emphasis and attention to the project.
  Secretary for Administration/Chief Information         However, a number of long-standing deficiencies
  Officer, to streamline HUD’s organizational            remain. HUD’s most significant financial manage-
  structure and improve service delivery to HUD’s        ment system deficiencies exist in FHA, where FHA
  program and administrative components.                 needs to convert its commercial accounting system
Ø The Office of Field Policy and Management was          to a system that fully supports the federal basis of
  established as an independent office reporting to      accounting and budgeting.
  the Deputy Secretary, with responsibility for              Because of the large volume of financial trans-
  oversight of HUD’s Field management and                actions, HUD relies heavily on automated informa-
  assistance to program Assistant Secretaries in         tion systems. For several years, our financial audits
  meeting program goals at the Field Office level.       reported on security weaknesses in both HUD’s
Ø Substantial numbers of staff in the outreach           general processing and specific applications such
  function were redeployed to understaffed               that HUD could not be reasonably assured that assets
                                                         were adequately safeguarded against waste, loss,
                                                         and unauthorized use or misappropriation. Progress

Chapter 1— HUD’s Management and Performance Challenges                                                          2
in improving these controls has been slow. The               To address staffing imbalances and other human
weaknesses noted in our FY 2002 Consolidated             capital challenges, the Department has implemented
Financial Audit relate to the need to improve:           the Resource Estimation and Allocation Process
                                                         (REAP). The last phase of REAP (a baseline for
Ø Controls over the computing environment; and
                                                         staffing requirements) was completed in January
Ø Administration of personnel security operations.       2002. The next step in development of the
                                                         Department’s resource management strategy is the
    We also noted the need for HUD to improve            implementation of the Total Estimation and Alloca-
funds controls over public housing operating funds       tion Mechanism (TEAM). TEAM is the validation
and processes for reviewing outstanding obligations      component of REAP and will collect actual workload
to ensure that unneeded amounts are deobligated in       accomplishments and staff usage data for compari-
a timely manner. Major deficiencies include:             son against the REAP baseline. TEAM implementa-
Ø The Office of Public and Indian Housing not            tion began in the spring of 2002. Our audit of the
  having an operational information system for           TEAM process found the Department has made
  monitoring operating subsidy eligibility require-      significant progress in developing and implementing
  ments and obligations during six months in FY          the key components of its resource management
  2002; and                                              system. The Department is using the results from its
                                                         TEAM/REAP process to make better informed hiring
Ø A lack of integration between accounting               decisions.
  systems and the need for accurate databases
  which has hampered HUD’s ability to evaluate               Congressional staff have expressed concern over
  unexpended obligations.                                HUD’s  hiring practices. While the Department was
                                                         several hundred staff over its 9,100 FTE staff ceil-
                                                         ing, there were no requests for additional FTEs. In
                                                         the Conference Report for HUD’s FY 2003 Appro-
Adequate and Sufficiently Trained                        priation, the OIG has been tasked to report to the
Staff                                                    Conference Committee by August 2003. The report
                                                         stated, “The Office of Inspector General is also
    For many years, the Department has lacked a          requested to review the Department’s hiring deci-
system for measuring work and reporting time,            sions to determine whether these decisions have
thereby making it a difficult task to determine staff    been consistent with the Department’s staffing
resource needs. HUD worked with the National             needs, program requirements, and applicable
Academy of Public Administration to develop a            personnel practices.”
methodology or approach for resource management
that would allow the Department to identify and              A HUD Executive Steering Committee has
justify its resource requirements for effective and      developed a Human Capital Strategic Plan. The
efficient program administration and management.         Plan includes:
    HUD needs to more effectively manage its             Ø To become a mission focused agency with work
limited staff resources. Many of the weaknesses            aligned to promote adequate and affordable
facing HUD, particularly those concerning HUD’s            housing, economic opportunity, and a suitable
oversight of program recipients, are exacerbated by        living environment free from discrimination;
HUD’s resource management shortcomings. Accord-
                                                         Ø To maintain a high quality workforce through
ingly, we consider it critical for the Department to
                                                           recruitment, staff development, and manage-
address these shortcomings through the successful
                                                           ment improvements; and
completion of ongoing plans. To operate properly
and hold individuals responsible for performance,        Ø To implement effective succession planning
HUD needs to know that it has the right number of          assuring qualified staff backfill for increasing
staff with the proper skills.                              numbers of HUD retirements in the next five
                                                           years.


Chapter 1— HUD’s Management and Performance Challenges                                                        3
FHA Single Family Origination and                        key element of FHA’s efforts to target monitoring
                                                         and enforcement resources to single family insured
Real Estate Owned (REO) Oversight                        mortgages and lenders that represent the greatest
     Procedures and practices pertaining to HUD’s        financial risks to FHA. Potential problem lenders
Single Family Loan Origination Program have              must be identified before FHA can institute loss
undergone considerable change, particularly in the       mitigation techniques and lender enforcement
last five years. The changes have been both pro-         measures that can reduce eventual claims.
grammatic and organizational, including significant          During this reporting period, we completed
changes in loan underwriting requirements and the        several reviews of lenders that were not prescribing
transfer of virtually all aspects of single family       to HUD’s criteria in submitting loans for HUD
production and program monitoring from HUD staff         endorsement. Lenders that are late in submitting
to lenders and contractors under the oversight of        endorsements must provide evidence to HUD that all
HUD’s Home Ownership Centers.                            loan payments are current. We identified problems
     Consistent with the GAO’s identification of         with both lenders that did not provide the pre-
Single Family Mortgage Insurance Programs as a           scribed paperwork and HUD contractors that were
high-risk area, the President’s Management Agenda        not diligent in questioning lenders with late submis-
has committed HUD to tackling long-standing              sions. We intend to look more closely at late en-
management problems that expose FHA homebuyers           dorsements in the coming months. This year we are
to fraudulent practices. HUD is taking steps to          also committed to reviewing various risk factors for
protect homebuyers from a fraudulent practice            lenders and targeting high risk lenders for audits.
known as property flipping, changes are underway             The Department is taking several steps to
to strengthen the property appraisal process, and        improve FHA risk management. An accurate ap-
other actions are being proposed to better disclose      praisal is critical in protecting FHA’s insurance risk.
FHA closing costs. Our investigative efforts during      A proposed rule, published in January 2003, would
this reporting period continued to uncover wide-         amend HUD regulations to make a lender and
spread instances of schemes in which properties          appraiser bear equal responsibility for the quality of
were purchased at undervalued prices, minimal            the appraisal in meeting HUD guidelines. HUD
repairs were made, and the properties were resold,       believes this rule would protect the FHA insurance
sometimes the next day, at inflated values. Numer-       fund, ensure better compliance with appraisal
ous cases of fraudulent loan origination were also       standards, and ensure homebuyers receive an
found in which non-qualified buyers were recruited       accurate statement of appraised value. The Depart-
to purchase properties with FHA insured mortgages,       ment believes these controls will help deter the
false loan packages were submitted to FHA, and the       flipping of properties.
buyers ultimately defaulted on the mortgages,
resulting in millions of dollars in losses to HUD.
    The FHA financial audit reported on the need to      Public and Assisted Housing
place more emphasis on monitoring lender under-
writing and continuing to improve on early warning
                                                         Program Administration
and loss prevention for single family. Recommenda-           HUD provides housing assistance funds under
tions were made to increase targeting of high-risk       various grant and subsidy programs to multifamily
lenders to include the addition of 30- and 60-day        project owners (both nonprofits and for-profits) and
delinquencies to the Default Monitoring System. A        housing authorities. These intermediaries, in turn,
series of other recommendations were made to             provide housing assistance to benefit primarily low-
target lenders that would benefit from early inter-      income households. HUD spent about $23 billion
vention. FHA needs to increase its use and analysis      (consisting of Section 8, Operating Subsidies,
of other data now available to continue improve-         Housing for the Elderly and Disabled, and Rent
ments in lender monitoring. Timely identification of     Supplement Programs) in FY 2002 to provide rent
lenders with above average early default rates is a      and operating subsidies that benefited over four

Chapter 1— HUD’s Management and Performance Challenges                                                         4
million households. In 2000, a HUD study found                     upcoming months will be concentrated on fraudu-
that 60 percent of all rent and subsidy calculations               lent practices in the Section 8 Program.
performed by administrative intermediaries con-
                                                                       In conjunction with OMB, HUD has established a
tained some type of error. Weaknesses exist in
                                                                   goal for a 50 percent reduction in both the fre-
HUD’s control structure such that HUD cannot be
                                                                   quency of calculation processing errors and the
assured that these funds are expended in accordance
                                                                   amount of subsidy overpayments by 2005. The
with the laws and regulations authorizing the grant
                                                                   Rental Housing Improvement Project is a Secre-
and subsidy programs.
                                                                   tarial initiative designed to reduce errors and
         FY 2002 Public and Assisted Housing Programs
                                                                   improper payments by: (1) simplifying the payment
                      (Dollars in Billions)                        process; (2) enhancing administrative capacity; and
                                                                   (3) establishing better controls, incentives, and
       Operating                           Other                   sanctions. These improvements are expected to be
       Subsidies                         Programs                  implemented through a series of actions over the
          $4                                $1                     next two years.

  Project-based                                                           Goal to Reduce Frequency of Calculation
    Section 8                                       Tenant-based                     Processing Errors
       $7                                            Section 8
                                                        $11

                                                                   FY 2005 Goal

    The Office of Public and Indian Housing (PIH)
                                                                        FY 2000
provides funding for rent subsidies through its                         Baseline
public housing operating subsidies and tenant-based
Section 8 Rental Assistance Programs. These                                     0%      10%     20%   30%      40%   50%    60%

programs are administered by housing authorities
who are to provide housing to low-income families
or make assistance payments to private owners who                                Goal to Reduce Amount of Subsidy
                                                                             Overpayments - Amounts Shown in Millions
lease their rental units to assisted families. The
Office of Housing administers a variety of Assisted
Housing Programs, including parts of the Section 8                     FY 2005 Goal
Program and the Section 202/811 Programs. These
subsidies are called “project-based” subsidies
                                                                    FY 2000 Baseline
because they are tied to particular properties;
therefore, tenants who move from such properties                                   $0         $500    $1,000     $1,500    $2,000
may lose their rental assistance. This is a significant
responsibility because of the sizable number of
project owners HUD must monitor.                                       HUD continues to implement its performance
                                                                   oriented, risk-based strategy for carrying out its
     For many years, we have reported on material                  housing authority oversight responsibilities. As
weaknesses with the monitoring of housing authori-                 noted in previous financial audits, further improve-
ties and multifamily projects. These monitoring                    ments need to be made in the Field Offices’ moni-
weaknesses seriously impact HUD’s ability to ensure                toring of their housing authorities in key areas. As
that its intermediaries are correctly calculating                  in previous years, we could not fully assess HUD’s
housing subsidies. This material weakness was first                measures aimed at improving oversight of housing
reported in our financial audit in 1991 and it has                 authorities since the Department’s plans to monitor
been reported in every audit thereafter. The Secre-                and improve performance are not yet fully devel-
tary has made the reduction of subsidy overpay-                    oped and continue to experience delays. Finally,
ments a top priority of his Administration. Addi-                  HUD has been slow to implement additional strate-
tionally, our investigative and audit focus in the

Chapter 1— HUD’s Management and Performance Challenges                                                                              5
gies needed to improve quality control over rental
assistance subsidy determinations.
    In prior years, we have also reported on long-
standing weaknesses with the processing of subsidy
payment requests under the project-based programs
administered by the Office of Housing. Historically,
this process has been hampered by the need for
improved information systems to eliminate manually
intensive review procedures that HUD has been
unable to adequately perform.
     Housing staff or their Contract Administrators
(CAs) are to perform management reviews to moni-
tor tenant eligibility and ensure accurate rents are
charged at multifamily projects. The primary tool is
to conduct on-site reviews that assess the owners’
compliance with HUD’s occupancy requirements.
HUD’s continued implementation of the CA initiative
resulted in a substantial increase in the total number
of management reviews. However, a comprehensive
plan needs to be developed that would result in an
increase of on-site reviews that would assess and
ensure that all owners of assisted multifamily
projects comply with HUD’s occupancy require-
ments.
    HUD’s plans include a variety of continuing
efforts. Principle among these are:
Ø Continued implementation of the CA initiative.
Ø Increased enforcement efforts.
Ø Implementation of more targeted property
  inspections.
Ø Increased frequency of management/occupancy
  reviews for assisted projects.
Ø Development of an integrated risk reporting
  system.
    We support these efforts.




Chapter 1— HUD’s Management and Performance Challenges   6
          Chapter 2           —   HUD’s Single Family Housing Programs

Audits
    Single Family Housing Programs are meant to provide mortgage insurance that enables individuals to
finance the purchase, rehabilitation, and/or construction of a home. During this reporting period, we conducted
reviews of the activities of various non-supervised direct endorsement lenders, the Denver Home Ownership
Center, and a Denver Home Ownership Center contractor.

    We completed an audit of Cendant Mortgage Corporation, a mortgage lender in Mount Laurel, NJ, ap-
proved to originate FHA insured loans. Cendant was selected for review because of the high default rate experi-
enced in St. Louis, MO, and Kansas City, KS. Cendant was submitting FHA loans for mortgage insurance
untimely. Our audit objective was to determine how many of Cendant’s late requests for endorsement violated
HUD’s requirements.

    We performed a review of all FHA loans submitted for endorsement by Cendant over a two-year period to
ensure that all late endorsement requests included appropriate payment histories to show loans were current. It
was concluded that Cendant improperly submitted over 1,300 loans totaling about $111 million for late endorse-
ment during the two-year period. In addition, a review of 80 FHA defaulted loans totaling about $5.3 million
originated by Cendant under HUD’s Section 203(b) or 234(c) Programs disclosed that Cendant did not originate
73 of the 80 loans in accordance with HUD requirements.
    Cendant provided comments in response to the audit that indicated it has planned and initiated corrective
actions. If Cendant follows through on these actions, it will prevent recurrence of the problems identified in this
report.
    We recommended that Cendant indemnify HUD for over $100 million in loans that were improperly submit-
ted for endorsement. Cendant agreed to indemnify HUD on loans totaling about $88 million. (Report No. 2003-
KC-1001)




                                    National Mortgage News, January 20, 2003, Mount Laurel, NJ




Chapter 2 — HUD’s Single Family Housing Programs                                                                      7
     We completed an audit of First Horizon Home            We also reported on an internal deficiency at the
Loans, a non-supervised direct endorsement lender       Denver, CO Home Ownership Center in conjunc-
in Irving, TX, approved to originate FHA insured        tion with the audit of Choice Enterprises. We
loans. First Horizon was selected for audit because     discovered that the Denver Home Ownership
of its high number of late endorsements. Our            Center provided instructions to the contractor that
objective was to determine if First Horizon re-         were not in accordance with HUD handbook re-
quested late endorsements for loans that had late       quirements. The Government Technical Representa-
payments prior to submission.                           tive made several changes to extend the period that
                                                        determines when a loan is submitted late and is,
     We found that First Horizon Home Loans
                                                        therefore, subject to additional documentation
improperly submitted 438 loans totaling over $48
                                                        requirements. As a result, the contractor endorsed
million for endorsement more than 60 days after
                                                        19 loans valued at over $1.8 million with deficien-
closing when the borrowers had delinquent pay-
                                                        cies that should have been detected if the HUD
ments prior to submission. Although First Horizon
                                                        handbook rules had been followed.
incorporated HUD’s late submission requirements
into its procedures, it did not ensure that its em-         We recommended that the Director of the
ployees always followed them. Since FHA insures         Denver Home Ownership Center seek indemnifica-
these loans, these late endorsements increase the       tion of the 19 improperly endorsed loans, and
risk to its insurance fund. As of September 30,         instruct contractors to follow the appropriate HUD
2002, HUD paid claims on 15 of the loans and            handbook unless a waiver is obtained from Head-
experienced losses of over $83,000 on three proper-     quarters. (Report No. 2003-KC-0801)
ties.
    We recommended that HUD seek indemnifica-               We completed a review of Pryme Investment
tion for the 423 active and claim loans (15 had         and Mortgage Brokers, Inc., an FHA approved non-
already been terminated). (Report No. 2003-KC-          supervised loan correspondent in Murray, UT. We
1004)                                                   selected Pryme Investment for review because of its
                                                        high default and claim rates. We found that Pryme
                                                        Investment had not adequately implemented its
    We completed an audit of Choice Enterprises,
                                                        quality control process and was deficient in its
Inc., a Denver, CO Home Ownership Center
                                                        overall quality control activities. Further, Pryme
contractor performing insurance endorsement
                                                        Investment did not administer or carry out its
review procedures. Our objective was to determine
                                                        activities in conformity with FHA mortgagee ap-
if Choice followed HUD’s regulations and contract
                                                        proval requirements and did not always originate
terms for reviewing “Late Requests for Endorse-
                                                        FHA insured loans in accordance with HUD require-
ment.” We found that Choice Enterprises inappro-
                                                        ments and prudent lending practices.
priately recommended endorsing 75 of the 297
loans we reviewed. The 75 loans, valued at over             We recommended that Pryme Investment’s
$6.5 million, did not have the required documenta-      participation in the HUD Single Family Mortgage
tion for processing. The improper late endorsement      Insurance Programs be discontinued, and that HUD
of the 75 mortgages increases the probability that      take administrative action(s) deemed appropriate.
HUD will have to pay insurance claims for loans that    We also made recommendations to prevent the
default, thereby increasing the risk to the FHA         recurrence of deficiencies should HUD determine
insurance fund.                                         that removal of Pryme Investment’s approval as a
                                                        non-supervised loan correspondent is not war-
    We recommended HUD seek indemnification of
                                                        ranted. (Report No. 2003-DE-1004)
the 75 improperly endorsed loans from the mort-
gagees who originated the loans, and take appropri-
ate administrative action against Choice Enterprises.      We completed an audit of Chapel Mortgage
(Report No. 2003-KC-1005)                               Corporation, a non-supervised mortgagee in
                                                        Rancocas, NJ, to determine whether Chapel

Chapter 2 — HUD’s Single Family Housing Programs                                                           8
approved loans in accordance with HUD regulations. A review of 25 FHA insured loans valued at over $2.9
million disclosed that each of the 25 loans had at least one significant processing deficiency. Some of the defi-
ciencies included: (1) inaccurate/excessive debt to income ratios; (2) unsupported employment income; (3)
unsupported rental income; (4) understated liabilities; (5) insufficient payroll data; (6) insufficient verification
of employment; (7) insufficient banking data; (8) insufficient cash gift information; (9) unexplained derogatory
credit; and (10) discrepancies with appraisals. These deficiencies could cause the loans to go into default and
subsequently result in mortgage insurance claims to FHA.
    We recommended that HUD/FHA take appropriate action against Chapel for not adhering to HUD’s under-
writing requirements, and require Chapel to indemnify FHA for all future losses pertaining to the 25 loans
reviewed. (Report No. 2003-NY-1002)


Investigations                                                defendant William Otto Schmidbauer. This case
                                                              involved the real estate activities of Schmidbauer
    Some of the cases in this report were conducted           and his 58 Baltimore area real estate transactions
by the OIG while others were conducted jointly with           whereby $4.4 million in fraudulent loans were
federal, state, and local law enforcement agencies.           obtained.

    Defendant Graciela Salgado of Rancho                          Defendants Stephen Todd Schmidbauer and
Cucamonga, CA, was sentenced in Federal Court                 Crystal Perry, both property speculators, were
to 18 months incarceration and five years super-              sentenced in Federal Court to eight months incar-
vised release, and was ordered to pay $10,209,000             ceration and three years probation, and four years
in restitution to HUD. Salgado previously pled guilty         incarceration and four years probation, respectively,
in U.S. District Court, Central District of Califor-          for their roles in falsifying documents in order to
nia, to nine counts of wire fraud. Defendant Sarai            obtain FHA insured mortgages. In two instances,
Mora pled guilty and was sentenced to five years              Stephen Todd Schmidbauer signed falsified docu-
probation and 2,500 hours of community service,               ments to obtain FHA insured mortgages arranged by
and was ordered to pay a special assessment fee of            his father, William Otto Schmidbauer. In both
$400. Along with Maggie Cuevas, Salgado and                   cases, Stephen Todd Schmidbauer defaulted on the
Mora participated in a fraud scheme that involved             loans, costing the government over $161,150. Perry
businesses owned and operated by Cuevas, such as              also signed falsified documents in two instances to
Maggie Cuevas Insurance, Serrano Telemarketing,               obtain FHA insured mortgages arranged by William
and L. Telemarketing. The businesses were used to             Otto Schmidbauer. Perry defaulted on the loans,
help unqualified borrowers obtain approximately               costing the government over $197,000.
$100 million in fraudulent FHA insured loans. While               Defendant Mary Anne Kintop, who acted as a
already on federal probation for a conviction on              straw purchaser and admitted signing $1 million
similar charges relating to a document forging                worth of government backed mortgages using
business that she ran, Cuevas continued the scheme            different names, was sentenced in Federal Court,
by selling forged tax forms, check stubs, and credit          District of Maryland, to six months home detention
documents that were used to obtain FHA loans. She             and five years probation, and ordered to pay
created the fictitious businesses for the sole purpose        $790,744 in restitution to HUD. Kintop pled guilty
of providing creditability for the forged documents.          in June 2001 to conspiracy, admitting that at Will-
The women then sold the documents to real estate              iam Otto Schmidbauer’s request, she had signed 15
brokers and agents for $75 to $300. Cuevas previ-             fraudulent mortgages that would eventually be
ously pled guilty, but has not yet been sentenced.            insured by FHA. Kintop used at least eight names in
                                                              the scheme, mostly variations on her name. In two
    In Baltimore, MD, the following individuals               cases, Kintop’s daughter, then seven years old, was
were sentenced or pled guilty for their participation         named the borrower on two mortgages. Kintop
in a property flipping scheme masterminded by                 admitted that William Otto Schmidbauer paid her

Chapter 2 — HUD’s Single Family Housing Programs                                                                       9
$500 to $700 each time that she signed a fraudulent     went into foreclosure with a loss to HUD of
mortgage and said that he provided the false identi-    $70,396.
ties she used.
                                                            Defendant Nancy Franklin, a former loan
     Defendant Donna Hart, another straw pur-           officer at First Mariner Mortgage Company, was
chaser, was sentenced in Federal Court, District of     sentenced to four months home detention and two
Maryland, to five years probation for her role in the   years probation, and ordered to pay $350,000 in
property flipping scheme. On three separate occa-       restitution to HUD for her role in submitting false
sions, Hart assisted William Otto Schmidbauer by        statements. Franklin admitted that on at least four
acting as a strawbuyer to obtain three FHA insured      occasions, with the assistance of William Otto
mortgages. On the first property, William Otto          Schmidbauer, she falsified wage and employment
Schmidbauer provided Hart with a false letter which     documents to obtain FHA insured mortgages for
stated that Hart had received gift funds from her       loan applicants who were not qualified. Eventually,
mother. On the other two properties, William Otto       the loans went into default, resulting in over
Schmidbauer provided false supporting documents         $919,444 in claims paid by HUD.
for the loans, such as income and employment
                                                             Defendant Patricia Ann Robinson, a former
verification documents, as well as fictitious gift
                                                        loan officer at First Mariner Bank, was sentenced to
letters. Hart never lived in any of these properties.
                                                        three years probation and ordered to pay $350,000
The loss resulting from Hart’s part in the scheme is
                                                        in restitution to HUD for her role in submitting false
approximately $150,000.
                                                        statements. On at least one occasion, with the
     Defendant Sharon Sirbaugh, a property specula-     assistance of William Otto Schmidbauer, Robinson
tor, was sentenced in Federal Court, District of        falsified wage and employment documents to obtain
Maryland, to five years probation and ordered to        FHA insured mortgages for applicants who were not
pay $131,478 in restitution to HUD for her role in      qualified. Subsequently, the loans went into default.
the scheme. Sirbaugh pled guilty in June 2001 to        Robinson’s fraudulent activities resulted in over
making false statements in applying for an FHA          $538,550 in claims paid by HUD.
insured mortgage. She admitted that she used false
                                                            Defendant Donald F. Hanson, a former loan
information supplied by William Otto Schmidbauer
                                                        officer at Baltimore American Savings Bank, pled
to obtain two mortgages insured by FHA. Sirbaugh
                                                        guilty in Federal Court to conspiracy for his role in
signed false employment documents at the request
                                                        submitting false statements. Hanson admitted that
of Robert Eshelman.
                                                        on at least one occasion, with the assistance of
    Defendants Robert Eshelman and Sandra               William Otto Schmidbauer, he falsified wage and
Johnson, both property speculators, were sentenced      employment documents to obtain FHA insured
in Federal Court, District of Maryland, to five years   mortgages for loan applicants who were not quali-
probation and $82,307 in restitution to HUD, and        fied. The loans eventually went into default, result-
three years probation and $70,396 in restitution to     ing in over $1,072,957 in claims paid by HUD.
HUD, respectively, for their roles in the scheme.
                                                            Defendant Dale Schulz, a former FHA certified
Both defendants previously pled guilty to making
                                                        appraiser, pled guilty in Federal Court, District of
false statements on loan applications. Eshelman and
                                                        Maryland, Baltimore, to a one-count information
Johnson were assisted by William Otto
                                                        charging him with submitting false statements to
Schmidbauer. Since they could not qualify for FHA
                                                        HUD. In early 1996, William Otto Schmidbauer
insured mortgages, William Otto Schmidbauer
                                                        hired Schulz to prepare and file appraisals for
provided them with false supporting documents for
                                                        properties which Schmidbauer was buying at low
their loan applications, including Social Security
                                                        prices and selling at much higher prices. In connec-
numbers, income information, and employment
                                                        tion with the appraisals for these FHA insured
verification. Both of Eshelman’s properties went
                                                        properties, Schulz falsely represented that he had
into foreclosure with a loss to HUD of $205,535,
                                                        personally conducted the inspections and appraisals
while one of the three properties Johnson purchased
                                                        when in fact, on numerous occasions, he had not.

Chapter 2 — HUD’s Single Family Housing Programs                                                            10
On other occasions, the appraisals were prepared by      quirement for direct endorsement lenders were
another individual and Schulz merely signed them.        personal funds. In truth and in fact, in 1998,
As a result, some of the appraisals contained false      Grafton Partners loaned the funds to PinnFund.
information. In some cases where the purchase of a
                                                              Defendant Kimberly Hulihee, an employee of
property by William Otto Schmidbauer had oc-
                                                         PinnLease, USA, Inc., pled guilty to perjury in
curred and been recorded within the past year, it
                                                         U.S. District Court in San Diego. Previously, an
was falsely reported that there had been no such
                                                         information was filed against Hulihee which stated
purchase. On other occasions where Schmidbauer
                                                         that she knowingly made a false statement while
had not yet recorded a deed of purchase at the time
                                                         under oath and testifying in a proceeding before the
of appraisal, it was falsely reported that William
                                                         United States. Hulihee’s testimony involved the
Otto Schmidbauer and/or Schmidbauer Realty was
                                                         coordination, removal, and destruction of business
the current owner of the property. As an example,
                                                         files from the offices of PinnLease. This took place
one property was sold for $68,700. There were
                                                         while PinnFund, USA, Inc., was under a court
numerous and obvious structural defects in this
                                                         ordered receivership.
property at the time of the sale that were not noted
on the appraisal. William Otto Schmidbauer had               Defendant Keith G. Grubba, former president
previously purchased this property for $27,500.          of PinnFund, pled guilty in U.S. District Court in
                                                         San Diego to an information charging him with
   Losses to the government as a result of the false
                                                         conspiracy to commit wire fraud, money launder-
appraisals signed by Schulz on properties that are
                                                         ing, conspiracy, income tax evasion, and false
now in default or have been foreclosed amount to
                                                         entries in statements to HUD. In the plea, Grubba
about $800,000.
                                                         stated that he conspired with Fanghella and John
                                                         Garitta, chief financial officer of PinnFund, USA,
    Defendant Michael Fanghella, founder and
                                                         to deceive investors and perpetuated the Ponzi
director of PinnFund, USA, Inc., in Carlsbad, CA,
                                                         scheme by preparing and disseminating false finan-
was sentenced in U.S. District Court, Southern
                                                         cial statements. Grubba also admitted that he failed
District of California in San Diego, to 10 years in
                                                         to declare his full income on federal income tax
federal prison after he pled guilty to conspiracy to
                                                         returns for tax years 1997 through 2000, when in
commit wire fraud, conspiracy to commit money
                                                         fact he had taxes due of approximately $2.5 million.
laundering, tax evasion, and filing a false entry with
HUD. PinnFund USAWAS a sub-prime lender as well              Defendant Michael A. Trap, former syndication
as a HUD approved direct endorsement lender. In a        manager of PinnLease, USA, pled guilty in U.S.
classic Ponzi scheme, Fanghella, with the assistance     District Court in San Diego to an information
of other PinnFund officers, concealed from inves-        charging him with making false statements regard-
tors the fact that PinnFund lost $200 million from       ing files being taken from the PinnLease offices,
the mortgage business while, at the same time,           when PinnFund was taken over by a U.S. District
soliciting new investor money. From 1997 through         Court appointed receiver. On the same day, two
2000, through various partnerships, Fanghella gave       indictments were filed against four individuals in
investors money contributed by new investors and         U.S. District Court in San Diego. A 29-count
falsely represented to them that these funds were        indictment was handed down against James L.
earnings or returns on capital. Fanghella’s illegal      Hillman, president of Peregrine Funding, Inc., the
income was over $2.2 million for 1996, over $6           business that raised capital for investments in
million for 1997, and over $5.7 million for 1998.        PinnFund’s mortgage business, and Piotr Kodzis,
Fanghella also transferred approximately $17.3           director of operations for Peregrine. The indictment
million from PinnFund to Barbados for the eventual       charged Hillman and Kodzis with mail fraud, wire
benefit of his girlfriend, Kelly Cook. Cook, also        fraud, conspiracy to commit mail and wire fraud,
known as Kelly Jaye and Kelly Spagnola, was an           and aiding and abetting. The indictment alleges that
adult film actress who did not provide any service       Hillman and Kodzis intentionally defrauded inves-
to PinnFund. Fanghella also falsely reported to HUD      tors out of millions of dollars by misrepresenting
that the funds used to meet HUD’s net worth re-          PinnFund’s compliance with investor agreements. A

Chapter 2 — HUD’s Single Family Housing Programs                                                            11
23-count indictment was also handed down against        Central District of California on one count of
Tommy A. Larsen and Kim A. Larsen for obtaining         conspiracy and two counts of wire fraud. Morales’
fraudulent equipment leases and laundering funds        actions resulted in a loss to HUD of $892,000 and
for PinnFund through sham transactions and false        caused at least $2 million in fraudulent loans to be
invoices.                                               funded with FHA insured mortgages. Defendant Ala
                                                        Tabatabei was charged with a criminal information
    In March 2001, PinnFund was placed into a
                                                        filed in the same court on one count of conspiracy
court ordered receivership based on an enforcement
                                                        and one count of wire fraud. While he was the
action by the U.S. Securities and Exchange Com-
                                                        owner of the Performance Funding Group, and as a
mission (SEC). The SEC’s civil case was considered
                                                        loan representative for First Prestige Funding,
one of the largest securities fraud cases in San
                                                        Tabatabei assisted homebuyers in fraudulently
Diego County history, and this investigation is
                                                        obtaining mortgage loans. Tabatabei’s actions
considered one of the largest white collar fraud
                                                        resulted in a loss to HUD of $443,680 and caused at
investigations in California history.
                                                        least $2 million in fraudulent loans to be funded
                                                        with FHA insured mortgages.
     Defendant Palemon Sanchez was sentenced in
Federal Court, Central District of California, Los
                                                            Defendants Robert Jordan and Peter Tortorelli,
Angeles, to 46 months in prison and three years
                                                        both principals and underwriters of County Mort-
supervised release, and was ordered to pay $3.9
                                                        gage Company, Inc., in Newark, NJ, Marlene
million in restitution. Sanchez was involved in a
                                                        Schill, a loan officer, Philip Noce, a closing attor-
fraud scheme in which he would locate residential
                                                        ney, and Raul Torres, a real estate broker, were each
properties on the market for sale. These properties
                                                        sentenced in Federal Court, District of New Jersey,
were then purchased for the purpose of reselling
                                                        for mail fraud and conspiracy. Jordan and Tortorelli
them. Potential buyers were recruited for the
                                                        were each sentenced to 18 months in prison, while
properties who often did not qualify for FHA in-
                                                        Torres was sentenced to 24 months in prison. In
sured mortgage loans due to inadequate income or
                                                        addition, Jordan, Tortorelli, and Torres were each
insufficient assets for down payments. As a re-
                                                        sentenced to three years supervised release, each
cruiter, Sanchez received a commission for every
                                                        ordered to pay $2,408,614 in restitution, and fined
purchaser he located. The buyers were then assisted
                                                        a total of $10,100. Schill and Noce were each
in finding co-signers for the loans. As a result,
                                                        sentenced to nine months home arrest and five years
fraudulent mortgage applications were completed
                                                        probation. They were also ordered to pay
and submitted in the names of buyers and co-
                                                        $2,408,614 in restitution. All five defendants were
signers that contained false employment documents,
                                                        ordered not to engage in any real estate or mortgage
false verifications that the down payments were
                                                        business for various periods of time.
made either with the buyers’ personal funds or were
gifts, false explanation letters concerning the rela-        This investigation disclosed that the defendants
tionships of the co-signers to the buyers, and false    engaged in a scheme to fraudulently obtain over 40
notarizations of the signatures of buyers and co-       FHA insured loans for ineligible borrowers. The
signers.                                                scheme, which resulted in over $2.4 million in
                                                        losses to HUD, involved the falsification of federal
    Defendant Francisco Arana, a loan officer for
                                                        income tax returns, gift letters, attorney gift certifi-
Progressive Loan Funding, was indicted by a
                                                        cations, verifications of employment and rent
Federal Grand Jury in the Central District of Cali-
                                                        documents, and credit explanation letters. Proper-
fornia on charges of wire fraud and aiding and
                                                        ties were flipped and the proceeds of the sales were
abetting. Arana assisted the Sanchez brothers,
                                                        divided among the conspirators.
Palemon and Luis, in their scheme.
                                                            Defendant James E. Golden, Jr., a real estate
    Defendant Alejandro Morales, a loan officer
                                                        appraiser, was sentenced in U.S. District Court for
associated with Trinity Mortgage located in Covina,
                                                        the District of Columbia to 88 months in prison and
CA, was indicted by a Federal Grand Jury in the
                                                        ordered to pay $1.5 million to the government for

Chapter 2 — HUD’s Single Family Housing Programs                                                               12
his role in what federal prosecutors described as an    Court, District of Colorado, in connection with his
extensive mortgage fraud scheme conducted in the        guilty plea to one count of conspiracy and one
District of Columbia. Golden, of Upper Marlboro,        count of money laundering. He was sentenced to 60
MD, was convicted by a jury in May 2002 of taking       months confinement for conspiracy and 72 months
part in a conspiracy to inflate the values of 45        confinement for money laundering, to be served
houses in the District that were then insured by        concurrently, and three years probation. In addition,
FHA. Golden failed to appear in court for his           Torres was ordered to pay $1,696,520 in restitution
sentencing, but police subsequently arrested him in     and a $200 special assessment fee, and ordered not
Texas during a routine traffic stop. He was con-        to seek employment having anything to do with real
victed of inflating appraisals on houses that were      estate.
sold between 1997 and 2000. Four other people
                                                            As a result of this investigation, defendant
pled guilty to related charges in this case.
                                                        Michael Slavens was notified that HUD is proposing
                                                        his three-year debarment from future participation
    Defendant Elena Romero was sentenced in
                                                        in procurement and non-procurement transactions
Federal Court, District of Colorado, Denver, to five
                                                        as a participant or principal with HUD and through-
years probation and ordered to pay a $100 special
                                                        out the Executive Branch of the Federal Govern-
assessment fee. Romero was also ordered not to
                                                        ment. His suspension and proposed debarment are
seek employment having anything to do with real
                                                        based on his conviction in U.S. District Court,
estate. She previously pled guilty to one count of
                                                        District of Colorado, for mail fraud.
conspiracy for her part in a real estate scheme
involving her son, Andres Torres, her former
                                                            In U.S. District Court, Western District of
husband, Gilbert Martinez, Michael Slavens and
                                                        Washington, Seattle, defendant Leslie Charlene
other strawbuyers. Torres would acquire properties
                                                        Reisig was sentenced to 51 months imprisonment
in the Denver metropolitan area, using Romero as
                                                        and five years supervised release, and ordered to
the real estate agent. Together they would obtain
                                                        pay $330,147 in restitution to HUD and to several
strawbuyers to purchase properties and provide false
                                                        lenders who were victimized. Out of the full restitu-
information in order to qualify the strawbuyers for
                                                        tion amount, $89,696 is payable to HUD. The
the loans. Slavens and Martinez acted as
                                                        sentencing followed a two-week jury trial in which
strawbuyers on a number of properties. Martinez
                                                        three subjects, Leslie Reisig, Mario Cacho
also provided false income tax returns/W-2 forms
                                                        Figueroa, and Jaime Abrego, were convicted of
and both Slavens and Martinez provided false
                                                        conspiracy, mail fraud, wire fraud, and bank fraud
income information for the strawbuyers. Once the
                                                        in a scheme to defraud HUD, lending institutions,
strawbuyers purchased the properties, Romero
                                                        and vulnerable Spanish speaking individuals. The
would receive a large real estate commission. Torres
                                                        subjects arranged sham sales of single family
would then file false release of deeds with the
                                                        residences using strawbuyers to obtain the homes
counties, indicating that the mortgages were paid
                                                        for their own personal benefit and/or to obtain a
off and that he owned the properties free and clear,
                                                        portion of the mortgage proceeds. Reisig and Cacho
when in fact he did not. Following the false filings,
                                                        previously pled guilty to one count of mail fraud
Torres would obtain another loan from a different
                                                        committed in the Eastern District of California,
mortgage company via another strawbuyer and
                                                        where the subjects had relocated to continue the
begin the process all over again. Slavens pled guilty
                                                        scheme.
in April 2002 to one count of aiding and abetting in
the commission of mail fraud. He was sentenced in
                                                            Defendant Anietie James Okpon, the president
August 2002 to four months home detention and
                                                        of Countywide Financial Group in Los Angeles,
five years probation.
                                                        CA, was sentenced to 78 months incarceration and
    Defendant Gilbert Martinez was sentenced to         ordered to pay $1,076,949 in restitution, $356,556
five years probation and ordered to pay $128,667 in     of which is owed to HUD. Defendant Oliver Maiben
restitution and a $100 special assessment fine.         was sentenced to 77 months incarceration and
Defendant Andres Torres was sentenced in Federal        ordered to pay $1,057,879 in restitution, $337,486

Chapter 2 — HUD’s Single Family Housing Programs                                                           13
of which is owed to HUD. In July 2002, following a      ments to be submitted to HUD. The loans based on
two-week trial in U.S. District Court for the Central   false information from Barrientes have a total value
District of California, Okpon and Maiben were           of approximately $5.2 million.
found guilty of 21 counts of conspiracy, false
                                                            Defendant Antonio Esquivel was sentenced to
statements, wire fraud, and mail fraud. An investi-
                                                        15 months incarceration and one year supervised
gation disclosed that between 1995 and 1998,
                                                        release, and ordered to pay $108,580 in restitution
Okpon, Maiben, and others used straw or fictitious
                                                        to HUD. Esquivel previously pled guilty in U.S.
borrowers, forged documents, and false identities to
                                                        District Court for the Central District of California
originate mortgage loans in order to receive Title I
                                                        to two counts of making false statements to HUD.
loan proceeds and broker/agent fees from the
                                                        Esquivel, who was a real estate agent for Coldwell
origination of the insured single family mortgage
                                                        Banker Real Estate in Van Nuys, CA, caused false
loans. The individuals fraudulently originated a
                                                        documents to be submitted to HUD. The loans based
total of 22 FHA Title I rehabilitation and Title II
                                                        on the false information from Esquivel have a total
single family mortgage loans, which caused ap-
                                                        value of approximately $1 million, and the loss to
proximately $560,000 in fraudulent loans to be
                                                        the government based on these loans is $89,573.
funded. This resulted in a loss to HUD of approxi-
mately $470,000.                                            Defendant Sandra Sansur was sentenced to eight
                                                        months incarceration and three years supervised
    An investigation disclosed that the owners of       release, and ordered to pay $169,531 in restitution
April 8 Realty in La Puente, CA, fabricated and         to HUD. Sansur previously pled guilty in U.S.
sold thousands of false loan support documents to       District Court for the Central District of California
numerous real estate agents. To date, the investiga-    to two counts of making false statements to HUD.
tion has resulted in guilty pleas of 24 individuals     Sansur, who was a real estate agent for Realty
and sentences totaling 75 months incarceration, 33      Masters, caused false statements to be submitted to
years probation, $750,837 in restitution, and           HUD. The loans based on the false information from
$22,600 in fines. The following individuals were        Sansur have a total value of approximately $1.48
sentenced or pled guilty during this reporting          million, and the loss to the government based on
period.                                                 these loans is $322,529
    Defendant Raul Altamirano was sentenced to              Defendant Julio Rocha was sentenced in the
six months incarceration and three years supervised     same court to six months incarceration and five
release, and ordered to pay $47,527 in restitution to   years supervised release, and was ordered to pay
HUD. Altamirano obtained forged employment and          $89,573 in restitution to HUD. Rocha, who was
income documents in order to make ineligible            Antonio Esquivel’s assistant at Coldwell Banker
applicants appear qualified for FHA insured loans.      Real Estate in Van Nuys, CA, caused false docu-
Altamirano, who worked as a real estate agent for       ments to be submitted to HUD. The FHA insured
Dynamic Brokers in Montebello, CA, then caused          loans based on false information from Rocha have a
the false documents to be submitted to HUD.             total value of approximately $1 million, and the loss
                                                        to the government based on these loans is $89,573.
    Defendant Emma Barrientes was sentenced in
Federal District Court in Los Angeles, CA, after            Defendant Martiza Portillo of Century 21 Bright
pleading guilty to two counts of making false           Horizons, was sentenced in U.S. District Court,
statements to HUD. She was sentenced to four            Central District of California, to three years proba-
months incarceration and two years supervised           tion and ordered to pay a one-third portion of
release, and was ordered to pay $125,772 in restitu-    $29,500 in restitution to HUD. Defendant Amelia
tion and a $200 special assessment. Barrientes          Arias pled guilty in the same court to five counts of
obtained forged employment and income documents         wire fraud and five counts of making false state-
in order to make ineligible applicants appear quali-    ments to HUD. Arias, a real estate agent for CR
fied for FHA insured loans. As a loan officer at Star   Homes Realty and Sunrise Realty & Investments in
Funding, Barrientes then caused the false docu-         San Bernardino, CA, caused false documents to be

Chapter 2 — HUD’s Single Family Housing Programs                                                           14
submitted to HUD concerning FHA insured loans.          Cheng acted as a middleman and flipped four
The loans were originated based on this false           properties to Fetkovich. The properties were sold at
documentation. The loans have a total value of          falsely inflated prices, with Fetkovich and Fox
approximately $1.6 million, and the loss to HUD is      providing false income and asset information to
more than $206,000.                                     HUD. Cheng had fled to the Dominican Republic
                                                        and Malaysia for nine months upon being indicted.
    Defendant Michael Fox pled guilty in the            A fugitive investigation was initiated, and Cheng
County of New York, Supreme Court of the State          was apprehended on an OIG warrant when he
of New York, to defrauding HUD in connection with       attempted to reenter the United States.
a $1.2 million mortgage fraud scheme involving the
                                                            In a related investigation, from September 1997
HUD Section 203(k) Rehabilitation Home Mortgage
                                                        until November 1999, while Fox was working at
Insurance Program. Fox, while he was employed
                                                        Mortgage Lending of America, he originated 287
with Community Home Mortgage Corporation,
                                                        FHA insured loans under the Section 203(k) Pro-
assisted real estate investor John Fetkovich in
                                                        gram. These loans were obtained by several not-for-
obtaining mortgages by providing false income,
                                                        profits including, but not limited to, Family Preser-
asset, and down payment information to HUD, and
                                                        vation Center, Helpline Soul Rescue Ministries, St.
by structuring many of the transactions as property
                                                        Stephens Baptist Church, St. Stephens Community
flips to inflate the mortgage values. They also
                                                        Development Corporation, St. Stephens Bible
directed 203(k) fee inspector Gary Westwood to
                                                        College, Word of Life Ministries, Word of Life
falsely certify that rehabilitation work was com-
                                                        Community Development Corporation, Advance
pleted. All of the properties involved in the fraud
                                                        Local Development Corporation, and Federation of
scheme have been foreclosed, with HUD losses
                                                        Puerto Rican Organizations. Currently all 287
totaling $700,000.
                                                        properties, most of them located within the New
    Defendant Fetkovich was convicted of conspir-       York City area, are in default. The default amount
ing to defraud HUD. He used intermediaries to           for the properties is $82,613,586. Many of these
acquire and flip properties to his wife at falsely      properties have also been foreclosed. To date, HUD
inflated prices. He also falsified his wife’s income    has paid a total of $35,683,319 in claims to second-
and asset information, and provided FHA 203(k)          ary mortgage banks that held these mortgages.
completion certificates to HUD for work that was
not done.                                                   Defendant Lonny Brooks, a self-employed
                                                        computer technician in Phoenix, AZ, was sen-
    Defendant Westwood was sentenced to six
                                                        tenced in Federal Court, District of Arizona, to five
months confinement and five years probation and
                                                        years probation and was ordered to pay $21,469 in
ordered to pay $51,120 in restitution to HUD.
                                                        restitution to HUD. Brooks previously pled guilty to
Westwood was convicted of making a false state-
                                                        one count of submitting false statements to HUD. An
ment to an OIG Criminal Investigator when he
                                                        investigation disclosed that Brooks created falsified
advised that he performed all the physical inspec-
                                                        W-2 forms and pay stubs and provided them to
tions noted on the FHA 203(k) draw request for
                                                        Marco Vasquez, a former branch manager at
multiple properties, and that the rehabilitation work
                                                        American Financial Resources, Inc. (AFR), and to
was completed. The investigation disclosed in-
                                                        other loan officers employed at Vasquez’s AFR
stances where the rehabilitation work was not done.
                                                        office. Vasquez and the other loan officers submit-
Over $400,000 in rehabilitation funds were released
                                                        ted these falsified wage documents to HUD in order
to a contractor, whose wife was the mortgagor.
                                                        to qualify their clients for FHA insured home loans.
    Defendant Kasing Cheng, a licensed Long             The investigation further disclosed that Brooks had
Island real estate agent and mortgage broker, was       provided Vasquez with a CD ROM computer disk
sentenced in U.S. District Court to seven months        containing blank templates of W-2 forms and pay
confinement and three years supervised release, and     stubs, which Vasquez used to create the false wage
ordered to pay $189,796 in restitution to HUD.          documents for the clients of his AFR office. Vasquez
Cheng was convicted of conspiring to defraud HUD.

Chapter 2 — HUD’s Single Family Housing Programs                                                           15
 pled guilty in the same court to one count of con-      the Cleveland Police Department, Barrow partici-
 spiracy.                                                pated in the program, which allowed him to pur-
                                                         chase a HUD foreclosed property at a 50 percent
     Defendant Lorena Soledad, a former AFR loan
                                                         discount from fair market value on the condition
 officer, was sentenced to five years probation and
                                                         that he reside in the home for at least three years
 ordered to pay $21,726 in restitution to HUD.
                                                         and that he own no other residential property during
 Soledad previously pled guilty to one count of
                                                         that time period. Barrow was sentenced to two years
 submitting false statements to HUD. From late 2000
                                                         probation and 200 hours of community service, and
 through early 2001, Soledad prepared four FHA
                                                         was fined $500. Barrow previously paid $12,500 in
 insured home loan packages, with insured mort-
                                                         restitution to HUD when he pled guilty.
 gages totaling $353,164, which contained falsified
 wage documents she received from Vasquez.
                                                             Defendant Darrel Lattimore, a real estate
     Defendant Jose Alvarado, a former AFR loan          investor, was sentenced in District Court, Chicago,
 officer, was sentenced to five years probation and      IL, to eight months in prison and two years super-
 ordered to pay $35,216 in restitution to HUD.           vised release, and ordered to pay $76,802 in restitu-
 Defendant Sandra Rodriguez, another former AFR          tion to a conventional lender. Lattimore fraudu-
 loan officer, pled guilty to one count of conspiracy    lently facilitated the purchase, sale, and/or refinanc-
 to submit false statements to HUD. Defendant Stacy      ing of eight properties through a real estate land flip
 R. Ghazi, a former branch manager at Credit             scheme. Lattimore and his co-conspirators submit-
 Reporters, was sentenced to five years probation,       ted falsified mortgage loan documentation, which
 fined $2,500, and ordered to pay $21,726 in restitu-    included inflated income figures and falsified
 tion to HUD. Ghazi provided Vasquez with falsified      appraisals for himself and for other purchasers he
 credit reports which were used to qualify the clients   recruited. Lattimore shared portions of the land flip
 of Vasquez’s branch office for FHA insured loans.       proceeds with the other defendants who participated
 Ghazi admitted receiving $2,000 to $3,000 from          in the fraud. The total losses in this case exceed $10
 Vasquez for the preparation of 20 to 30 falsified       million; the HUD losses exceed $2 million.
 credit reports.
                                                             Defendant Melva Crittenden-Wynn, an ap-
     The scheme involved 138 FHA insured home            praiser, was sentenced in District Court, Chicago,
 loans with a total value of $11.9 million that were     to 15 months in prison and two years supervised
 originated based on fraudulent documentation. Nine      release, and ordered to pay $2,402,205 in restitu-
 loans have gone into foreclosure, and to date, losses   tion to conventional lenders. Wynn’s prison sen-
 to HUD exceed $100,000.                                 tence and restitution amount were based on her
                                                         conduct in two real estate land flip schemes, one of
     Defendant Allen Wade Creek was sentenced in         which was an OIG investigation. Crittenden-Wynn
 U.S. District Court, Middle District of Florida,        conducted at least 31 inflated appraisals to facilitate
 Tampa, to 18 months in prison and three years           the second sale in the fraudulent land flip scheme.
 supervised probation, and ordered to pay $18,544        Her appraisals were used to over-value properties
 in restitution to HUD and a $100 special assessment     that were funded by private lenders. In addition to
 fee. Creek’s sentencing stemmed from a one-count        Crittenden-Wynn’s standard appraisal fee, she
 indictment issued against him in September 2002         received a bonus kickback check under an alias. In
 for making a false statement to HUD on a uniform        furtherance of the scheme, Crittenden-Wynn also
 residential loan application used to obtain an FHA      concealed her real identity by using her maiden
 insured loan. Creek pled guilty the following           name to fraudulently appraise a property her
 month.                                                  husband purchased from another defendant. At least
                                                         13 of the properties that she appraised went into
     Defendant Kelvin Barrow was sentenced in            foreclosure. Lattimore and Wynn are the 18th and
 U.S. District Court, Northern District of Ohio, for     19th people out of 20 defendants to be sentenced in
 violating the provisions of HUD’s Officer Next Door     a 60-property FHA/conventional loan land flipping
 Program. While employed as a Police Officer with        scheme in Chicago.

Chapter 2 — HUD’s Single Family Housing Programs                                                             16
    Defendant Kevin J. Everson, a real estate           excess of $650,000. Along with Witt and Randall,
broker, property developer, and loan officer in         two other individuals have also been charged in this
Boise, ID, was sentenced in Federal Court, District     investigation.
of Idaho, to 24 months incarceration and ordered to
pay $132,685 in restitution and fines. Defendant             Defendant Kenny Shaw, a real estate agent, was
Jeanette Espinosa, a former mortgage loan officer       sentenced in Federal Court for the Western District
and Everson’s business partner, was sentenced to        of Tennessee, Memphis, to 21 months in prison and
three months home detention and three years             ordered to pay $315,042 in restitution and a $100
probation, and fined $10,000.                           special assessment fee. The sentencing is the result
                                                        of an investigation into a single family property
    In the same case, defendant Clay Preuit, a
                                                        flipping scheme of involving 300 FHA insured and
former supervisor at Transnation Title and Escrow
                                                        conventional properties. Straw purchasers were used
Company, pled guilty in Federal Court, District of
                                                        to flip the properties, and the proceeds from the
Idaho, to two counts of making false statements to
                                                        transactions were shared among the defendants. The
HUD as part of a plea agreement with the U.S.
                                                        scheme has resulted in a potential loss to HUD of $3
Attorney’s Office in Boise. In July 2002, a Federal
                                                        million. As a result of the investigation, four
Grand Jury indicted Preuit on 18 counts of wire
                                                        defendants have been charged and prosecuted.
fraud, two counts of mail fraud, and one forfeiture
count for his part in the scheme to cause
                                                            Defendant Clyde Pate was sentenced in Federal
Transnation Title and Escrow to approve numerous
                                                        Court, Eastern District of Missouri, St. Louis, to
fraudulent documents on behalf of unqualified
                                                        three years imprisonment and three years super-
borrowers. Everson was the ringleader in orchestrat-
                                                        vised release, and ordered to pay $170,126 in
ing 59 fraudulent single family mortgages worth
                                                        restitution. Pate previously pled guilty to a two-
$5.3 million. Twenty-four of the 59 mortgages were
                                                        count federal information charging him with misuse
FHA insured. Among the seven co-conspirators,
                                                        of a Social Security number and filing false bank-
seven have been convicted and were indicted on
                                                        ruptcy petitions. Pate pled guilty to two different
charges of mail fraud, bank fraud, and conspiracy.
                                                        schemes. One of the schemes involved an insurance
                                                        scam whereby he purchased four properties using
     Defendant Preston Randall was sentenced in
                                                        false identifications, obtained homeowners insur-
Federal Court, Eastern District of Missouri, to 12
                                                        ance on the properties, set the homes on fire, and
months in prison and three years supervised release,
                                                        then filed a claim on each property. He obtained a
and ordered to pay $440,000 in restitution. Randall,
                                                        total of $170,126 from two insurance companies.
operating as a St. Louis, MO company called
                                                        The second scheme involved selling properties he
HyRizing Investments, purchased dilapidated homes
                                                        did not own via false quit claim deeds. He forged
and sold them to strawbuyers and used the identity
                                                        and recorded false deeds at the St. Louis Recorder
of individuals with good credit without their knowl-
                                                        of Deeds Office and sold the properties without the
edge. In April 2002, Randall pled guilty to con-
                                                        true owners’ knowledge or consent. As part of the
spiracy to commit mail fraud. He admitted to
                                                        scheme, Pate also falsely completed and filed
illegally flipping properties at inflated values and
                                                        bankruptcy petitions in the names of the true owners
obtaining loans using false identities and income
                                                        in order to keep the City from selling the properties
documentation.
                                                        for delinquent taxes.
    Defendant B.C. Witt pled guilty to an informa-
tion filed in the Eastern District of Missouri charg-       Defendant Carol Wynona Mercer was sentenced
ing him with conspiracy to commit mail fraud. Witt      in U.S. District Court, Eastern District of Califor-
admitted providing false tax returns and other false    nia, Fresno, to ten months in a halfway house and
documents to Randall. Randall paid Witt to provide      one year supervised release, and ordered to pay
false tax returns and other false documents to get      $140,850 in restitution. Mercer pled guilty to a
strawbuyers qualified for loans. The mortgage fraud     one-count information charging her with causing
conspiracy caused losses to mortgage companies in       false statements to be made to HUD. Mercer admit

Chapter 2 — HUD’s Single Family Housing Programs                                                          17
ted the she caused false gift letters to be submitted   In October 2002, Rogof pled guilty to an informa-
to HUD and that she provided the funds described as     tion charging him with conspiring to commit mail
gifts to the borrowers.                                 fraud, loan application fraud, and making false
                                                        statements to HUD. From September 1996 through
    Defendant John C. Carlisle, Jr., was sentenced      August 2001, Rogof conspired with a real estate
in Federal Court, Southern District of Texas,           broker to falsify documents in seven loan files; four
Houston, to 34 months in prison, fined $10,000,         of the loans were FHA insured. The false financial
and ordered to pay $78,000 in restitution. Carlisle     documents consisted of verifications of employ-
was previously charged with mail fraud and con-         ment, verifications of deposit, W-2 forms, W-4
spiracy. The investigation disclosed that Carlisle      forms, Form 1040 tax return forms, and payroll
operated as a home improvement contractor in the        stubs. Rogof purchased several of the properties in
Houston area and solicited homeowners, through          his true name and used the aliases of Daniel Rokov
flyers and newspaper advertisements, to apply for       and Aviv Bachar to purchase others. Rogof also
government insured home improvement loans of up         provided false identification documents for
to $25,000 each. Carlisle then conspired with other     strawbuyers whom he paid to purchase properties.
home improvement contractors, bank lending              He then collected rent from the tenants he placed in
officers, and homeowners to obtain these loans by       those properties, through his corporation, Aviv
using false documentation, including false employ-      Enterprises, Inc., and failed to pay the mortgages.
ment information and fraudulent bankruptcy dis-         Rogof is an Israeli citizen who is also wanted in
charge documents. In many instances, the loan           Israel on land fraud charges and was arrested in
proceeds were shifted between the accounts of co-       South Africa before being extradited to the United
conspirators to conceal Carlisle’s involvement          States to face these charges.
because he was convicted of fraud in November
1996 and barred from engaging in transactions                Defendant Yigal Rappaport, an Alexandria, VA
involving HUD insured home improvement loans.           real estate agent, was sentenced in Federal Court,
The amount of loss to the Department is $370,150.       Eastern District of Virginia, to 24 months proba-
                                                        tion, fined $2,500, and ordered to pay $8,875 in
    Defendant James Weatherly, a former profes-         restitution. Rappaport was involved in a mortgage
sional football player and an agent of Allstate         fraud scheme in which he used fraudulent gift
Mortgage Company, was sentenced in U.S. District        letters that allowed buyers to purchase FHA insured
Court, Central District of California, Los Angeles,     properties with no cash investment. The borrowers
to six months incarceration and ordered to pay          defaulted on the loans and the properties subse-
$70,000 in restitution. Weatherly previously pled       quently went into foreclosure, resulting in a loss of
guilty to five counts of mail fraud. He located         $223,000 to FHA. In August 2002, Rappaport pled
properties for Victor Noval, the owner of Allstate      guilty to a one-count information charging him with
Mortgage Company, and Douglas Estrada, his co-          submitting a false statement to HUD. One other
conspirator. These properties were later signifi-       individual has been charged and sentenced in this
cantly overvalued and sold to straw borrowers.          case.
Weatherly and his co-conspirators attempted to
fraudulently originate about 450 FHA Title II single        Defendant Darrell Hill, a homebuyer/recruiter
family mortgage loans amounting to $100 million;        located in New York City, was sentenced in U.S.
however, through early detection only one-third of      District Court to 24 months incarceration for his
these loans were insured by HUD. This resulted in a     involvement in a scheme to defraud the FHA Section
loss to HUD of approximately $10 million.               203(b) Insurance Program. Hill knowingly took
                                                        false writings and documents to assist unqualified
    Defendant Daniel Rogof, a real estate investor,     homebuyers in obtaining FHA insured mortgages.
was sentenced in Federal Court for the Southern         He submitted and caused to be submitted loan
District of Florida, Ft. Lauderdale, to 21 months       applications to banks which fraudulently overstated
in prison and ordered to pay $27,936 in restitution.    the income of the homebuyers and misrepresented

Chapter 2 — HUD’s Single Family Housing Programs                                                           18
the sources of funds used for down payments and          regarding allegations that he filed 16 fraudulent
closing costs. Hill recruited several strawbuyers        bankruptcy petitions from 1990 to 2000. Specifi-
who purchased a total of 21 homes with FHA in-           cally, Jeffries was allegedly part of a scheme to
sured loans. Of the 21 loans, 16 have already had        defraud two lending institutions and the Federal
claims paid out by HUD, and the other five are in        Government. According to the information, Jeffries
default. The total loss to the government is over        filed the voluntary bankruptcy petitions using four
$4.2 million.                                            different aliases and Social Security numbers in an
                                                         attempt to stall the foreclosure process on his FHA
    Defendant Philemon Atugokoh, the owner of a          insured property in Chicago. The property was
tax preparation company in Greenbelt, MD, was            purchased on two separate occasions with FHA
sentenced in Federal Court to 12 months incarcera-       insurance by virtue of Jeffries’ using false names
tion and two years probation for his role in creating    and Social Security numbers for each of the loans.
fraudulent W-2 forms and accompanying pay stubs          He managed to forestall the foreclosure process for
for individuals attempting to qualify for FHA in-        several years while filing the bankruptcies. By
sured mortgages. Atugokoh also created fraudulent        doing this, Jeffries repeatedly violated the bank-
and fictitious verification of employment forms,         ruptcy court ban on serial filings.
certifying that individuals were employees of his
company or other companies. In addition, he                  An investigation discovered a fraud scheme
supplied fictitious employment information to            involving former employees of American Interna-
mortgage company personnel seeking to verify the         tional Mortgage Bankers (AIMB) who assisted in
employment of individuals as employees of his            obtaining FHA insured loads from questionable
company. The loss in this case was approximately         homebuyers located in the New York City metro-
$250,000.                                                politan area, including Nassau and Suffolk counties.
                                                         Over 90 percent of the FHA insured loans from
     Defendant Mark Carter, a former employee of         AIMB contained one or a variety of altered docu-
Prime Construction, a Section 203(k) contractor,         ments, including false pay stubs, bank statements,
pled guilty in District Court, Northern District of      W-2’s, rent, employment, and deposit verifications,
Illinois in Chicago, to one count of mail fraud.         credit worthiness letters, gift letters, and credit
From 1994-1997, Carter and others were part of a         reports. Additional documents were also altered
scheme to defraud lending institutions and the           with the help of other individuals outside of AIMB.
Federal Government by assisting an unqualified           The Section 203(b) loans were subsequently en-
buyer in purchasing four FHA insured properties          dorsed; over 400 FHA loans are in question. It is
using fraudulent documents. Specifically, Carter         estimated that FHA has insured as much as $80
admitted that he signed false verifications of em-       million in loans through AIMB that could result in
ployment, thus enabling the unqualified buyer to         significant losses to the insurance fund.
qualify for the loan. In addition, Carter, while
                                                             Defendant William Skinner pled guilty in U.S.
acting as a contractor, falsely certified contractors’
                                                         District Court, Eastern District of New York, to
affidavits, lien waivers, and draw requests to make
                                                         false statement charges and was sentenced to 18
it appear that rehabilitation work was completed
                                                         months in prison. Skinner purchased and sold two
when in fact no work had been done. Following the
                                                         properties. Each property, which was bought and
closings on these loans, all of the phony rehabilita-
                                                         sold on the same day, was insured through the FHA
tion money was released from escrow with no
                                                         Section 203(b) Program.
repairs ever being completed. After the buyer
defaulted on the loans, the properties were demol-           Defendants Donna Martin, senior underwriter,
ished by the City of Chicago. The total loss to HUD      Lenore Thomas, underwriter, and Emerick Martin,
was $386,000.                                            Nicholas Graham, and Matthew Francis, loan
                                                         officers, all of whom were all formerly employed by
   In the same case, defendant Harrison Jeffries
                                                         AIMB in Lake Success, NY, were indicted in U.S.
was charged by information in District Court,
                                                         District Court for their alleged involvement in the
Chicago, with nine counts of bankruptcy fraud
                                                         scheme.
Chapter 2 — HUD’s Single Family Housing Programs                                                          19
    Defendant Javier Jara surrendered in the East-      benefits on behalf of properties that, as a result of
ern District of New York and was charged with           the fraudulent deeds, he did not actually own.
conspiracy and mail fraud. Jara was a loan officer at
                                                            Defendant Joyce Primous, a notary public, pled
AIMB. Defendants Valerie Vineyard, a former loan
                                                        guilty to one count of wire fraud. Primous admitted
processor, and Francine Sweet, a contractor, were
                                                        to conspiring with co-defendants Michael
indicted and charged with conspiracy to commit
                                                        Weathersby and Jermaine Weathersby, her nephews,
offense or defraud and United States, making false
                                                        by participating in the fraud scheme. Specifically,
statements to HUD, mail fraud, fraud and swindle,
                                                        following the Weathersbys’ successful location of
and using a fictitious name and/or address.
                                                        properties in Chicago that appeared to be aban-
                                                        doned, Primous would assist in illegally transfer-
    In Federal Court, District of Nevada, Las
                                                        ring ownership of the properties through the filing
Vegas, defendants Marisa Perez, Michelle
                                                        of fraudulent deeds. The properties were subse-
Montano, Andrea Hinojosa, and Karina Delgadillo
                                                        quently sold to various strawbuyers. Primous
pled guilty to count one of a criminal information
                                                        improperly notarized the signatures of the co-
charging them with making false statements to HUD
                                                        defendants, who signed the deeds using multiple
during the origination of FHA insured loans. Perez
                                                        aliases. She also assumed the false identity of a
and Montano, both loan officers, and Hinojosa, a
                                                        deceased relative in order to receive a title
loan processor, worked for Nevada First Residential
                                                        company’s disbursement check during the closing
Mortgage Company. Delgadillo worked as an
                                                        of one of the fraudulent mortgage transactions.
administrative assistant at General Realty. Together,
                                                        Primous negotiated the check for Michael
they helped provide false Social Security numbers
                                                        Weathersby, converting part of the proceeds into a
and fraudulent income and employment information
                                                        bank check made payable to a car dealership, which
to buyers in order to obtain FHA insured loans.
                                                        Weathersby then used to purchase a vehicle.
Most of the buyers were illegal immigrants from
Mexico. This investigation involves 243 FHA                 Defendant Jermaine Weathersby pled guilty to
insured loans valued at over $26 million. To date,      one count of wire fraud. Weathersby obtained
the loans that have gone into default total over $3     fraudulent identification documents and used a false
million.                                                identity to pose as the buyer and/or seller of various
                                                        properties. He received numerous title company
     Defendant Michael Weathersby, an investor/         disbursement checks from the closings on these
property rehabilitation specialist, pled guilty in      fraudulent mortgage transactions, which he negoti-
Federal Court, Northern District of Illinois, Chi-      ated for his brother, codefendant Michael
cago, to one count of wire fraud and one count of       Weathersby. Cathleen Smith, a strawbuyer and a
money laundering. Weathersby masterminded and           strawseller, also pled guilty to one count of wire
participated in a scheme to defraud mortgage            fraud. Like Jermaine Weathersby, Smith obtained
lenders of approximately $2 million. After locating     fraudulent identification documents and used a false
apparently abandoned properties in Chicago and          identity to pose as the buyer and/or seller of various
illegally transferring ownership of the properties      properties.
through the filing of fraudulent deeds, he sold the
                                                            Defendant Steven Johnson, a licensed real estate
properties to strawbuyers. Weathersby continued the
                                                        broker, pled guilty to one count of wire fraud.
scheme by directing the title companies to issue the
                                                        Johnson conspired with the Weathersbys. Johnson
proceeds of the loan closings in various aliases and
                                                        provided appraisals which substantially overstated
his company’s name in order to launder the profits.
                                                        the values of numerous properties in order to obtain
Some of these properties were FHA insured.
                                                        the maximum amount of mortgage proceeds pos-
Weathersby later devised a scheme to defraud the
                                                        sible.
Chicago Housing Authority Corporation, a Housing
Authority contractor, out of approximately $28,000
                                                            In Charlotte, NC, defendants Willie Green and
in rent subsidy payments by collecting Section 8
                                                        Alice Green each pled guilty in Federal Court for


Chapter 2 — HUD’s Single Family Housing Programs                                                                20
the Western District of North Carolina to one count     McDowell’s case, she was a Section 8 tenant at the
of making false statements to HUD. The Greens           time she purchased the single family property.
were employees of First Beneficial Homes (FBH), a       Fraudulent statements made by the individuals
subsidiary of First Beneficial Mortgage Company         involved in this case included names, Social Secu-
(FBMC). While they were employed at FBH, the            rity numbers, employment information, and fabri-
Greens recruited strawbuyers to sign fraudulent         cated down payments.
mortgage notes, knowing that the false notes were
going to be sold to the government. The notes were          Husband and wife defendants Deon McAuley
sold to Government National Mortgage Association        and Tryna Wilson-McAuley, Cleveland, OH Police
(Ginnie Mae) investors by FBMC. The Greens also         Officers, pled guilty in District Court, Northern
received large sums of money for recruiting             District of Ohio, to making false statements to HUD
strawbuyers.                                            in relation to the purchase of each of their homes
                                                        through HUD’s Officer Next Door (OND) Program.
    Defendant RichieDean Gess pled guilty to one
                                                        Through the program, McAuley received a $20,500
count of conspiracy to defraud HUD through Ginne
                                                        discount; however, he failed to live in the property
Mae. Gess was employed as the vice president of
                                                        pursuant to HUD’s three-year occupancy require-
underwriting for FBMC, and was also approved by
                                                        ment. Additionally, his wife, Wilson-McAuley, also
HUD for direct endorsement authority. She and her
                                                        purchased an OND property and received a $27,500
co-conspirators devised and executed a mortgage
                                                        discount. While married and living together, they
fraud scheme whereby they obtained millions of
                                                        rented out each of their OND properties. Both pleas
dollars from the secondary mortgage market by
                                                        stipulated their acceptance of responsibility, but did
making and selling fraudulent mortgage notes in the
                                                        not require either termination or resignation. Those
names of fictitious borrowers. Gess used her au-
                                                        actions, according to the plea, were left up to the
thority to obtain and assign FHA case numbers to
                                                        Police Department.
the fraudulent mortgages. These mortgages were
sold to investors in the form of mortgage-backed            Earlier, informations were filed against both
securities guaranteed by Ginnie Mae.                    McAuleys, Kelvin Barrow, another Cleveland Police
                                                        Officer, and Jerome E. Newby, a former Federal
    Defendants James McLean, president of First
                                                        Probation Officer/Auxiliary Police Officer. All
Beneficial Mortgage Company, his wife, Macy, and
                                                        were charged with making false statements in
two of their employees, James and Debbie
                                                        transactions involving HUD’s OND Program. The
Zimmerman, were convicted in federal court and
                                                        “Officer Next Door Program” allows Police Offic-
found guilty. The McLeans were found guilty on 66
                                                        ers to purchase HUD foreclosed properties at a
counts of conspiracy, wire fraud, bank fraud,
                                                        substantial discount (50 percent of fair market
making false statements, and money laundering.
                                                        value), on the condition that they actually live in the
James McLean was also ordered to forfeit $8
                                                        homes for at least three years. A primary purpose
million in property owned by him and his company.
                                                        of the program is to create a police presence in
He was ordered held without bail pending his
                                                        those residential areas. Allegedly, each of the
sentencing. The Zimmermans were convicted of
                                                        defendants falsely certified to HUD that they in-
one count of conspiracy and three counts of passing
                                                        tended to use the property they were purchasing as
counterfeit mortgages. The Government National
                                                        their residence.
Mortgage Association suffered a loss of $28 million
as a result of the fraudulent scheme.
                                                            Defendant Javier Estrada pled guilty in Federal
                                                        Court, Northern District of Texas, Fort Worth, to
    In Cleveland, OH, defendant Cherese
                                                        one count of misuse of a Social Security number
McDowell pled guilty in District Court, Northern
                                                        (SSN). Estrada, an illegal alien, admitted to using
District of Ohio, to conspiracy and misuse of a
                                                        another person’s SSN to secure an FHA insured loan.
Social Security number. She was charged along
with 40 other individuals in the Northern District of      Defendant Thomas Becerra was indicted on one
Ohio in a 100-count single family indictment. In        count each of misuse of a SSN. Becerra falsified

Chapter 2 — HUD’s Single Family Housing Programs                                                            21
loan documents to obtain an FHA mortgage. Becerra          Defendant Michael James Fothergill, also
is also an illegal alien from Mexico who purchased     known as Lawrence Thomas, the owner of
a SSN 10 years ago and used the false SSN to obtain    Alexandra Financial & Property Management, Inc.,
the FHA loan.                                          pled guilty in Federal District Court, Southern
                                                       District of Florida, Fort Lauderdale, to one count
     In the same case, defendant Leon Pope, a
                                                       of conspiracy to commit bank fraud and money
former HUD closing attorney, signed a pre-trial
                                                       laundering and one count of money laundering. A
diversion agreement for charges of mail fraud and
                                                       co-conspirator, Fernando Cazaux, who acted as an
agreed to pay the Department $47,152. Pope
                                                       investor, pled guilty to one count of conspiracy to
admitted involvement in the fraudulent scheme to
                                                       commit bank fraud and money laundering and one
overcharge HUD for tax certificates. Starting in the
                                                       count of money laundering. A Federal Grand Jury
early 1990’s, Pope entered into an agreement with
                                                       previously returned an eight-count indictment
Texas Real-Tax, Inc., an Austin based corporation,
                                                       against Fothergill and Cazaux charging them with
to defraud HUD by purchasing tax certificates for
                                                       conspiring to defraud HUD/Wells Fargo and various
single family closings at less than face value. Pope
                                                       loan institutions by obtaining loans in fictitious
is the second of three closing attorneys to admit to
                                                       names and creating false documentation to secure
this fraud. This investigation involves approxi-
                                                       loans for 28 properties. Fothergill and Cazaux
mately $3 million in loans.
                                                       developed a complex scheme to keep the loan pay-
                                                       off proceeds received from the loan institutions.
    Defendant Lucas Reyes, a co-owner of Pacific
                                                       These proceeds amounted to over $2.9 million. The
Investment Capital, a mortgage brokerage company
                                                       losses to HUD on the FHA insured properties are
in Los Angeles, CA, pled guilty in U.S. District
                                                       over $200,000.
Court for the Central District of California to one
count of wire fraud. Reyes and others knowingly
                                                            In Houston, TX, defendants James Q. Nguyen,
obtained fraudulent Title I home improvement loans
                                                       branch office manager, and his identical twin
for properties with fraudulently obtained Title II
                                                       brother, Thomas Q. Nguyen, were both charged
loans insured by FHA. The Title I loan applications
                                                       with one count of conspiracy to commit money
contained false wage and employment information,
                                                       laundering, three counts of bank fraud, five counts
and falsely represented that the loan proceeds would
                                                       of laundering criminally derived property, and ten
be used to improve the properties. Instead, portions
                                                       counts of money laundering. A Federal Grand Jury
of the loan proceeds were used to make the mort-
                                                       in the Southern District of Texas returned a 19-
gage payments on the fraudulently obtained Title II
                                                       count indictment charging the two escrow officers
loans. The actions of Reyes and others caused a loss
                                                       of American Title Company with engaging in a $20
of $241,000 to HUD. The fraudulently obtained
                                                       million mortgage fraud scheme. The indictment
Title II home mortgage loans resulted in losses to
                                                       reflected the government’s intent to seek the forfei-
HUD of over $4.5 million.
                                                       ture of all property traceable to the alleged criminal
                                                       conduct, and was sealed until the arrests were made
    Defendant Michael Mittler pled guilty in U.S.
                                                       the next day. Allegedly, the Nguyens falsely repre-
District Court, Middle District of Florida, Tampa,
                                                       sented to lenders that borrowers had provided down
to one count of obstruction of justice. Mittler, a
                                                       payments to the title company, inducing the lenders
former employee of Great Stone Mortgage Com-
                                                       to allow funding and disbursement of single family
pany, made a false statement to OIG. He entered into
                                                       loan proceeds. The Nguyens then issued sellers’
a plea agreement and was sentenced to 36 months
                                                       proceeds checks to dummy corporations consisting
probation and six months home detention, and
                                                       of conspirators who have already been prosecuted.
ordered to pay a $2,000 fine and a $100 special
                                                       These proceeds checks contained the full loan
assessment fee. Mittler was also ordered to obtain
                                                       proceeds from the lenders and the down payment
drug rehabilitation counseling. This investigation
                                                       money “fronted” to the conspirators by the title
involves fraud against FHA and the Government
                                                       company. The conspirators then took the sellers’
National Mortgage Association.
                                                       proceeds checks to a bank and exchanged them for

Chapter 2 — HUD’s Single Family Housing Programs                                                          22
cashiers’ checks for the down payments. Analysis of      counts: engaging in a pattern of corrupt activity,
bank records revealed that the dummy corporations        conspiracy, taking the identification of another,
did not have funds in their accounts to cover the        falsification, securing writings by deception, forg-
down payments prior to the deposit of the sellers’       ery, uttering, possession of heroin, possession of
proceeds checks. The $20 million in mortgage loans       cocaine, identification theft, money laundering, and
consisted of insured loans (in excess of $1 million)     tampering with records.
and conventional loans.
                                                             In this fraud scheme, defendant Damon Berry
                                                         sold James Smith the identity of a five-year-old
    Defendants Ryan Bonneau, a mortgage broker
                                                         child named Isaiah Campbell. Defendants Errol
and loan officer, along with Misti Lynn Byrd,
                                                         Howard, Linda Bivens, and Lisa Jones created false
Pauline Louise Gentry, Todd Mikal Troen, and
                                                         tax returns and mortgage documents for Smith so
Mack James Gentry, were indicted by a Federal
                                                         that he could purchase real estate using the name of
Grand Jury in the District of Oregon charging the
                                                         Isaiah Campbell. Gregorio Pimental, also known as
five Portland individuals with real estate fraud.
                                                         Nino, retained the services of James Smith to
The 28-count indictment charges the individuals
                                                         receive, hold, and sell illegal controlled substances
with conspiracy and fraud for their part in originat-
                                                         in Cleveland, with the assistance of Stephanie
ing 24 fraudulent mortgages worth an estimated $10
                                                         Walker, Dwight Walker, and Dennis McKenzie.
million. The charges include conspiracy, wire
                                                         Smith used the proceeds from the sale of the illegal
fraud, fraud against HUD, false statements in loan
                                                         controlled substances to purchase real estate.
applications, money laundering, and bank fraud,
                                                         Richelle Spears aided and abetted James Smith in
and allege the use of false financial information and
                                                         receiving money from the Cuyahoga Metropolitan
falsely inflated appraisals in a complex scheme to
                                                         Housing Authority as a Section 8 landlord under the
defraud HUD, banks, and other lenders. Fifteen of
                                                         identity of Isaiah Campbell, while failing to make
the involved loans were FHA insured. HUD’s loss, to
                                                         mortgage payments on the single family properties.
date, has been estimated at approximately
$564,000.                                                    Additionally, defendants Gregorio Pimental and
                                                         Carlos Abreu were arrested when they attempted to
    A Federal Grand Jury in the Northern District        enter one of the single family properties that was in
of Georgia returned a 22-count indictment against        foreclosure. Pimental was one of the Massachusetts
defendant Sandra Rice, a real estate agent with Re       Parole Authority’s ten most wanted persons. The
Max of Atlanta, GA. The charges include con-             value of assets seized exceeds $220,000.
spiracy, wire fraud, mail fraud, HUD fraud, and a
forfeiture provision for property obtained as a result       A Federal Grand Jury in the District of Massa-
of the fraudulent scheme. The indictment alleges         chusetts indicted Angel Serrano on one count of
that Rice was part of an organization that conspired     conspiracy, one count of mail fraud, and one count
with other individuals to originate 22 fraudulent        of false statements. The indictment is the result of
mortgages amounting to over $3.1 million.                an investigation of property flipping in Westfield,
                                                         MA. Serrano allegedly acted as an unlicensed
    On the same day, a Federal Grand Jury returned
                                                         broker who steered low-income, first-time
a 52-count indictment against defendant Glen
                                                         homebuyers, primarily Hispanics, toward purchas-
Allen, a loan officer at Bankers Financial Group,
                                                         ing properties. In order to qualify the buyers,
Inc. The charges include conspiracy, wire fraud,
                                                         Serrano prepared numerous false gift letters, in-
HUD fraud, and a forfeiture provision for property
                                                         come statements, lease documents, and credit
obtained as a result of the fraudulent scheme. The
                                                         documents and submitted them to the mortgage
indictment alleges that Allen conspired with other
                                                         lender. In order to continue the scheme, a closing
individuals to originate over 30 fraudulent mort-
                                                         attorney conducted the real estate closing for both
gages amounting to over $4.3 million.
                                                         sides of the flip and failed to notify the mortgage
                                                         lender, as required by FHA on a double escrow.
    In Cleveland, OH, ten individuals were in-
dicted on the following state charges that total 81

Chapter 2 — HUD’s Single Family Housing Programs                                                            23
     Defendant Barbara Kessinger, also known as          operated Homeowner Services in Arizona. Losses
Sheila Murphy, was indicted by a Federal Grand           to the government as a result of this scheme total
Jury in the Northern District of Illinois, Chicago,      approximately $390,000.
on one count of mail fraud and six counts of bank-
ruptcy fraud. The indictment charges Kessinger                In U.S. District Court, Central District of
with fraudulently obtaining financing to obtain one      California, defendant Kelli Davis, a loan officer at
FHA insured property and two properties that were        RE Mortgage Group, Inc., in Downey, CA, was
owned by the Department of Veterans Affairs. The         indicted on six counts of wire fraud for her involve-
indictment alleges that Kessinger acquired the           ment in a single family loan origination fraud
properties by submitting falsified borrower informa-     scheme. Davis, along with other real estate profes-
tion that included a false Social Security number, a     sionals, fraudulently purchased employment,
false name, and fabricated income and employment         income, and credit documents from a known forger.
documentation. As part of the fraud, Kessinger           The forger was convicted in Federal Court in
failed to make the required payments on the mort-        August 2002. Davis then packaged the fraudulent
gage loans. In addition, she purposely filed six false   documentation into more than 80 mortgage loan
Chapter 13 bankruptcy petitions from 1997-1999 in        applications for unqualified borrowers. The fraudu-
order to halt foreclosure proceedings. Following the     lent applications were eventually submitted to HUD.
dismissal of the bankruptcies, all three properties      Davis was arrested at her place of business, Pro 1
went into foreclosure. The loss to HUD was               Mortgage, as a result of an arrest warrant that was
$74,149, while the loss to the Department of             issued in U.S. District Court for the Central Dis-
Veterans Affairs was $36,524.                            trict of California. The value of the fraudulently
                                                         funded loans exceeded $11.4 million. The resulting
    Defendants William E. Fallon and Julie A.            loss to HUD exceeded $5.2 million.
Fallon, doing business as Homeowner Services of
Arizona, Phoenix, AZ, and Michael D. Henschel,                Defendant Waldo Andia, a property speculator
doing business as Proserve, Van Nuys, CA, were           in Rockville, MD, was arrested at his residence
indicted by a Federal Grand Jury in U.S. District        after previously being indicted in Federal Court for
Court, District of Arizona, on five counts of wire       the Districr of Maryland on false statement charges.
fraud. An investigation focused on a scheme in           Andia allegedly flipped approximately 40 single
which homeowners, whose mortgages were in                family properties. He typically sold the homes to
default and who were facing foreclosure, were            first-time homebuyers, who purchased the homes
contacted by the Fallons and told that Homeowner         using both FHA insured and conventional mortgage
Services could delay the foreclosure. The Fallons        loans. Andia created false employment documents
collected rent and fees from homeowners, while           for homebuyers, including W-2’s, pay stubs, and
Henschel filed fraudulent bankruptcies in California     verifications of employment, to help them qualify
to delay the foreclosure process. Henschel origi-        for the mortgage loans. The potential loss attribut-
nated the same scheme in California and the Fallons      able to the fraudulent documents is $250,000.
moved to Arizona to continue the fraud. Over 1,000
property owners in California signed deeds and paid          Defendant Brian G. Hoch, sales representative
fees to Proserve; this included about 120 properties     for Barwood Estates Development in Dover, PA,
with FHA insured mortgages and 40 properties with        was debarred from participation in procurement and
mortgages guaranteed by the Department of Veter-         non-procurement transactions with HUD or the
ans Affairs. In addition, Henschel caused over 200       Federal Government for four years. Developer Gary
fraudulent bankruptcies to be filed in California by     L. Sweitzer and his company, Gary L. Sweitzer
using fictitious names and Social Security numbers.      Enterprises, Inc., were also debarred from partici-
The Fallons secured deeds from 39 homeowners in          pation in procurement and non-procurement trans-
Arizona, 18 of whom had FHA insured mortgages.           actions with HUD or the Federal Government for ten
They then collected about $51,000 in fees/rents          years. These debarments are based on information
from the homeowners during the period they               that Hoch and Sweitzer participated in a scheme

Chapter 2 — HUD’s Single Family Housing Programs                                                              24
whereby they and other conspirators used fraudu-             Defendants Williams and Jackson were sen-
lent gift letters and sweat equity to provide mort-     tenced in U.S. District Court for the Central Dis-
gagors with most or all of the funding required to      trict of California for their roles in the scheme.
purchase FHA insured homes, including funds for         Williams was sentenced to 15 months incarceration
the down payments and to pay off debts to ensure        and three years probation, and ordered to pay
that they qualified for the mortgages. Hoch helped      $465,560 in restitution to HUD. Jackson was sen-
to originate, and Sweitzer sold up to 110 homes         tenced to four months in a halfway house, four
with, FHA insured mortgages in Barwood Estates.         months home detention, and five years probation,
Currently, 19 of these loans have gone into foreclo-    and ordered to pay $340,605 in restitution to HUD.
sure, totaling over $1.8 million in potential claims    This investigation was initiated based on a referral
to the FHA insurance fund. Both Hoch and Sweitzer       from the HUD Home Ownership Center.
have signed agreements to plead guilty to con-
spiracy to commit HUD fraud in U.S. District Court          Defendant Ismael Rodriguez, an Essex County,
for the Middle District of Pennsylvania.                NJ Sheriff’s Officer, pled guilty in U.S. District
                                                        Court, District of New Jersey, to knowingly and
    A five-count False Claims Act civil complaint       willfully making a materially false, fictitious, and
was filed in the Southern District of Texas by the      fraudulent statement and representation relating to
Houston U.S. Attorney’s Office against Charles          the purchase of a residence under HUD’s Officer
Anthony, a deputy with the Harris County Sheriff’s      Next Door Program. Under this program,
Department. An investigation disclosed that An-         Rodriguez purchased a property at a 50 percent
thony violated the Officer Next Door Program            discount and certified falsely that he would reside in
regulations by failing to live in a home which he       the residence for a three-year period. In fact,
purchased at a discounted price. Under the False        Rodriguez owned two other residences.
Claims Act, the government is entitled to recover
three times the amount of actual damages plus civil         Defendant Kerry Townsend, a Harris County,
penalties and other fees.                               TX Sheriff’s Deputy, agreed in Federal Court,
                                                        Southern District of Texas, to a financial settlement
    In U.S. District Court, Central District of         with the government and provided the Houston,
California, defendant Maritza Portillo, a real estate   TX U.S. Attorney’s Office with two cashiers’
agent at Century 21 Bright Horizons in West             checks totaling $40,500 to avoid a federal lawsuit
Covina, CA, pled guilty to one count of conspiracy      under the False Claims Act. An investigation
to commit fraud against HUD. Portillo, along with       disclosed that Townsend failed to abide by HUD’s
Walter Brent Williams and Heidi Lynn Jackson,           requirement that he live in a home, purchased
employees at Golden Feather Realty, devised a           through the Officer Next Door Program, for three
scheme to enter “straw” high bids to win the            years as his primary residence. Instead, he resided
electronic bid process for HUD real estate owned        at another property and never occupied the house
(REO) properties. Golden Feather was the HUD            he purchased from HUD at a discounted price.
contractor for the marketing, maintenance, and sale
of HUD REO properties in California. After all the
bids for properties had been entered, some employ-
ees at Golden Feather altered the bid sheets to show
                                                        OIG Offices of Audit and
that certain bids had won the bid process and the       Investigation — Joint Efforts
properties were sold for amounts far below market
value. The fraud resulted in a loss to HUD of ap-           The joint effort, in which both HUD OIG Investi-
proximately $516,560, with a $51,000 loss attrib-       gators and Auditors bring to a case their respective
uted to Portillo. Portillo was sentenced to three       areas of expertise, is an effective means to complet-
years probation and was ordered to pay a one-third      ing an investigation, and is often the only way to
portion of $29,500 in restitution to HUD.               put together the necessary pieces of an investigative
                                                        case.


Chapter 2 — HUD’s Single Family Housing Programs                                                           25
    Defendant Albert R. Coccia, Jr., former general       letters of credit, and verification of employment
manager/owner of Arco Redevelopment Company, a            forms for the purchase of homes with FHA insured
Title I contractor/dealer in Philadelphia, PA, was        mortgages. In addition, they stole thousands of
sentenced in Federal District Court, Eastern District     dollars from homebuyers by claiming additional
of Pennsylvania, on multiple federal violations.          funds were needed for closing. In one instance,
Coccia was sentenced for his role in defrauding the       Hidalgo, Jr., received $20,130 from one homebuyer
HUD Title I Program and interstate drug trafficking       when the actual closing costs were only $3,672.
activities after his Title I company went out of          About 72 loans originated by the Hidalgos have
business. He received a prison term of 27 months          been identified as fraudulent, with FHA insured
and three years supervised release, and was ordered       mortgages totaling approximately $6.12 million and
to pay a $900 special assessment fee. Coccia was          losses on 10 of these properties totaling about
also ordered to forfeit $5,157 and pay $14,421 in         $148,000.
restitution to HUD. The latter represents one of the
Title I claims the government paid as a result of his
criminal activities. The sentencing stems from a
superseding 41-count Federal Grand Jury indictment
returned against Coccia in April 2002 that charged
him with wire fraud, false statements to HUD, and
money laundering. In May 2002, the Court ac-
cepted Coccia’s guilty plea to various counts of the
indictment.

    A Federal Grand Jury in the Western District of
Tennessee found defendant Melvin Rice, Jr., guilty
on two counts of making false statements. Rice, a
Memphis, TN Police Officer, purchased a home
through HUD’s Officer Next Door Program, agree-
ing to live in the property for three years after
purchase. Rice rented the property and falsified
certifications as to his residency. When the renters
refused to lie for Rice, he had them evicted. Rice
was sentenced to two years probation, six months
home confinement, 50 hours of community service,
fined $1,000, and ordered to pay $9,600 in restitu-
tion and a $200 special assessment fee.

    Defendant Julio Hidalgo, Sr., a real estate
broker who did business as Julio and Associates,
entered a plea of guilty in U.S. District Court,
District of Arizona, Phoenix, to a one-count
information charging him with submitting false
statements to HUD. In addition, Julio Hidalgo, Jr., a
real estate agent, also entered a plea of guilty to one
count of submitting false statements to HUD.
Hidalgo, Sr., and Hidalgo, Jr., were previously
indicted on one count of conspiracy, 12 counts of
submitting false statements to HUD, and five counts
of mail fraud. An investigation disclosed that the
Hidalgos produced numerous W-2’s, pay stubs,

Chapter 2 — HUD’s Single Family Housing Programs                                                          26
      Chapter 3 — HUD’s Public and Indian Housing Programs
Audits
    HUD provides grants and subsidies to approximately 4,200 housing authorities (HAs) nationwide. About
3,200 HAs manage public housing units and another 1,000 HAs, with no public housing, manage units under
Section 8 Programs. (Many HAs administer both Public Housing and Section 8 Programs.) HUD also provides
assistance directly to HAs’ resident organizations to encourage increased resident management of public housing
developments and to promote the formation and development of resident management entities and resident
skills. Programs administered by HAs are designed to enable low-income families, the elderly, and persons with
disabilities to obtain and reside in housing that is safe, decent, sanitary and in good repair.



                                      Total Number of Public Housing Authorities
                                             Administering Public Housing
                                               and Section 8 Programs

                                       Both                                    Public
                                     Programs                                 Housing
                                       38%                                     38%


                                                                  Section 8
                                                                    24%


    During this reporting period, we conducted reviews of the Puerto Rico Public Housing Administration’s
procurement of management agents, the Philadelphia, PA Housing Authority’s contracting and procurement
activities, the Public Housing Programs of the Northwestern Regional Housing Authority in Boone, NC, and
the Coshocton, OH Metropolitan Housing Authority, as well as the general operations of other HAs.

    We completed a review of the Puerto Rico Public Housing Administration’s (PRPHA) management agent
contracts. We began the review in response to the criminal indictment of the general manager of one of the
management agents involving excess charges to the Public Housing Program. Our assessment showed that the
former PRPHA administrator failed to ensure that contracts awarded in 1999 were procured in a manner that
provided full and open competition consistent with appropriate standards, and were reasonable and beneficial to
the PRPHA. The PRPHA disregarded procurement requirements; executed financially burdensome management
contracts; paid excessive non-project salaries; and paid excessive overhead and profit. We estimate these five-
year contracts to have been awarded at $35 million more than was necessary.
    We recommended that HUD work with the PRPHA to remedy the deficiencies in the contracts, or require the
PRPHA   to pursue all available options provided by the agents’ service contracts to ensure that the best interests of
the PRPHA and HUD are being served, and possibly save $10.8 million in costs not incurred. We also recom-
mended that HUD require the PRPHA to deduct about $2 million from one of the management agent’s invoices
correct the costs improperly included in the proposal and contract award. In addition, HUD should consider
appropriate administrative action against the former PRPHA administrator and others for gross mismanagement
of the procurement process. (Report No. 2003-AT-1002)


Chapter 3 — HUD’s Public and Indian Housing Programs                                                                27
    An audit of the Philadelphia, PA Housing            private development activities, and guaranteed
Authority’s contracting and purchasing activities       repayment of private development loans. The
found that, for the most part, the Authority was        Authority incurred unnecessary and ineligible travel
soliciting, awarding, and administering construction    and other costs. It paid lavishly for meals, hotels,
contracts in accordance with federal procurement        and tips, made frequent out-of-region trips, and
requirements. We did find, however, that the Au-        paid travel expenses for family members of manage-
thority did not always comply with federal purchas-     ment and the board. Also, it spent over $100,000
ing requirements or its own procurement policy in       for miscellaneous items, half of which were for
awarding service contracts. We identified at least      entertaining and pampering its board members and
one major deficiency in 12 of the 37 service con-       employees, their spouses, and guests at board
tracts reviewed ($2.3 million of $37 million re-        meetings, a beach retreat, and a Christmas party. It
viewed). Specifically, contracting officials did not:   also purchased theater tickets, jewelry, bath prod-
(1) always advertise solicitations adequately; (2)      ucts, libations, and other personal gifts.
develop required cost estimates; (3) issue written
                                                             The Authority did not maintain its public
amendments to all bidders when changes were
                                                        housing units and grounds in good repair, did not
made after the due date for proposals; and (4)
                                                        maintain accurate accounting records, and did not
adequately evaluate options as part of the total
                                                        follow Section 8 fund requisition requirements,
contract award.
                                                        resulting in excess withdrawals. Management did
    We also found that the Authority frequently split   not properly segregate tenant escrow funds, ad-
purchases from vendors to avoid obtaining the           equately pursue collection of tenant rents, or follow
products and services through the competitive           its own policies on nepotism.
award process. A review of small purchases for 28
                                                            Due to the nature and extent of the violations,
vendors that received $20.1 million during the audit
                                                        we recommended that HUD declare the Authority in
period showed that the Authority frequently split
                                                        substantial default, recover $4.3 million of ineli-
purchases for 15 of the 28 vendors. Since the
                                                        gible costs, and take appropriate administrative and
Authority did not adequately plan its contracting
                                                        other needed actions. (Report No. 2003-AT-1001)
needs, it divided purchases to justify using small
purchase procedures ($10,000 limit on purchases)
                                                            As part of a comprehensive review of the
to obtain the commodities it needed to keep opera-
                                                        Coshocton, OH Metropolitan Housing Authority,
tions running smoothly.
                                                        we conducted five audits of five different programs
    During the audit, the Authority took a number       based on a request from HUD’s Columbus Field
of actions that should improve its vendor payment       Office Coordinator of the Public Housing Program
process. We recommended that the Authority: (1)         Center. The five programs audited included the
reimburse nearly $400,000 of ineligible costs from      Public Housing Program, Section 8 Housing
non-federal funds; (2) provide documentation to         Program, Comprehensive Improvement Assistance
support vendor payments totaling nearly $330,000        Program, Public Housing Resident Council’s
or reimburse that amount from non-federal funds;        Tenant Opportunities Program and Public Housing
and (3) develop an annual procurement plan.             Drug Elimination Program. All five audits found
(Report No. 2003-PH-1002)                               that management controls over the programs were
                                                        weak. resulting in questionable costs of about
    In Boone, NC, our audit of the Northwestern         $670,000.
Regional Housing Authority (Authority) was con-
                                                        Ø Under the Public Housing Program, weak
ducted in response to a citizen’s complaint. We
                                                          controls over monetary assets, cash and inven-
found the Authority repeatedly violated regulatory
                                                          tory resulted in the Authority’s using over
requirements and its public housing and Section 8
                                                          $76,000 for ineligible expenses and being
contracts. Management pledged Authority assets as
                                                          unable to support expenditures of about
collateral for unauthorized bank loans, misused over
                                                          $166,000. Areas which lacked adequate proce
$580,000 of Section 8 and public housing funds for

Chapter 3 — HUD’s Public and Indian Housing Programs                                                        28
    dures and controls included personnel,                                      reports. We also recommended that the
    Public Housing Program physical                                             Acting Director: (1) take administrative
    condition standards, cash receipts and                                      actions against the Authority’s former
    disbursements, equipment, procure-                                          executive director, current director, and its
    ment, and financial and administrative                                      board of commissioners for failing to
    processes.                                                                  administer the Authority according to
                                                                                federal, state, and its own requirements; (2)
Ø Under the Section 8 Program, Section
                                                                                take appropriate action against the Author-
  8 units contained health and safety                  Split entry door trim.
                                                                                 ity for its default on its Annual Contribu-
  violations (521 violations in 33 of the
                                                                                 tions Contract; (3) conduct an election to
  34 units inspected) and the Authority
                                                                                 determine whether the public housing
  could not document how utility
                                                                                 residents want a transfer of management to
  allowances or rent reasonableness
                                                                                 another entity, as permitted by the Hous-
  were determined.
                                                                                  ing Act of 1937; and (4) determine the
Ø Under the Comprehensive Improve-                                                feasibility of combining the Authority with
    ment Assistance Program (for FYs                                              another public housing authority, as
    1997, 1998, and 1999) the Authority                                           permitted by the Housing Act of 1937.
    did not: (1) ensure that about                                                (Report Nos. 2003-CH-1010, 2003-CH-
    $290,000 was used according to HUD                                             1011, 2003-CH-1012, 2003-CH-1013, and
                                                 Missing cover plate caused        2003-CH-1014)
    regulations; (2) ensure that over
                                              exposed wires of electrical outlet.
    $36,000 was used in accordance with
    its board approved operating budget; (3) pro-                         As a result of a citizen’s complaint, we audited
    cure goods and services in accordance with                      the   Housing  Authority of Champaign County, IL.
    HUD regulations; and (4) perform contractor                     The complainant’s specific allegations were that the
    employee wage surveys for its program.                          Housing Authority: (1) inappropriately used monies
                                                                    from its Comprehensive Improvement Assistance
Ø Under the Resident Council’s Tenant Opportu-
                                                                    Program, Public Housing Drug Elimination Grant,
    nities Program (FY 1998), the Authority: (1)
                                                                    and Resident Opportunities for Self Sufficiency
    requested about $42,000 from HUD without
                                                                    Grant Programs; and (2) did not maintain its units
    supporting documentation to show that funds
                                                                    in a decent, safe, and sanitary condition. We found
    were for reasonable and necessary program
                                                                    that the Housing Authority charged its HUD funded
    expenses; and (2) drew down about $5,000 in
                                                                    grants (Public Housing, Drug Elimination, and
    excess of actual program expenses.
                                                                    Comprehensive Improvement Assistance) over
Ø Finally, under the Public Housing Drug Elimi-                     $27,000 in ineligible and unsupported expenses.
    nation Program (FY 1998), the Authority: (1)                    The ineligible expenses totaling about $24,000
    drew down about $15,000 in excess of actual                     consisted of stipends paid to the Authority’s resi-
    program expenses; (2) used about $6,000 to pay                  dents who were not eligible to receive them because
    two resident security guards who had criminal                   they were not officers of the Authority’s Resident
    histories, had no previous experience providing                 Council.
    security services and did not receive any secu-
                                                                          We recommended that HUD’s Director of Public
    rity services training; and (3) failed to monitor
                                                                    Housing Hub, Chicago Field Office, assure that the
    and evaluate the program’s activities to ensure
                                                                    Housing Authority reimburses its Public Housing
    that they achieved their intended objectives.
                                                                    Program for the inappropriate use of grant funds.
    In all the audit reports, we recommended that                   (Report No. 2003-CH-1001)
HUD’s Acting Director of the Troubled Agency
Recovery Center, Cleveland Field Office, assure                           We audited the Housing Authority of the City of
that the Authority implements procedures and                        Morgan City, LA’s Low-Rent Program. The audit
controls to correct the weaknesses cited in the                     concluded that the Authority did not follow either
                                                                    procurement requirements or policies regarding the

Chapter 3 — HUD’s Public and Indian Housing Programs                                                                      29
use of its credit cards and the performance of travel.   and recorded, resulting in questionable costs total-
Specifically, the Authority: (1) inappropriately         ing over $560,000.
procured over $900,000 in contracts; (2) paid about
                                                              We recommended that HUD require the Author-
$22,000 in ineligible and unsupported procurement
                                                         ity to: (1) recover about $70,000 in overpaid Sec-
expenditures; (3) paid nearly $4,000 in ineligible
                                                         tion 8 assistance payments; (2) justify or reimburse
and unsupported travel expenditures; (4) paid about
                                                         nearly $440,000 in unreasonable and unsupported
$33,000 to an Authority contractor in violation of
                                                         disbursements from non-federal funds; (3) seek
conflict-of-interest requirements; and (5) did not
                                                         repayment of a $50,000 receivable owed by a
monitor its budget. Further, the Authority did not
                                                         nonprofit corporation; and (4) reimburse over $400
have procedures that adequately
                                                                              of ineligible travel expenditures
addressed outside employment
                                                                              and justify or reimburse nearly
and businesses. As a result of
                                                                              $4,000 charged as travel or
poor management, lax over-
                                                                              sundry expenditures. We also
sight, and a failure to follow
                                                                              recommended that that Author-
requirements, the Authority
                                                                              ity be required to implement
discouraged procurement
                                                                              basic controls to ensure its
competition and mismanaged
                                                                              activities are in accordance with
HUD funds.
                                                                              applicable HUD requirements.
     We recommended that the                                                  (Report No. 2003-AT-1003)
Authority either support or
repay the unsupported expendi-                                                   At the request of the HUD
tures discussed in the audit, and                                            Atlanta Office Director of
repay all ineligible amounts.                                                Public Housing, the OIG audited
Further, we recommended the                                                  the South Carolina Regional
Authority follow regulations and                                             Housing Authority No. 3 and
procedures to ensure it properly                                             the associated nonprofit, South-
expends funds and that HUD                                                   eastern Housing Foundation,
take administrative actions                                                  Barnwell, SC. We found that
against the parties involved in                                              the Authority’s executive direc-
the conflict of interest. Gener-                                             tor (ED) and director of manage-
ally, the Authority agreed to                                                ment (DM) took advantage of
implement our recommenda-                                                    inadequate oversight by the
tions. The Authority and its                                                 Authority’s board and the
board have been reorganized                                                  Foundation’s board to finan-
and its former executive director                                            cially benefit themselves, their
has been terminated. (Report                                                 families, and friends at the
No. 2003-FW-1001)                                                            expense of both entities. The ED
                                                                             and DM violated the Annual
    An audit of the Fairfield,                                               Contributions Contract with
AL Housing Authority found                                                   HUD by executing an illegal
that the Authority: (1) improp-                                              agreement between the Author-
erly provided conventional and Section 8 assistance      ity and the Foundation that provided financial and
to individuals; (2) had continuing problems in           administrative support to the Foundation, including
procuring goods and services; (3) did not maintain       the use of Authority funds to finance the
an adequate system of controls over its general          Foundation’s operation. The Foundation owed the
accounting and disbursements; and (4) did not have       Authority over $200,000 for operating costs as of
adequate controls to ensure that travel expenses         January 31, 2002. Furthermore, the ED and DM
were necessary, reasonable, adequately supported,        collected over $950,000 in development and other
                                                         fees on Founda

Chapter 3   — HUD’s Public and Indian Housing Programs                                                      30
tion property purchases. As a result, the financial    (3) records lacked sufficient documentation of
positions of the Authority and Foundation were         procurement histories; and (4) contracts were
materially weakened.                                   awarded when conflict-of-interest relationships
                                                       existed. These deficiencies occurred because there
     We recommended HUD monitor board of com-
                                                       was no clear responsibility for the management,
missioners’ actions to ensure adequate oversight of
                                                       oversight, and review of procurement activities.
the Authority, and require the Authority to recover
over $1.1 million including, amounts owed the               The KWHA also needs to improve the adminis-
Authority by the Foundation, amounts improperly        tration of its Section 8 Program. Specifically,
collected by the ED and DM, and other improper         KWHA: (1) did not recognize conflict-of-interest
payments. We also recommended the Authority            situations; (2) did not establish reasonable contract
improve procedures for documenting certain expen-      rents and incorrectly calculated housing assistance
ditures, ensure proper acquisition procedures are      payments to landlords; and (3) did not conduct
followed, and sever ties with the Foundation or        proper housing quality standards inspections. These
develop a plan to absorb the Foundation and its        weaknesses occurred because the KWHA staff lacked
known liabilities. (Report No. 2003-AT-1801)           knowledge of HUD requirements and had not estab-
                                                       lished adequate controls to administer the program.
    We performed an audit of the Delta, CO
                                                           The KWHA agreed with our findings and indi-
Housing Authority to determine whether complain-
                                                       cated they have taken or will take a number of
ants’ allegations about the Authority’s operations
                                                       corrective actions to address the findings. (Report
were valid and to determine whether Authority
                                                       No. 2003-AT-1802)
funds were used in accordance with applicable HUD
policies and procedures. Specifically, we reviewed
                                                           An OIG review of the Fort Pierce, FL Housing
procurement activities, selection of applicants from
                                                       Authority (FPHA) disclosed that the Authority’s
the waiting lists, Section 8 voucher payments for
                                                       system of accounting and management controls was
tenants previously residing in Authority owned units
                                                       weak. FPHA lacked controls to assure that it ad-
after moving out, allocation of costs to the
                                                       hered to HUD and its own policies and procedures
Authority’s housing programs and activities, and
                                                       concerning cash disbursements, credit card and
maintenance activities. We found that the Authority
                                                       travel expenditures, procurement activities, pur-
had deviated from its own policies and procedures
                                                       chases, and equipment inventory. As a result, HUD
in some areas and was not conforming to HUD
                                                       and the FPHA lacked assurance that its assets were
requirements in carrying out its HUD funded hous-
                                                       properly safeguarded against waste, loss, and
ing programs. As a result, HUD funds were used to
                                                       misuse. The FPHA also failed to adhere to HUD
pay ineligible expenses totaling over $100,000;
                                                       requirements designed to prevent conflicts of
procurement policies were circumvented to provide
                                                       interest, assure the reasonableness of Section 8
contracts to favored contractors; admission policies
                                                       rents, obtain third party verification of program
were ignored to facilitate favoritism on the public
                                                       participants’ income, and calculate rents correctly.
housing waiting lists; excess Section 8 voucher
                                                       In addition, the FPHA used Section 8 reserve funds
payments and administration fees were collected for
                                                       without approval from the board of commissioners,
Authority owned housing units; and unrecorded
                                                       as required by FPHA procedures. These weaknesses
tenant fees and deposits were used for unallowable
                                                       occurred because the FPHA had not established
activities. (Report No. 2003-DE-1002)
                                                       adequate or effective controls to administer its
                                                       Section 8 Program.
    An OIG audit of the Key West, FL Housing
Authority’s (KWHA’s) procurement activities found          Among other things, we recommended that HUD
that management did not ensure that procurement        require the FPHA to document the eligibility of
activities complied with HUD or local procurement      expenditures cited in the audit or reimburse the
policies and procedures. Our review found that: (1)    Section 8 Program from non-federal funds, termi
cost estimates and cost/price analyses were not
conducted; (2) the contract register was inaccurate;

Chapter 3 — HUD’s Public and Indian Housing Programs                                                         31
nate or transfer existing contracts with Section 8     of theft or bribery concerning programs receiving
landlords having conflicts of interest, and imple-     federal funds. Riullano and Suarez participated in
ment controls to ensure that costs are properly        an embezzlement scheme involving the creation of
supported. (Report No. 2003-AT-1803)                   fictitious Section 8 tenants at the Newburgh Hous-
                                                       ing Authority. The scheme resulted in a loss to HUD
                                                       of approximately $220,000.
Investigations                                             The following actions are the result of an
    In McAllen, TX, defendants Ovidio Ramirez,         investigation at the Parkhill Apartments in Staten
former Section 8 director at the Housing Authority     Island, NY. The investigation developed into a
of the City of La Joya, and Jose Trevino, former       multi-faceted Section 8 lower-income rental assis-
executive director, were sentenced in U.S. District    tance case involving a dozen or so individuals who
Court, Southern District of Texas. The defendants      were suspected of providing false statements to a
previously pled guilty to conspiracy to embezzle       management company during the annual recertifica-
and steal public funds. They conspired to embezzle     tion process. The investigation disclosed that a
$194,814 of Section 8 Pprogram funds by engaging       number of lower-income rental assistance recipients
in a scheme of duplicating Section 8 participant       were in fact homeowners who lived in other parts of
landlord checks, forging landlords’ signatures,        the country and traveled back to Staten Island once
cashing and depositing the duplicate checks in         a year to assist in the recertification process. All the
various financial institutions, and using the pro-     defendants appeared before the U.S. District Court,
ceeds for their personal benefit. Ramirez was          Eastern District of New York.
sentenced to four months imprisonment, two                 Defendant Joseph Adams, a former tenant of
months home confinement with electronic monitor-       Parkhill, was sentenced to five months incarceration
ing, and three years supervised release. Trevino was   and two years supervised probation, and was
sentenced to 15 months imprisonment and three          ordered to pay $89,851 in restitution. In August
years supervised release. Both defendants were also    2002, Adams pled guilty to conspiracy to defraud
ordered to pay half each of the $194,814 loss and      the Federal Government.
assessed a special $100 fee.
                                                           Defendant Bamidele T. Lawal pled guilty to one
    Defendant Maria Suarez, the former director of     count of submitting false statements involving HUD
Section 8 Programs for the Newburgh, NY Hous-          and FHA transactions and one count of mail fraud.
ing Authority, was ordered to surrender to the         Defendant Presley A. Hanson pled guilty to one
Bureau of Prisons on January 3, 2003, to begin         count of conspiracy to commit offense against or to
serving a six-month sentence. Suarez was also          defraud the United States. The fraud committed by
ordered in U.S. District Court, Southern District of   these two subjects resulted in an estimated overpay-
New York, to serve three years probation, 10           ment of Section 8 subsidies in the amount of
months of which will be served as home confine-        $133,674. The investigation also disclosed that the
ment with an electronic monitoring device, and to      defendants owned real property and were unlaw-
pay $170,000 in restitution. She was previously        fully subletting the subsidized units to third parties.
arrested and pled guilty to one count of theft from
                                                           Defendant Stephen Freeman, a resident at
programs receiving government funds.
                                                       Parkhill, was sentenced on charges of conspiracy to
    The same court also ordered defendant Derrick      commit fraud against the government. Freeman was
Riullano, a Section 8 landlord, to surrender to the    sentenced to 36 months supervised probation and
Federal Bureau of Prisons within 45 days to begin      was ordered to pay restitution of $44,604 and a
serving a 12-month term of incarceration. Riullano     $100 special assessment fee. Freeman also received
was also ordered to serve three years supervised       Section 8 benefits as a resident of Parkhill Apart-
release and to pay $171,000 in restitution. Riullano   ments while registered as another individual.
was previously arrested and pled guilty to one count


Chapter 3 — HUD’s Public and Indian Housing Programs                                                        32
    Defendant Edwin Erhabor pled guilty to mail         beginning in August 1987, the month after her
fraud. Erhabor was actually a homeowner and did         death, through February 2002.
not live in the Parkhill Apartments; he provided
false statements to the management company during           Defendant Sandra Napua Clarke, the former
the recertification process, including failing to       vice president and community representative of the
disclose that he worked for the New York City           Waimanalo Housing Resident Association (WHRA)
Transit Authority.                                      in Honolulu, HI, was sentenced in U.S. District
                                                        Court in Honolulu. She received 15 months in
    Defendant Odiokosa Ofili, a resident at
                                                        prison and three years supervised probation, and
Parkhill, pled guilty to submitting false statements
                                                        was ordered to pay $25,800 in restitution and a
to HUD. The investigation found that Ofili was
                                                        $300 special assessment fee. Clarke embezzled
actually a homeowner and lived outside of Parkhill.
                                                        funds from a Tenant Opportunity Program grant.
Ofili also failed to disclose that he worked for the
                                                        HUD awarded the funds to WHRA in 1995 to pro-
New York City Human Resources Administration.
                                                        mote and encourage tenant opportunities in public
    Defendant Ndubuishi A. Ukoha, a resident at         housing, such as training and technical assistance.
Parkhill, pled guilty to mail fraud. In addition to     Clarke was previously found guilty on one count
providing false statements to the management            each of theft from a government program and
company, the investigation disclosed that Ukoha         conspiracy.
was subleasing his Section 8 apartment.
                                                            In San Diego County, CA Superior Court,
     Defendant Bobby Ross was sentenced in Federal      defendant Patricia Wylie was sentenced to five years
Court, Eastern District of Missouri, St. Louis,         of summary probation and ordered to pay $25,693
MO, to serve three months probation and ordered         in restitution. In the event that Wylie violates
to pay $86,058 in restitution. Ross previously pled     probation, she will be sentenced to 365 days of
guilty to a two-count indictment charging him with      custody. Previously, Wylie pled guilty to three
Social Security fraud and false statements. He          counts of a seven-count felony complaint that was
admitted illegally obtaining Social Security benefits   filed by the County of San Diego District Attorney’s
by using two different Social Security numbers and      Office. The complaint alleged that Wylie made false
falsifying Social Security applications. Ross ob-       statements and unlawfully obtained $25,693 in
tained Social Security disability while at the same     Section 8 subsidies. Wylie pled guilty to grand theft
time working for General Motors, resulting in an        of real property from the County of San Diego,
$86,058 loss to the government. The illegal acts        grand theft of money and personal property of the
were discovered after Ross applied for Section 8        County of San Diego, and forgery of checks. This
housing assistance.                                     sentencing was the result of an investigation that
                                                        revealed that Wylie was receiving funds from Child
    In Cleveland, OH, defendant Samuel Dabney           Development Associates, Inc., an agency funded by
was sentenced in Federal Court in the Northern          the State of California, and making false statements
District of Ohio after pleading guilty to theft of      regarding this income on a Section 8 application.
government funds and making false statements.
Dabney was sentenced to five months in a halfway            Carmen Luna, also known as Carmen Colon, a
house, five months of electric monitoring, and three    former public housing resident in Lawrence, MA,
years probation, and was ordered to pay $80,708 in      was sentenced in U.S. District Court, District of
restitution to the Social Security Administration       Massachusetts, to 36 months probation, the first six
(SSA) and $35,994 in restitution to HUD. Dabney         months of which will be served as home confine-
was indicted in September 2002 for defrauding SSA       ment, and ordered to pay restitution totaling
and HUD’s Section 8 Program. He failed to report        $55,760 — $24,988 to HUD and $30,772 to SSA.
the death of his mother, Aggie M. Lee, in order to      Luna has already repaid $19,000 of the amount she
continue receiving both SSA and HUD benefits.           owes to SSA. She was also ordered to pay a $300
Dabney received and negotiated these benefits           special assessment fee. The sentence follows Luna’s


Chapter 3 — HUD’s Public and Indian Housing Programs                                                      33
July 2002 guilty plea to two counts of theft of         were terminated due to evidence of their co-habita-
government funds and one count of false statements.     tion. When Wamsley saw Clonch in town, he
                                                        abducted her and took her back to his residence,
     In Eugene, OR, defendant Larry Dale Johnson        where he held her hostage and physically assaulted
was sentenced to serve 33 months incarceration,         her, according to West Virginia State Police reports.
pay HUD $21,820 in restitution, and forfeit 58
firearms following his guilty plea in Federal Court,        Defendant Terrence Lee Witherspoon, former
District of Oregon, to fraudulently obtaining HUD       executive director of the Eutaw, AL Housing
funded rental assistance. This sentence resulted        Authority, was sentenced in U.S. District Court,
from an investigation which disclosed that Johnson      Northern District of Alabama, to five months in
was financing a substantially large marijuana grow      prison and 36 months supervised release, and
operation from fraudulently obtained HUD rental         ordered to pay $31,688 in restitution to the Housing
assistance. The investigation led to a 12-count         Authority. Witherspoon confessed to stealing
indictment of Johnson for mail fraud, theft of          $31,688 in rental payments from the Authority
government monies, and false statements. As part of     while he was the executive director. He used most
his plea agreement, Johnson admitted to having          of the funds for gambling at a local racetrack.
concealed the ownership of his residence by claim-
ing to be a renter so he could obtain HUD rental            In Cleveland, OH, defendant Carol Wall, a
assistance totaling $21,820 between April 1998 and      mortgagor, was sentenced in Federal Court, North-
March 2001. When arrested, Johnson was in               ern District of Ohio, to four months home confine-
possession of 50 firearms that he utilized to protect   ment and three years probation, and was ordered to
his illegal narcotics business.                         pay $27,876 in restitution to the Cuyahoga Metro-
                                                        politan Housing Authority (CMHA). In 1999, Wall,
    The OIG was notified by the HUD Office of           using the identity of Cassandra Ramsey, obtained a
General Counsel that Ralph P. Mayes, a Section 8        mortgage loan for a property in Warrensville
landlord residing in Point Pleasant, WV, was            Heights, OH. The loan was brokered by Bevel,
issued a “Final Notice of Debarment” from partici-      Bevel & Associates, and was obtained using false
pation in procurement and non-procurement trans-        and fraudulent documentation regarding Wall’s
actions with HUD and throughout the Executive           identity and income. Wall, under her own identity,
Branch of the Federal Government for three years.       then applied for Section 8 subsidies as a “tenant” of
The debarment follows a December 17, 2002               the property, knowing that she was not qualified or
“Notice of Proposed Debarment” and a November           entitled to receive such subsidies. Between July
7, 2002 “Notice of Immediate Suspension.” These         1999 and July 2002, she received $27,876 in
notices were issued based on Mayes’ November 4,         Section 8 housing assistance payments by falsely
2002 sentencing to 60 months probation and restitu-     claiming to be a tenant of the property she actually
tion to HUD totaling $20,100. Mayes pled guilty in      purchased and owned.
U.S. District Court, Southern District of West
                                                            In the same case, defendant Nichelle Gould, a
Virginia, on August 19, 2002, to one count of mail
                                                        mortgagor, was sentenced in the same court to three
fraud for his role in a fraud scheme wherein he
                                                        years probation for using her child’s Social Security
cohabitated with Denise S. Villeneuve, a tenant,
                                                        number to secure two loans, one of which was FHA
and received Section 8 rental subsidies from the
                                                        insured. Documents recovered during the December
Point Pleasant Housing Authority from September
                                                        2002 execution of a search warrant at the FHA
1996 to December 2001.
                                                        insured residence disclosed a Section 8 landlord/
    In a related case, defendant Robert Wamsley         tenant scheme between Gould and her boyfriend,
lived with Eula Clonch and received Section 8           Marc Morris. Morris presented himself as the
rental subsidies from the Point Pleasant Housing        owner of Gould’s property. Morris was arrested
Authority. Subsidies were paid from September           based on multiple felonies out of Cuyahoga County
1996 to December 2001. Clonch moved out of              and is currently awaiting sentencing on these local
Wamsley’s home after Section 8 subsidy payments         charges.

Chapter 3 — HUD’s Public and Indian Housing Programs                                                       34
    Wall and Gould were charged along with 40            probation. Fines were waived, but Newcomb was
other individuals in a 100-count single family fraud     ordered to pay a $100 special assessment. Weapons,
indictment wherein five of the subjects had a            including a 9 mm handgun and an AK-47, were
specific HUD nexus. Specifically, three Section 8        found at Newcomb’s residence during the execution
landlords, one FHA mortgagor, and one Section 8          of a search warrant for counterfeit public housing
tenant (Carol Wall, Charmane Lowe, Cherese               authority payroll checks. Newcomb had two prior
McDowell, Darryl Stevenson, and Jeffrey Davis),          state felony convictions for drug offenses. He was
who simultaneously received Section 8 assistance         remanded to the custody of the U.S. Marshals
on behalf of their own residences, were charged          Service pending his answering a felony indictment
with conspiracy, mail fraud, bank fraud, money           handed down in October 2002 by the Cuyahoga
laundering, misuse of Social Security numbers,           County Common Pleas Grand Jury in Cleveland for
wire fraud and false statements in connection with       domestic violence with a prior offense.
their false loan applications for single family houses
in the Cleveland Metropolitan area. Fraudulent                In State Court, defendant Anthony Jenkins, the
statements by these individuals include name, Social     former Section 8 manager of the Arkadelphia, AR
Security number, employment, and down payment            Housing Authority, pled guilty to one count of
information.                                             felony theft of property and one count of felony
                                                         forgery. On the same day, Jenkins was sentenced in
     In the same case, a federal search warrant was
                                                         Ninth Circuit Court East to seven years probation
executed at a residence which was alleged to have
                                                         and 200 hours of community service, fined $2,500,
ties to a counterfeiting check scheme. Harrison
                                                         and ordered to pay $18,730 in restitution to the
Clark, Bettina Mabrey, and Latosha Oliver were
                                                         Authority plus court costs. An investigation re-
arrested. Seized during the search were a computer,
                                                         vealed that from October 2000 to April 2002,
a printer, check quality printing paper, and several
                                                         Jenkins stole over $22,000 from the Authority. As
counterfeit checks, including several CMHA checks.
                                                         Section 8 manager, he had access to the Section 8
During the execution of the search warrant, as
                                                         computer program and could establish vendors to
Agents and Officers made entry into the residence,
                                                         whom Section 8 checks were written. Jenkins
the printer was in the process of printing out several
                                                         established fictitious vendors and had checks
CMHA payroll checks and Section 8 checks.
                                                         written to these vendor names. He received and
    During the investigation, information was            subsequently deposited these checks in his personal
developed about Clark’s using his home computer          bank accounts. To conceal the theft, Jenkins coded
to print counterfeit checks. Clark conspired to          the checks in the accounting system using the
generate fraudulent CMHA and other company               identities and Social Security numbers of unsuspect-
payroll checks. Specifically, CMHA payroll checks,       ing Authority landlords, tenants, and other individu-
CMHA Section 8 landlord checks, and CMHA Section         als.
8 utility checks were being counterfeited. These
checks were then distributed to other individuals            Defendant Julio Perez III, former manager of
involved in the scheme so they could cash the            information systems at the Housing Authority of
checks at local check cashing stores and small           Corpus Christi, TX (HACC), pled guilty in Federal
grocery/convenience stores. This counterfeit check       Court, Western District of Texas, to one count of
“ring” was cashing approximately $9,000 a day in         theft or bribery concerning programs receiving
bad checks. It is estimated that the loss to the CMHA    federal funds. Perez has already paid $25,000 in
and HUD could exceed $250,000.                           restitution. An investigation found that Perez
                                                         embezzled $133,645 in HACC money, committed
    In a related case, defendant Fernando Newcomb
                                                         wired fraud, laundered funds through his wife’s
was sentenced in District Court, Northern District
                                                         financial institution via a commercial bribery
of Ohio, Akron, after pleading guilty to a one-
                                                         scheme to obtain money from HACC, and influenced
count information charging him as a felon in
                                                         the HACC board of directors to award him with a
possession of a firearm. Newcomb was sentenced to
                                                         computer upgrade contract. Pursuant to the bribery
16 months incarceration and two years supervised

Chapter 3   — HUD’s Public and Indian Housing Programs                                                    35
scheme, Perez was treated by Pantex Computers,           HUD.   In November 2002, Galloway pled guilty to
Inc., as an independent “consultant” and received        one count of theft by deceit for failing to disclose
kickbacks in exchange for his influence.                 financial assets owned by a tenant receiving subsi-
                                                         dized housing. Galloway was the manager at
    In Harrisburg, PA, defendants Emily Ayala
                                                         Branson Manor Apartments where she accepted at
and Emilio Cortez, husband and wife, were each
                                                         least $167,443 from Richard Hayes, an elderly
sentenced in Federal Court, Middle District of
                                                         tenant residing at Branson Manor.
Pennsylvania, to 48 months supervised release and
ordered to pay $12,980 in restitution. Ayala and
                                                             In Chicago, IL, former Section 8 landlord
Cortez previously pled guilty to one count of false
                                                         Bryan Witt was convicted in State Court in Cook
statements and aiding and abetting. An investigation
                                                         County, Northern District of Illinois, on one count
disclosed that the defendants failed to report Ayala’s
                                                         of attempted state benefits fraud. On the same day,
earned income on annual recertification forms.
                                                         Witt was sentenced to 24 months of court supervi-
From April 1997 to April 2000, Ayala received
                                                         sion and ordered to pay $6,000 in restitution to
approximately $12,900 in rental subsidies by falsely
                                                         Irene Greenwalt. From October 1997 through
claiming she was estranged from her husband and
                                                         November 1999, Witt required Greenwalt to pay
that she had no source of income. The investigation
                                                         him additional funds, under the threat of eviction,
also found that Ayala was living with her husband
                                                         in excess of the payment required by the housing
during this time period and that he earned approxi-
                                                         assistance payment contract agreed to by Witt and
mately $30,000 as a local factory worker. Ayala
                                                         the Housing Authority of Cook County. Greenwalt
worked “under the table” and received over
                                                         paid Witt an additional $400 per month. An aggra-
$18,000 working in a bar. As a result of their
                                                         vating factor in the prosecution of Witt was the fact
fraudulent scheme, Ayala and Cortez were able to
                                                         that Greenwalt was an elderly woman on a fixed
save enough money to purchase the single family
                                                         income caring for her handicapped daughter and
home located next door to their Section 8 residence.
                                                         two juvenile grandchildren.
    Defendant Mark Blakemore, a Section 8 land-
                                                             In Houston, TX, defendant Deaueishia T. Page
lord and a Department of Labor employee, pled
                                                         was sentenced in the 209th Texas State District Court
guilty in the Circuit Court of Cook County, IL, to
                                                         to three years probation and 120 hours of commu-
a misdemeanor charge of theft and was sentenced
                                                         nity service, and was ordered to pay $912 in restitu-
on the same day to 12 months probation, and
                                                         tion. Page pled guilty earlier this year to two
$6,358 in restitution to HUD. As part of the plea, he
                                                         separate indictments on the state felony charge of
agreed to cooperate with the prosecution of former
                                                         forgery-commercial instrument related to her
Section 8 tenant Kimberly Vaughn. Blakemore has
                                                         cashing two fraudulent checks and for attempting to
already made restitution to the Department. An
                                                         cash a third. The checks were from the Housing
investigation disclosed that Blakemore was renting
                                                         Authority of the City of Houston’s Section 8 con-
Vaughn’s Section 8 unit to a market rate tenant for
                                                         tractor, Houston Housing Assistance Partnership.
one year while continuing to collect housing assis-
                                                         Page admitted to cashing the checks and advised
tance payments for the same unit. He then kicked
                                                         that she would have continued had she not been
back half the market rate rent to Vaughn, while
                                                         arrested.
keeping the remainder for himself. The investiga-
tion also disclosed that Blakemore collected Section
                                                             Defendant Monica Ross, a Section 8 specialist
8 benefits on behalf of the unit while it was vacant
                                                         employed by the St. Louis, MO Housing Authority,
for five months. Vaughn is scheduled for trial at a
                                                         and her associate, defendant Evelyn Williams, were
later date.
                                                         sentenced in Federal District Court, Eastern District
                                                         of Missouri, on bribery charges. Ross was sen-
    Defendant Diane Galloway was sentenced in
                                                         tenced to three years probation, while Williams was
Christian County, MO District Court to five years
                                                         sentenced to 20 months in prison. Both defendants
supervised probation and 50 hours of community
                                                         pled guilty in July 2002 to one felony count of
service, and ordered to pay $6,012 in restitution to

Chapter 3 — HUD’s Public and Indian Housing Programs                                                        36
conspiracy to solicit and accept bribes by a public     conspirator Evette Brown was convicted on one
official. Ross’ duties included entering preliminary    count of theft and four counts of forgery. A fourth
registration forms for the Section 8 Program into a     co-conspirator, Latasha Stokes, previously pled
computer system, maintaining the Section 8 waiting      guilty to two counts of forgery.
list, and assisting applicants in obtaining Section 8
                                                            This case involved multiple search warrants and
vouchers once they were chosen from the waiting
                                                        the tracing of counterfeit checks which were used
list. Williams was an acquaintance of Ross and was
                                                        for cash or to purchase computers for subsequent
aware of Ross’ responsibilities at the Housing
                                                        counterfeiting and false identifications. Losses
Authority. Ross admitted that she accepted bribes
                                                        exceed $45,000.
from Section 8 applicants to backdate preliminary
registrations for the Section 8 Program, which
                                                            In White Plains, NY, following an investiga-
placed them higher on the waiting list. Between
                                                        tion, defendant Brian Panich, executive director of
March 2000 and October 2001, Williams located
                                                        the Liberty Housing Authority, pled guilty in
15-20 individuals who wanted Section 8 rental
                                                        District Court, Southern District of New York, to a
subsidies and solicited and obtained between $250
                                                        one-count information charging him with theft or
and $350 from each individual as payment for
                                                        bribery concerning programs receiving federal
getting them on the waiting list at the St. Louis
                                                        funds. Panich admitted taking personal loans from
Housing Authority. Williams paid Ross approxi-
                                                        the Authority’s Section 8 account from 1997 to
mately half of the funds she collected as payment.
                                                        2001, during which time he served as executive
                                                        director.
     Defendant Verel T. Westover was found guilty
following a five-day jury trial in the District of
                                                            In Reno, NV, defendant Shannon Thompson
Kansas, Topeka, on four counts of making false
                                                        pled guilty in Federal Court, District of Nevada, to
statements to the United States and one count of
                                                        one count of embezzlement from a tribal organiza-
embezzling money from the United States. Accord-
                                                        tion. Thompson is a former employee of the Te-
ing to testimony, from May 1998 through July
                                                        Moak Indian Housing Authority. From July 2001 to
2001, Westover was involved in a scheme to obtain
                                                        November 2001, he embezzled approximately
rental subsidies from HUD and food stamps from
                                                        $30,000 of Authority funds for his own use.
the Department of Agriculture by submitting false
statements claiming that he was not employed.
                                                            Defendant Ed Zamborski, the Yonkers, NY
Westover received approximately $12,920 in rental
                                                        Municipal Housing Authority’s former maintenance
subsidies and approximately $1,022 in food stamps
                                                        supervisor, pled guilty in U.S. District Court,
when he was actually employed as a truck driver. In
                                                        Southern District of New York, to theft of govern-
addition, Westover provided a false statement in
                                                        ment funds. Zamborski admitted inflating the prices
May 1998 for purposes of determining his eligibil-
                                                        of contracted jobs paid to his co-defendant Norman
ity to participate in the Public Housing Program.
                                                        Scotland, a contractor, who previously pled guilty.
He stated that he had only one prior felony offense
                                                        In return for controlling the bids and the bidding
when he had at least three priors. Westover obtained
                                                        process, Scotland did construction work on two
a total of nearly $30,000 in assistance benefits.
                                                        properties owned by Zamborski as well as on a
                                                        property owned by Zamborski’s son.
    In Canton, OH, in Stark County District
Court, defendant Berniece Jackson pled guilty to
                                                            Defendant Tracey Michelle Roach, former
state charges of engaging in a pattern of corrupt
                                                        Section 8 coordinator of the City of York, SC
activity and nine counts of complicity to forgery for
                                                        Housing Authority, was indicted in Federal Court,
her part in a counterfeit check scheme involving
                                                        District of South Carolina, on one count of em-
computer generated checks drawn on the account of
                                                        bezzlement of public money, property, or records.
the Stark Metropolitan Housing Authority. Co-
                                                        Roach admitted embezzling over $95,000 of Hous-
conspirator Elijah Baldwin pled guilty to three
                                                        ing Authority funds over a six-month period. She
counts of theft and four counts of forgery. Co-

Chapter 3 — HUD’s Public and Indian Housing Programs                                                      37
embezzled the funds by writing duplicate housing            Gordon made her initial appearance in U.S.
assistance payment checks to Section 8 landlords.       District Court and also had a detention hearing,
                                                        during which she was released from custody due to
    Defendant Charmaine Mabry, a former Section         her medical condition, but was required to wear an
8 eligibility clerk with the Philadelphia, PA Hous-     electronic monitoring bracelet to ensure she does
ing Authority, was indicted in U.S. District Court,     not flee again. In addition to the federal charges
Eastern District of Pennsylvania, on charges of         pending against her in this matter, the State of
extortion under color of official right (Hobbs Act),    Pennsylvania also has an outstanding arrest warrant
conspiracy to commit an offense against the United      for Gordon associated with her alleged fraudulent
States, and theft concerning a program receiving        receipt of welfare benefits.
federal funds. In her position at the Authority,
Mabry had access to the Authority’s computer                In Texas State Court, Navarro County, defen-
database on the Section 8 waiting list. She was         dant George Douglas Linicomn, former executive
charged with accepting payoffs in exchange for          director of the Corsicana, TX Housing Authority
manipulating the database to make it appear that        (CHA), was indicted on one count of theft by a
certain individuals, who paid a fee to Mabry, had       public servant ($1,500 or more but less than
been selected from a lottery. Some of these indi-       $20,000). The indictment was the result of an
viduals had never even applied to be put on the         investigation which disclosed that Linicomn used
waiting list, while others had not been selected but    refrigerators, water heaters, thermostats, and
were on the list. As a result of this scheme, Section   building supplies owned by the CHA in a multi-unit
8 vouchers in excess of $74,000 were fraudulently       complex located in Corsicana which he owned.
paid on behalf of individuals who paid Mabry and        Linicomn admitted his wrongdoing to the HUD
were not eligible for Section 8 assistance. In addi-    Deputy Director of Public Housing in Fort Worth,
tion, Mabry paid referral fees for those who re-        as well as the CHA board of directors, after the
ferred other individuals.                               investigation revealed that he had CHA property in
                                                        his possession.
     Defendant Maxine Gordon, a federal fugitive,
was apprehended after spending the past 17 months           Defendant Ramon Mesa, Section 8 recipient,
on the run. Gordon fled the Pittsburgh, PA area         was arrested and arraigned in Federal Court,
after confessing that she fraudulently received         Southern District of Florida, on charges of money
benefits from HUD and the Social Security Adminis-      laundering, theft of government funds, and false
tration. Subsequent to the confession, a Federal        benefits. Arrest, search and seizure warrants were
Grand Jury in the Western District of Pennsylvania      also issued by the Southern District of New York
returned an eight-count indictment against her in       and the Southern District of Florida. In addition,
October 2001, charging her with using fictitious        simultaneous search and seizure warrants were
identities to obtain both HUD Section 8 and Social      executed at Mesa’s home in Miami, FL, and his
Security benefits. Gordon was arrested after intelli-   Section 8 subsidized apartment in South Bronx,
gence was received that indicated she had returned      NY. The search of the apartment in the Bronx
to the Pittsburgh area to seek treatment for a medi-    yielded about four kilos of cocaine, $100,000 in
cal condition. Gordon attempted to use one of her       cash, and several firearms. Four luxury vehicles, 12
13 known aliases, as well as the Social Security        fur coats, and Mesa’s bank account were seized.
numbers she had fraudulently acquired, to apply for     The search of Mesa’s Florida home netted two
medical benefits. Her application for these benefits    firearms, eight luxury vehicles, and one yacht; two
alerted OIG Agents she had returned to Pittsburgh       additional bank accounts were also seized, along
from South Florida. HUD paid Gordon, under a            with an additional $20,000 in cash.
fictitious identity, nearly $38,000 in Section 8
                                                            An investigation disclosed that Mesa engaged in
subsidies between 1994 and 2001, and the Social
                                                        the sale and distribution of narcotics, laundered
Security Administration paid her more than
                                                        money, created several false identities, collected
$87,000 under two fictitious identities she used
                                                        Social Security benefits based on those false identi
during the same period.
Chapter 3 — HUD’s Public and Indian Housing Programs                                                     38
ties, and committed Section 8 fraud. Mesa, who is
confined to a wheelchair, utilized information
                                                       OIG Offices of Audit and
provided from Social Security as proof of income in    Investigation — Joint Efforts
order to receive Section 8 benefits while living at
the Maria Lopez Houses in the Bronx. The investi-          Defendant Edwin Rafael Cornier-Ortiz, a
gation of Mesa’s assets revealed that he bought a      management agent and President of Erco Enter-
home worth $500,000 and approximately 12 luxury        prise, Inc., was sentenced in Federal Court for the
vehicles, all while maintaining a bank account         District of Puerto Rico to 39 months imprisonment
containing $125,000. The home in Florida, as well      and 36 months supervised release, ordered to pay
as eight of the luxury vehicles, were purchased with   $136,000 in restitution, and fined $15,000.
cash.                                                  Cornier-Ortiz was previously found guilty after an
                                                       eight-day trial in Federal Court. The jury convicted
    Additionally, Defendant Vivien L. Carter was       him on seven of the eight counts contained in an
arrested and arraigned in Federal Court, Southern      indictment that was returned by a Federal Grand
District of New York, for theft of public money.       Jury in May 2001. The charges included conspiracy,
Carter is accused of underreporting her income to      bribery, money laundering, extortion, and em-
the New York City Housing Authority (NYCHA) in         bezzlement. Cornier-Ortiz paid Juan Irizarry-
order to receive Section 8 rental assistance. In an    Valentin, a HUD employee in the San Juan Office,
interview at the NYCHA Inspector General’s Office,     over $195,000 through Irizarry-Valentin’s bother,
Carter admitted that she had underreported her         Samuel Valentin-Toro, who was employed at Erco.
income. The amount of rental subsidy that she          Cornier-Ortiz also received kickbacks from vendors
obtained based on her fraudulent application totaled   doing business with Erco for the awarding of
$5,974 dollars.                                        contracts for rehabilitation repairs at public housing
    Defendant Robert Swinton was arrested in the       projects that Erco managed through a $28.6 million
Southern District of New York and charged with         contract that Erco had with the Puerto Rico Public
extortion. While serving as the deputy director of     Housing Authority (PRPHA). Juan Irizarry-Valentin
NYCHA’S Department of Facility Planning, Swinton
                                                       and his brother, Samuel Valentin-Toro, have already
attempted to obtain $17,000 in cash from a Harlem      pled guilty to charges of extortion, conspiracy, and
shopkeeper whose store was located in Rangel           theft. Valentin-Toro was sentenced to three years
Houses, a HUD subsidized multifamily residence.        probation, while Irizarry-Valentin was sentenced to
                                                       21 months in prison and three years supervised
    In Augusta, ME, a criminal complaint was           released. In addition, plea agreements for two
filed in Southern Kennebunk Maine District Court       vendors and a former PRPHA contract employee
against defendant Christi Baker. Baker was charged     have been prepared.
with one count of theft by deception. She allegedly
committed Section 8 tenant fraud between July              An investigation and audit resulted in the
1999 and July 2002. Baker’s husband, Norman            recovery of over $191,000 from the Scranton, PA
Baker, allegedly lived with her at her Section 8       Housing Authority (SHA). In December 2001, OIG
residence during this time period. However, Baker      and the Department of Justice uncovered evidence
never claimed her husband as a resident of the         that Authority officials were misallocating HUD
household during the annual Section 8 recertifica-     public housing monies. Officials were paying
tions. As a result, the Augusta Housing Authority      Authority managers and employees from HUD
overpaid $13,956 in Section 8 subsidies.               public housing funds for tasks unrelated to the
                                                       management of HUD funded public housing devel-
                                                       opments and/or programs. This scheme continued
                                                       for approximately five years. This recent monetary
                                                       recovery is now part of an official False Claims Act
                                                       investigation being conducted by OIG and the
                                                       Department of Justice.


Chapter 3 — HUD’s Public and Indian Housing Programs                                                      39
     The U.S. Attorney’s Office, Middle District of Pennsylvania, issued a formal civil False Claims Act demand
letter to the Authority. The demand letter notified the SHA that its misappropriation of HUD funds exposed the
SHA to over $642,507 in civil False Claims Act penalties and fines. The demand letter offered the SHA settle-
ment in this matter if the SHA pays $642,507 in fines and penalties. The Department of Justice is awaiting SHA’s
response to the offer.




                                                  March 11, 2003, Scranton, PA

    In Tulsa, OK, defendant Roberta Jean Ahdunko was arrested for one count of embezzlement from an
Indian Tribal Organization and five counts of mail fraud. She was previously indicted by a Federal Grand Jury
in the Northern District of Oklahoma. Ahdunko was employed as the finance manager for the Pawnee Nation
Housing Authority, which receives all of its funding from HUD through the Native American Housing Assis-
tance and Self-Determination Act Indian Housing Block Grant Program. While she worked at the Authority,
Ahdunko traveled to a weekend vacation rendezvous, went on shopping sprees, purchased a plane ticket for a
relative, and paid her personal telephone/utility bills with Authority funds. The total loss attributed to
Ahdunko’s criminal activity was $4,582. Ahdunko was also involved in another $22,500 of unallowable ex-
penses.

    Defendant James Coleter , former executive director of the Fayette County, IN Housing Authority, was
indicted in Fayette County Court on four counts of unauthorized use or failure to deposit public funds and one
count of theft. Coleter allegedly failed to deposit reimbursement expenses in the Authority’s account while
using an Authority credit card to pay for a vacation to Florida, a television satellite dish at his personal resi-
dence, and other unauthorized expenses.

    Defendant Theresa Coughlin, a former employee of the Housing Authority of Lycoming County, PA, was
charged by the Lycoming County District Attorney’s Office, Pennsylvania District Court, with 208 counts of
theft related charges for lowering the rents of some tenants without permission and not depositing cash rent
payments from others. The charges include theft by failure to make required disposition of funds, tampering


Chapter 3 — HUD’s Public and Indian Housing Programs                                                             40
with public records, and receiving stolen property.
The OIG is assisting the District Attorney’s Office,
which conducted the initial investigation, in further-
ing their investigation and pursing prosecution of
the employee. The Housing Authority suffered a
loss of approximately $28,000 in this case.



Fugitive Felon Initiative
    The Office of Investigation has established a
Fugitive Felon Initiative to identify HUD housing
assistance recipients who are criminal fugitives
from justice. This initiative includes automated
comparisons of fugitive felon files of law enforce-
ment agencies and HUD files of tenants who have
received housing assistance from HUD. Once the
fugitives are identified, information on these indi-
viduals is provided to the appropriate law enforce-
ment agencies to facilitate their apprehension.
Additionally, fugitive information will be subse-
quently provided to appropriate authorities to
facilitate the suspension of housing assistance or
terminate tenancy. Currently, we have a Memoran-
dum of Understanding with the United States
Marshals Service, and are entering into agreements
with other law enforcement agencies.
   We will report on our progress as this initiative
continues.




Chapter 3   — HUD’s Public and Indian Housing Programs   41
                                              This page intentionally left blank.




Chapter 3   — HUD’s Public and Indian Housing Programs                              42
            Chapter 4           —   HUD’s Multifamily Housing Programs
    In addition to multifamily housing developments     Section 514 Program. We concluded that OMHAR’s
with HUD held or HUD insured mortgages, the             management did not establish appropriate manage-
Department owns multifamily projects acquired           ment controls to oversee and manage the program,
through defaulted mortgages, subsidizes rents for       as required by Office of Management and Budget
low-income households, finances the construction        (OMB) Circular A-123 and HUD’s policy.
or rehabilitation of rental housing, and provides
                                                            We also completed external audits of 40 Section
support services for the elderly and handicapped.
                                                        514 Program participants (grantees) that received
Audits                                                  funding under Section 514 of MAHRA. Section 1303
                                                        of the 2002 Defense Appropriation Act (Public Law
    During this reporting period, the OIG issued its    107-117) required the HUD OIG to audit all Section
consolidated report on assistance funded by Section     514 funded activities over the last four years.
514 of the Multifamily Assisted Housing and             Consistent with the Congressional directive, we
Reform Affordability Act of 1997. The OIG also          audited all grantees and reviewed their use of
reviewed owner and management agent operations,         Section 514 funds for eligibility (per the legislation
a residential care facility, and a retirement center.   and the grantee’s agreement with HUD) and/or the
                                                        allowability (per OMB Circular A-122) of costs, with
Assistance Funded by the Multifamily                    particular emphasis on identifying ineligible lobby-
                                                        ing activities.
Assisted Housing Reform and
                                                            As a result of our audits, we identified that 32
Affordability Act of 1997                               of the 40 grantees did not comply with the require-
    We completed an audit of the management and         ments of their grant agreements and/or the
oversight of Section 514 Program activities by          allowability of the grant cost requirements of OMB
HUD’s Office of Multifamily Housing Assistance          Circular A-122. In our grantee audit reports, we
Restructuring (OMHAR). The Multifamily Assisted         identified about $600,000 of ineligible costs and
Housing Reform and Affordability Act of 1997            over $1.6 million of unsupported costs. In addition,
(MAHRA) established OMHAR within HUD. OMHAR’s           nine grantees used a portion of their Section 514
responsibility included the creation of the Mark-to-    funds for lobbying activities directed at Congress,
Market Program for HUD assisted projects with           contrary to the explicit prohibition in Section 514.
above-market or below-market rents and project-         Also, four grantees used a portion of their Section
based Section 8 contracts expiring in October 1998      514 funds for lobbying activities at the state and
or later. Congress recognized, in Section 514 of        local level. Section 514 did not include an explicit
MAHRA, that the Mark-to-Market Program would            prohibition on lobbying at the state or local level,
affect project tenants, neighborhood residents, the     but these costs are unallowable under OMB Circular
local government, and other parties. Accordingly,       A-122 guidance. These conditions occurred because
Section 514 of MAHRA authorized the HUD Secre-          OMHAR’s management emphasized the creation of
tary to provide up to $40 million ($10 million          the Mark-to-Market Program and strong relations
annually) for resident participation from 1998          with the affected tenants, as opposed to the manage-
through 2001. As of August 2002, HUD had                ment and oversight of the Section 514 Program. In
awarded $30.3 million, of the $40 million autho-        addition, OMHAR staff generally lacked the knowl-
rized, to 40 grantees. Also as of August 2002, HUD      edge and skills needed to manage and oversee a
had obligated $25.2 million and disbursed $13.9         grant program.
million (about 55 percent) of the obligated funds.          The Assistant Secretary for Housing did not
    Our audit evaluated what management controls        dispute the information and conclusions in the
OMHAR  had implemented to manage and oversee the        audit. In addition, the Assistant Secretary provided

Chapter 4 — HUD’s Multifamily Housing Programs                                                              43
 management decisions for the recommendations            Housing and General Counsel to resolve the viola-
 contained in this report and for the 221 recommen-      tions. While our review was in progress and HUD
 dations in the 40 external Section 514 audits. OIG      was pursuing corrective actions, the owner sold the
 agreed with the management decisions proposed by        project.
 the Assistant Secretary. (Report No. 2003-DE-0001)
     Audit Report No. 2003-DE-0001 summarized
 the results of all external audits completed both
 during this semiannual reporting period and during
 the prior period. The following audits were issued
 during this period:
 Ø 2003-AO-1001, National Center of Tenants
   Ownership, Washington, DC
 Ø 2003-AO-1002, National Housing Trust, Wash-
   ington, DC
 Ø 2003-BO-1002, People to End Homelessness,
                                                         University Forest Nursing Care Center in University City, MO.
   Providence, RI
                                                              We recommended that the St. Louis Program
 Ø 2003-CH-1003, Tenants United for Housing,
                                                         Center ensure that the project’s mortgage insurance
   Inc., Chicago, IL
                                                         is terminated as a result of the sale and that the
 Ø 2003-CH-1004, Indiana Coalition on Housing            Office of General Counsel (Departmental Enforce-
   and Homeless Issues, Indianapolis, IN                 ment Center) take appropriate administrative actions
                                                         against University Forest’s president and chairman
 Ø 2003-DE-1003, Corporation for National                of the board, members of the board, and the man-
   Service, Washington, DC                               agement agent for their noncompliance with HUD’s
 Ø 2003-SE-1001, Community Alliance of Tenants,          requirements and the Regulatory Agreement.
   Portland, OR                                          (Report No. 2003-KC-1801)

 Ø 2003-SE-1002, Tenants Union, Seattle, WA                  We completed a review of Wood Hollow Place
                                                         Apartments in Texas City, TX, to determine
 Owners and Management Agents                            whether expenditures and disbursements complied
                                                         with the terms and conditions of the Regulatory
     Based on concerns raised by the St. Louis           Agreement and other HUD requirements. Because
 Multifamily Program Center, we completed a              the project experienced cash flow problems, the
 review of the University Forest Nursing Care            management agent did not follow the Regulatory
 Center in University City, MO. We identified            Agreement and other HUD regulations. As a result,
 significant violations of University Forest’s Regula-   the management agent: (1) improperly paid ad-
 tory Agreement involving unauthorized payments          vances, loans, and other fees totaling over
 and unnecessary expenses. The corporation, presi-       $223,000; and (2) paid nearly $28,000 in ineligible
 dent, chairman of the board, members of the board,      and $7,500 in unsupported expenses. In addition,
 and the management agent were responsible for           the management agent improperly used tenant
 using approximately $2.4 million of project funds       security deposits to fund project operations. These
 for unauthorized compensation and unnecessary           improper payments weakened the project’s financial
 operating expenses. These improper expenditures         condition and put the project at risk of default.
 increased the risk to HUD’s mortgage insurance
 fund and depleted funds needed to provide services          We recommended that HUD require the manage-
 and care to residents. During the review, we ac-        ment agent and/or the partnership to repay the
 tively coordinated our efforts with HUD’s Offices of    project for improper and ineligible distributions and


Chapter 4 — HUD’s Multifamily Housing Programs                                                                       43
to support or repay the unsupported expenses. In         included questionable cost mark-ups of a
addition, we recommended that HUD require the            subcontractor’s invoice amounts, resulting in
management agent to fully fund the tenant security       $193,000 of unreasonable and unsupported charges;
deposit account and submit disbursement reports to       (5) entered into a questionable arrangement for
HUD. Finally, HUD should closely review the              legal services, resulting in over $257,000 in ques-
monthly disbursement reports and take administra-        tionable expenses; and (6) used project funds to pay
tive action if violations of the Regulatory Agree-       $134,000 of expenses that were incurred under the
ment continue. (Report No. 2003-FW-1801)                 Drug Elimination Grant Program, thus depriving
                                                         that project of those funds.
    A review of HUD’s oversight of Wood Hollow
                                                             We recommended that the Director of the HUD
Place Apartments, Texas City, TX, found that in
                                                         New York Multifamily Hub require the agent/
three instances, the Houston Multifamily Office did
                                                         owners to reimburse the projects $180,000 for
not adequately monitor the project. In these cases,
                                                         expenditures considered to be ineligible, and submit
Multifamily staff did not perform sufficient work to
                                                         supporting documentation for $722,000 in expenses
ensure that the owner complied with the Regulatory
                                                         considered to be questionable and/or unsupported
Agreement or HUD requirements. As a result, the
                                                         so that HUD can determine their eligibility. In
owner made over $258,000 in improper distribu-
                                                         addition, we made recommendations to improve the
tions and failed to submit required reports. In
                                                         agent’s internal controls and encourage compliance
addition, Multifamily staff did not properly main-
                                                         with HUD requirements. (Report No. 2003-NY-
tain project files. The former project manager could
                                                         1001)
not locate two monthly accounting reports he had
received, nor did he maintain a control log to track
and monitor the receipt of such reports.                 Residential Care Facility/Retirement
    We recommended that HUD staff receive direc-         Center
tion, including training if necessary, on how to             We audited the Farmington Health Care Center
properly perform their monitoring tasks. The             (FHCC) in Farmington, CT, to assess the project’s
Director of the Houston Multifamily Office agreed        performance relating to appropriate use of project
with the recommendations and immediately imple-          funds, maintenance of the property in satisfactory
mented them. (Report No. 2003-FW-0801)                   physical condition, and general management prac-
                                                         tices. The audit concluded that FHCC’s operator/
     We audited Marion Scott Real Estate, Inc., a        lessee inappropriately executed a capital lease
New York, NY management agent for 10 HUD                 purchase agreement with a leasing company for
insured and subsidized projects in New York and          over $340,000 in major moveable equipment and
New Jersey. We concluded that the agent did not          other non-critical repairs without HUD consent.
always comply with HUD regulations and require-          Consequently, the loan was overinsured, and HUD
ments pertaining to the use of project funds, nor did    has lost security in the equipment and repairs. In
it always comply with its management certification       addition, installation of an emergency generator, as
when purchasing from or contracting with its             required under the escrow agreement between the
identity of interest companies. Specifically, we         mortgagor/lessor and HUD, remains uncompleted.
found that the agent: (1) used approximately             We attributed the cause of these conditions to the
$186,000 in project funds to pay for ineligible,         operator/lessee’s insufficient knowledge of HUD
unsupported, and unnecessary/unreasonable ex-            program regulations and the lack of mortgagor/
penses; (2) deprived the projects of $77,000 by          lessor oversight of project operations.
collecting unauthorized and excessive management
fees and improperly charging front-line expenses to          We recommended freezing an appropriate
projects; (3) allowed its identity of interest company   amount of repair escrow and/or reserve for replace-
employees to occupy rent free apartment units in the     ment funds to protect HUD’s security interest in the
projects, resulting in lost revenue of $55,000; (4)      facility in the event of a default on the lease. If
paid its identity of interest companies amounts that     reserve for replacement funds are frozen, consider

Chapter 4 — HUD’s Multifamily Housing Programs                                                              45
ation could be given to requiring an increase in the monthly deposits to the account to ensure that sufficient
funds are available in the event that emergency repairs are required, without detracting from the “frozen” funds.
Upon pay-off of the lease and execution of the purchase option, we recommended that the operator/lessee assign
the title of equipment and repairs to the mortgagor/lessor, using an approved mechanism, to ensure that title
remains with the real estate. (Report No. 2003-BO-1001)

    In response to concerns raised by the HUD St. Louis Multifamily Program Center, we reviewed the Rich-
mond Terrace Retirement Center in Richmond Heights, MO, to determine if bond funds and project funds
were properly handled. We concluded that the mortgagee provided key certifications at initial closing that
contained incorrect cost amounts, causing mortgage proceeds to be drawn down and used for unsupported
expenses. These acts exposed HUD’s mortgage insurance fund to unnecessary risk because the owner did not
have adequate funds at initial closing. We also identified residual bond funds that were improperly being held by
the bond trustee. During our review, we coordinated with HUD’s Office of Housing and the Office of General
Counsel to exercise HUD’s legal claim to the residual bond funds. As a result, HUD collected residual bond
funds totaling over $50,000 from the bond trustee.
    We recommended that the St. Louis Multifamily Program Center take appropriate legal and administrative
actions in coordination with the Regional Counsel/Office of Program Enforcement. (Report No. 2003-KC-
1803)



Investigations
    Defendants Nancy G. Wilkinson, West Virginia Management LLC project manager, Mary Ann Middleton,
Westview Manor property manager, and Darlene Starkey, a contractor, were sentenced in U.S. District Court,
Southern District of West Virginia, for their involvement in a fraud scheme that resulted in the embezzlement of
over $800,000 from four HUD subsidized and insured multifamily/elderly housing communities. Wilkinson,
who was held accountable for her leadership role in the embezzlement scheme, was charged with one count of
embezzlement from an organization receiving federal funds and aiding and abetting. She was sentenced to 24
months incarceration and 36 months probation, and ordered to pay $250,000 in restitution. Wilkinson will be
held jointly and severely liable for the restitution amounts ordered in Middleton and Starkey’s sentencing. She
has also been notified of her immediate suspension from participation in procurement and non-procurement
transactions with HUD and throughout the Executive Branch of the Federal Government.
    Defendant Middleton was also charged with one count of embezzlement from an organization receiving
federal funds and aiding and abetting, and was sentenced to 12 months and one day incarceration and 36
months probation, and ordered to pay $250,000 in restitution. Middleton will be held jointly and severely liable
for Wilkinson’s restitution amount. Starkey was charged with one count of mail fraud for her involvement in a
Medicaid billing fraud scheme unrelated to the HUD fraud. Starkey was also charged with one count of em-
bezzlement from an organization receiving federal funds and aiding and abetting. She was sentenced to 12
months and one day incarceration and 36 months probation for each count, to be served concurrently. Starkey
was also ordered to pay $175,000 in restitution, and will be held jointly and severely liable for Wilkinson’s
restitution amount.




Chapter 4 — HUD’s Multifamily Housing Programs                                                                 46
                                                                                     Wilkinson conspired with
                                                                                Middleton and contractor
                                                                                Darlene Starkey, doing
                                                                                business as Starkey Enter-
                                                                                prises, from approximately
                                                                                October 1996 to March 2002
                                                                                to divert funds from four HUD
                                                                                assisted developments located
                                                                                in Huntington, Lewisburg,
                                                                                Elkins, and Beverly, WV.
                                                                                The three defendants prepared
                                                                                invoices for fictitious contrac-
                                                                                tors or created/altered in-
                                                                                voices of legitimate compa-
                                                                                nies and forged the endorse-
                                                                                ments on the back of each
                                                                                check. Wilkinson would issue
                                                                                a check to Starkey or a
                                                                                fictitious vendor in the case of
                                                                                Middleton. Upon receipt of
                                                                                the checks, Middleton and
                                                                                Starkey would deposit them in
                                                                                personal bank accounts and
                                                                                then return one-half of the
                                                                                funds to Wilkinson.

                                                                                    Defendant Robert
                                                                                Vaughan pled guilty in Fed-
                                                                                eral Court, Eastern District of
                                                                                Michigan, to one count of
                                                                                multifamily equity skimming.
                                                                                Vaughan, who was the agent
                                                                                and manager of Flint Heights
                                                                                Terrace, a HUD insured
                                                                                multifamily project in Flint,
                                                                                MI, admitted skimming more

than $350,000 from the development for his personal use instead of meeting reasonable expenses of the project.
Vaughan withdrew these funds when the project was in a non-surplus cash position and later when it was in
default. He used some of the funds to pay cell phone bills and expenses of his private law practice.

    Defendant Rodney Crump, an assistant property manager at Blue Ridge Commons (BRC) Apartments, a
HUD  insured, Section 8 multifamily project in Charlottesville, VA, was arrested at his residence. Crump was
indicted June 2002 in Federal Court, Western District of Virginia, for embezzling funds from BRC. He and
Nancy Besemer, former BRC property manager, conspired to embezzle $24,112 from BRC. They solicited cash
payments and blank money orders from several residents to pay the residents’ monthly rents and security
deposits. Instead of depositing these funds in a BRC bank account, Crump and Besemer kept the funds for their
personal use. An additional arrest warrant was filed in Portsmouth, VA, for Crump related to his habitual
offender status. Besemer was previously convicted of embezzlement in this case. She is currently wanted for
probation violation.

Chapter 4 — HUD’s Multifamily Housing Programs                                                                47
    Defendant Michael Cantor pled guilty in Fed-       impersonate Eunice during recertification inter-
eral Court, Eastern District of New York, to one       views, thus making it appear that she was an active
count of conspiracy for his involvement in a scheme    Section 8 tenant. Wilson was not indicted but gave
to defraud both HUD and the IRS. Cantor was the        testimony before the Grand Jury during the investi-
owner and president of Cantor Real Estate, a real      gation. The loss to HUD is approximately $50,000.
estate management company in Brooklyn, NY.
Cantor Real Estate managed numerous properties in
New York that received subsidies and loan guaran-
tees from HUD. Between January 1992 and April
                                                       OIG Offices of Audit and
1999, Cantor conspired with others to receive at       Investigation — Joint Efforts
least $13,000 in cash kickbacks from vendors for
approving work to be done at buildings that he             Defendant Douglas S. Wasserman, the former
managed.                                               owner of Mott Haven, an FHA insured and HUD
                                                       subsidized housing development in the Bronx, NY,
    Defendant Beverly Beltran, a former office         was ordered to pay $894,000 in restitution to HUD.
manager, pled guilty in Maryland State Court,          Wasserman was previously sentenced in Federal
Hagerstown, MD, to two counts of forgery and           Court, Southern District of New York, to 60
felony theft. Beltran was sentenced to 90 days         months incarceration after his convictions for
incarceration to be followed by three years proba-     multifamily equity skimming and tax evasion. Due
tion, and was ordered to pay $11,431 in restitution.   to family health issues, Wasserman was allowed to
An investigation disclosed that while Beltran          defer incarceration until May 2003.
worked at Edgewood Hill Apartments, a HUD
subsidized multifamily complex, she wrote numer-            Defendants Joseph W. Ham, a general contrac-
ous checks to herself and forged the owner’s name      tor, and Murray Howell, an employee of Ham
on each check in order to cash the checks.             Contracting, Inc., both of whom previously pled
                                                       guilty in Federal Court, Western District of Louisi-
     A Cook County, IL Grand Jury indicted             ana, to conspiracy to commit mail and wire fraud,
defendant Renard Mayfield on two felony counts of      provided the U.S. Attorney’s Office with 539 one-
forgery and theft by deception for his role in a       once gold coins (Krugerrands), which at the time
scheme to defraud the Park Shore East Co-Op            were valued at approximately $188,000. The
Section 8 Program. Specifically, Mayfield allegedly    defendants’ pleas were made in conjunction with
falsified his employment from 1996 to 2000 by          the Low-Income Housing Tax Credit Program and
reporting “odd jobs,” totaling $600 per year, while    forfeiture of illegal proceeds. The gold coins
in fact he earned more than $100,000 per year as an    provided to the government were deemed to be
accountant. In addition, Mayfield qualified for and    proceeds from a money laundering scheme which
purchased a $300,000 property with a $200,000          resulted in Ham and Howell previously agreeing to
mortgage while he was participating in the Section     forfeit interest in gold coins and assets seized; the
8 Program. The approximate loss to HUD is              coins were also proceeds identified during an
$37,300.                                               investigation. The investigation found that Ham, as
                                                       a general contractor for Calhoun Property Manage-
    A Grand Jury in Cook County, Chicago, IL,          ment in Mansfield, LA, was responsible for the
indicted defendant Lawrence Prentice on two counts     rehabilitation of 37 multifamily properties in Texas
of forgery and one count of theft. Prentice had been   and Louisiana. Howell was an officer in Ham
receiving Section 8 housing assistance since 1995 at   Construction, Inc. Ham, in coordination with
one property under the name of Eunice Prentice,        others, created and caused to be created numerous
when Eunice moved to Minnesota. Lawrence had           false invoices and certificates of actual cost related
his girlfriend, Doris Wilson, forge Eunice’s name      to the rehabilitation of a multifamily project. Ham
on the recertification documents and had her           and Howell also caused the false documents to be
                                                       delivered by Federal Express, which resulted in


Chapter 4 — HUD’s Multifamily Housing Programs                                                             48
funds being wired to a partnership entity in Louisi-                   Management, Inc., acting through Maurice
ana.                                                                   Calhoun, also pled guilty to a one-count bill of
                                                                       information which charged the corporation with
                                                                       wire fraud. Maurice Calhoun and the government
                                                                       agreed that the maximum fine of $500,000 fine is
                                                                       appropriate for Maurice Calhoun, and the maxi-
                                                                       mum fine of $500,000 is appropriate for T.F.
                                                                       Management. Sentencing is scheduled for July 31,
                                                                       2003.




Illegal proceeds (gold coins) turned over to U.S. Attorney’s Office,
Western District of Louisiana.

    The defendants also agreed to forfeit to the
United States immediately and voluntarily all right
and title to, and interest in, all assets in a brokerage
account maintained by Legg Mason Wood Walker,
Inc., in the name of Ham Contracting, Inc. They
additionally agreed to forfeit any interest they may
have in 1,599 Gold Eagle coins, which at the time
were valued at $567,447, previously seized during
the service of a search warrant. Ham provided the
government with an additional 725 one-ounce gold
coins (Krugerrands) on February 28, 2003, for a
total of $441,136 in Krugerrands. Finally, the
defendants had converted $1.32 million worth of
gold coins to money market certificates. These
certificates were either seized or forfeited.
    A final judgment of forfeiture was also issued in
the Western District of Louisiana in the matter of
the United States vs. Thomas L. Frye. The judg-
ment orders that all interest in a particular Legg,
Mason, Wood, Walker, Inc., account, as well as
1,599 Gold Eagle Coins that were located inside a
safe deposit box at the Louisiana Coin Exchange, is
hereby forfeited to the United States of America.
    Also in this case, defendant Maurice Riemer
Calhoun, Jr., of Calhoun Property Management,
pled guilty in Federal Court, Western District of
Louisiana, to a two-count bill of information charg-
ing him with one count of wire fraud and one count
of conspiracy to commit equity skimming. T.F.

Chapter 4 — HUD’s Multifamily Housing Programs                                                                            49
                                           This page intentionally left blank.




Chapter 4 — HUD’s Multifamily Housing Programs                                   50
                Chapter 5            — HUD’s Community Planning and
                                      Development Programs
    The Office of Community Planning and Devel-
opment (CPD) seeks to develop viable communities
by promoting integrated approaches that provide
decent housing, a suitable living environment, and
expanded economic opportunities for low- and
moderate-income persons. The primary means
toward this end is the development of partnerships
among all levels of government and the private
sector.

Audits
    During this reporting period, the OIG audited
Community Development Block Grant (CDBG)
Disaster Assistance Funds in the State of New York,
the Empowerment Zone, Housing Preservation,
HOME, and CDBG Programs, and a Special Purpose
                                                                World Trade Center site, New York, NY.
Grant.
                                                                    During the initial audit period, virtually all
Disaster Assistance Funds – State of                            activities were carried out by ESDC; the objectives
New York                                                        of the completed review were to determine whether
                                                                the ESDC: (1) disbursed CDBG funds to eligible
    We are performing an ongoing audit of the
                                                                applicants in accordance with the HUD Approved
operations of the Empire State Development Corpo-
                                                                Action Plan; (2) disbursed CDBG disaster funds to
ration (ESDC) and the Lower Manhattan Develop-
                                                                applicants in a timely manner; and (3) has a finan-
ment Corporation pertaining to their administration
                                                                cial management system that adequately safeguards
of CDBG Disaster Assistance Funds provided to the
                                                                the funds. The review disclosed that ESDC generally
State of New York as a result of the terrorist
                                                                met these requirements. However, processing
attacks on the World Trade Center in New York
                                                                deficiencies and discrepancies in ESDC’s grant
City. This is the first of a series of reviews that the
                                                                programs need to be addressed and resolved to
OIG plans to conduct during our ongoing audit of
                                                                enhance the efficiency of its administration of the
the CDBG Disaster Assistance Funds. Presently, we
                                                                funds. Also, administrative and accounting controls
plan to issue an audit report every six months and
                                                                need to be strengthened to prevent duplicate pay-
include the results of each review in the Inspector
                                                                ments and other related administrative deficiencies
General’s Semiannual Report to Congress, to
                                                                from occurring.
comply with Congress’ request that HUD OIG
periodically audit and semiannually report on the                   Regarding ESDC’s primary program, the Busi-
expenditures of CDBG Disaster Assistance Funds.                 ness Recovery Grant (BRG) Program, we used a
                                                                dollar unit sampling plan to statistically select a
                                                                sample of 439 grants, valued at over $46 million,
                                                                out of a universe of 10,456 grants, with a value of
                                                                about $277 million. Using the sample results, we
                                                                estimated that the universe contains: (1) overpay-
                                                                ments to grant recipients of over $1.1 million, and
                                                                underpayments of more than $77,000, for a net


Chapter 5 — HUD’s Community Planning and Development Programs                                                         51
overpayment of over $1 million; and (2) $7.76 million of disbursements to grant recipients whose federal tax
information, per their applications, did not agree with tax information we received from the Internal Revenue
Service (IRS).
    We recommended that HUD instruct ESDC on the appropriate corrective actions that should be taken regard-
ing the over and underpayments of grant amounts, and the discrepancies between tax information on recipients’
applications and tax information provided by the IRS. In addition, we made other recommendations that should
enhance ESDC’s program efficiency and strengthen its administrative and accounting controls. (Report No.
2003-NY-1003)

Empowerment Zone Program
    As part of our review of the use of Empowerment Zone funds, which was initiated as a result of a Congres-
sional request, we conducted five audits during this reporting period. The results are as follows.
     We audited the joint Empowerment Zone Program of the Cities of Norfolk and Portsmouth, VA. The City
of Norfolk was the lead entity responsible for administering the program. The audit showed that the City gener-
ally maintained adequate oversight over the majority of its Empowerment Zone funds but needed to strengthen
its administration of the program to ensure that all funds are used efficiently and effectively. A review of 18
funded Empowerment Zone activities showed that the City did not maintain adequate control over about 7.25
percent of the $8.9 million of disbursements reviewed and did not always accurately report the accomplishments
of the program to HUD.
    The City obtained nearly $294,000 from HUD for activities without approved implementation plans and paid
over $100,000 for items or services that were either unallowable or unsupported. The City also did not properly
allocate costs totaling nearly $250,000 among activities benefiting from the funding. Lastly, the City needs to
improve the accuracy of information it reports to HUD by developing and maintaining a formal reporting policy
and a centralized database system.
    We recommended that the City submit separate implementation plans for each activity to HUD for review
and approval. We also recommended that the City reimburse the program over $100,000 for material and
services that were unsupported or not allowed under federal cost guidelines. Lastly, we recommended specific
controls to help the City more effectively allocate its indirect costs and improve its reporting process. (Report
No. 2003-PH-1001)

    The City of Cincinnati, OH, needs to improve its oversight of Empowerment Zone funds and accurately
report its program accomplishments to HUD. Specifically, the City inappropriately used over $15,000 and
lacked documentation to show that another $311,000 benefited the City’s Empowerment Zone Program or were
matched with in-kind services. The City also used over $594,000 to fund three projects that have not provided
benefits to Empowerment Zone residents, or benefited only 37 percent of Zone residents as of October 2002.
The three projects were completed between August 2001 and November 2002.
    We recommended that the City of Cincinnati reimburse its Empowerment Zone Program for the inappropri-
ate use of Zone funds and implement controls to correct the weaknesses cited in the report. (Report No. 2003-
CH-1009)




Chapter 5 — HUD’s Community Planning and Development Programs                                                       52
                                                                                             Used with permission from
                                                                                             The Cincinnati Enquirer/
                                                                                             Gregory Korte,
                                                                                             February 4, 2003.




    The Cities of Huntington, WV, and Ironton,                  scheduled for completion between December 2003
OH, need to improve their oversight of Empower-                 and December 2011, and the remaining two projects
ment Zone funds. The audit found that the Cities                were completed between December 2001 and July
did not accurately report the accomplishments of                2002.
the program to HUD. Specifically, the Cities did not
                                                                    We recommended that the City of Minneapolis
use $160,000 in accordance with their Strategic
                                                                reimburse its Near North Planning and Develop-
Plan and the September 8, 1999 Agreement for the
                                                                ment project from Empowerment Zone administra-
Marting Hotel Renovation project. Also, the Cities
                                                                tion funds for the inappropriate use of Zone funds
inaccurately reported their accomplishments to
                                                                and implement controls to correct the weaknesses
HUD, and funded five projects that have not pro-
                                                                cited in this report. (Report No. 2003-CH-1007)
vided benefits to Empowerment Zone residents, or
benefited only 27 percent of Zone residents as of
                                                                    The City of St. Louis, MO, did not accurately
October 2002. Four of the five projects are sched-
                                                                report all planned and actual outputs or funding
uled for completion between June 2004 and June
                                                                commitments in its June 30, 2002 Empowerment
2005, and the remaining project was completed in
                                                                Zone Performance Review. For one of four projects
June 2001.
                                                                we evaluated, the Performance Review contained
    We recommended that the Cities of Huntington                information that overstated the projected number of
and Ironton reimburse the Empowerment Zone                      area residents to be served and understated the
Program for the inappropriate use of Zone funds                 actual number of area residents served. For two of
and implement controls to correct the weaknesses                the four projects, total funding commitments were
cited in this report. (Report No. 2003-CH-1006)                 understated. This occurred because the City pro-
                                                                jected all residents of the Empowerment Zone
    The City of Minneapolis, MN, inaccurately                   census tract as being served by a construction
reported the accomplishments of its Empowerment                 project, whereas only the occupants of the units
Zone projects to HUD and inappropriately used                   should have been projected. Also, the City over-
nearly $10,000 to pay expenses not related to its               looked reporting actual figures when it prepared its
Near North Planning and Development project. The                report. HUD requires accurate information to be
City also funded seven projects that have not pro-              able to accurately review and assess the progress of
vided benefits to Empowerment Zone residents, or                the City’s Empowerment Zone activities.
benefited only three to 38 percent of Zone residents
as of June 2002. Five of the seven projects are

Chapter 5 — HUD’s Community Planning and Development Programs                                                            53
    We recommended that the City of St. Louis
establish and implement management controls to
ensure accurate reporting. (Report No. 2003-KC-
1003)

Housing Preservation, HOME, and
CDBG Programs
    In response to a HUD Hotline complaint, the OIG
audited the Housing Preservation Program (HPP) of
the City of Cleveland Heights, OH. The complain-
ant alleged that the City misused funds for its HPP.
HUD’s CDBG and HOME Programs funded the City’s
HPP. We found that the City did not follow HUD’s,
Cuyahoga County’s, and/or its own requirements
regarding the use of HUD funds. Specifically, the
City: (1) inappropriately used nearly $9,000 of
HOME funds to pay for rehabilitation work that was
improperly performed or not provided; (2) did not
include over $26,000 in housing rehabilitation work
in specifications for 15 houses to ensure they met
the City’s code and/or HUD’s standards; (3) did not
maintain an effective system of controls over its                    The Sun Press, February 20, 2003, Cleveland Heights, OH.
contracting process; (4) used over $158,000 in
                                                                    We recommended that HUD’s Columbus Field
HOME funds to assist 10 households that were
                                                                Office Director of Community Planning and Devel-
delinquent on their City income taxes; (5) provided
                                                                opment assure the City reimburses its HPP for the
over $111,000 in HOME funds to assist seven house-
                                                                inappropriate use of HUD funds and implements
holds when the City lacked documentation to show
                                                                controls to correct the weaknesses cited in the
the households were current on their City income
                                                                report. (Report No. 2003-CH-1008)
taxes; (6) spent over $151,000 in HOME funds to
assist 10 households that lacked sufficient equity in
                                                                    We completed a review of the HUD Indian
their homes to secure the assistance; (7) awarded
                                                                Housing Block Grant Program administered by the
over $8,000 in HOME funds for one household
                                                                Sicangu Wicoti Awanyakape Corporation, also
without determining whether it had the ability to
                                                                known as the Rosebud Housing Authority, in
repay the assistance; (8) used over $13,000 for two
                                                                Rosebud, SD. The review disclosed that manage-
households without a promissory note to secure the
                                                                ment controls were not satisfactory. We found
assistance; (9) provided over $51,000 to 17 house-
                                                                deficient controls over tenant occupancy and related
holds although the assistance was not included in
                                                                activities. Specifically, the Authority has not:
the promissory notes and/or the mortgage liens with
                                                                consistently enforced its drug elimination policy;
the homeowner; and (10) awarded nearly $140,000
                                                                consistently enforced its sublease policy; imple-
to nine households without documentation to show
                                                                mented its delinquency policy; or properly docu-
that the assisted houses were protected by property
                                                                mented the eligibility of its various housing pro-
hazard insurance or lacked enough insurance to
                                                                gram recipients. In implementing its supplemental
cover the assisted property.
                                                                housing programs (Used Mobile Home, Pre-
                                                                Manufactured Modular Housing Units, and Private
                                                                Homeowner Rehabilitation/Loan Programs), the
                                                                Corporation did not establish adequate administra-
                                                                tive procedures to ensure HUD requirements were
                                                                met. For example, the Authority used Indian Hous

Chapter 5 — HUD’s Community Planning and Development Programs                                                                   54
ing Block Grant monies to acquire used mobile                                    The audit recommended that the Authority
homes for selected individuals who would reim-                              establish the necessary management controls over
burse the Authority for the Authority’s costs. Most                         its operations and financial systems to ensure it
of the homes were purchased sight unseen, and                               functions in accordance with HUD requirements and
were in poor condition.                                                     within the Corporation’s policies. (Report No.
                                                                            2003-DE-1001)

                                                                            Special Purpose Grant
                                                                                Based on a request from the HUD Cleveland,
                                                                            OH Multifamily Housing Program Center, we
                                                                            completed an audit of the Jewish Community
                                                                            Federation of Cleveland’s Special Purpose Grant to
                                                                            determine whether the Federation used its grant
                                                                            funds in an efficient and effective manner and in
                                                                            compliance with its grant agreement. It was found
                                                                            that the Federation did not administer its Special
 Mobile home purchased with Indian Housing Block Grant funds. Home
                 was not inspectedprior to purchase.
                                                                            Purpose Grant in full compliance with federal
                                                                            requirements and its fiscal standards policy. Specifi-
    In addition, the Corporation did not follow its                         cally, the Federation did not obtain computer
own procurement and maintenance policies in                                 consulting services for the grant through open and
implementing the supplemental housing programs.                             free competition; failed to execute a written contract
There was an inadequate contract administration                             for its computer consulting services received in
system in place to ensure contractors performed                             December 1998 through January 2000 and August
according to the terms of their contracts. In addi-                         2000 through September 2001; and lacked adequate
tion, and controls over the inventory of materials                          documentation to support an additional $45,000 in
and supplies were inadequate.                                               computer consulting services paid to its consultant.
                                                                            As a result, HUD lacks assurance that grant funds
                                                                            were used efficiently and effectively, and the
                                                                            Federation’s procurement of computer consulting
                                                                            services was not subject to open and free competi-
                                                                            tion.
                                                                               We recommended that the Jewish Community
                                                                            Federation of Cleveland provide documentation to
                                                                            support the use of Special Purpose Grant funds and
                                                                            implement procedures and controls over the grant.
                                                                            (Report No. 2003-CH-1005)


Materials and supplies haphazardly stored are exposed to the elements and
                               vandalism.
                                                                            Investigations
                                                                                Defendants Alexander Koltovskoy, also known
     The Corporation was not maintaining adequate                           as Alexander Kolt, and Vincent Pizzi were indicted
perpetual inventory records in support of its con-                          by the U.S. Attorney’s Office, Southern District of
struction and renovation projects, resulting in                             New York, and charged with conspiracy to commit
improper payment of penalties and fees totaling                             offense or to defraud the United States, fraud by
over $100,000. Finally, the Corporation had not                             wire, frauds and swindles, and false statements.
implemented sufficient management controls over                             The defendants were arrested two days after the
its travel and related expenses to ensure that its                          indictment.
adopted travel policy was followed.
Chapter 5 — HUD’s Community Planning and Development Programs                                                                   55
    On February 13, 2002, HUD awarded to the                         Defendant Bryan Fuhr was arrested and charged
State of New York $700 million in CDBG Program                  in Federal Court, Southern District of New York,
assistance for properties and businesses damaged                with theft of government money and mail fraud in
during, and economic revitalization related to, the             connection with a scheme to defraud HUD and the
September 11, 2001 terrorist attacks on the World               Lower Manhattan, NY Development Corporation
Trade Center (WTC). As part of the $700 million                 (LMDC) out of federal grant funds. These funds
awarded, Empire State Development Corporation                   were made available after the September 11, 2001
(ESDC) of New York was hired by the Governor of                 terrorist attacks to assist in the revitalization of
New York State to process the WTC Business Recov-               Lower Manhattan. LMDC, which received over $2.7
ery Grant Program (BRG). Using funds provided by                billion from HUD to fund the grant program, was
HUD, this grant provides immediate financial                    created by the State and City of New York to
assistance to small and medium sized businesses                 coordinate the rebuilding of the area. Fuhr allegedly
located on or south of 14th Street. The amount of               devised a scheme to fraudulently obtain money
the grant depends on which one of four different                from the grant program.
zones in which the business is located.
                                                                    An information was filed in Federal Court,
    Defendant Koltovskoy, president of Alexander
                                                                Southern District of Iowa, in the case of the United
Edwards Global Search, Inc., applied for the WTC
                                                                States of America vs. defendant Kathleen Ann
BRG on March 29, 2002, and indicated on his grant
                                                                Moretz. Moretz was charged with three counts of
application that his business address on September
                                                                theft or bribery concerning programs receiving
11, 2001, was “2 World Trade Center, Suite 2112,
                                                                federal funds. Moretz, the former executive director
New York, NY.” A grant was issued to Alexander
                                                                of Neighborhood Housing Services (NHS), Des
Edwards on May 14, 2002, in the amount of
                                                                Moines, IA, allegedly used her position in order to
$25,756. On August 28, 2002, ESDC changed the
                                                                steal money from NHS, a nonprofit organization
program requirements of the BRG and all applicants
                                                                receiving HUD community planning and develop-
became eligible for supplemental BRG based on
                                                                ment funds. In a plea agreement between the United
increased zone percentages. As a result, Alexander
                                                                States and Moretz signed on December 30, 2002,
Edwards Global Search, Inc., received an additional
                                                                Moretz agreed to waive indictment and pled guilty
$38,634 in grant funds on November 8, 2002.
                                                                to the information. Part of the plea agreement was
    The $64,390 grant received by Koltovskoy was                to pay full restitution in the amount of $450,000.
part of a scheme in which Koltovskoy, along with
Pizzi, his employee, applied to other federal, state,                Defendant Rosa M. Cameron, also known as
local, and private relief agencies and received                 Rosa Cameron-Rollins, former alderwoman for the
benefits totaling almost $350,000. Pizzi was not                City of Milwaukee, WI, was sentenced in U.S.
involved with the ESDC BRG grant, but was involved              District Court, Eastern District of Wisconsin,
with other grants.                                              following her November 2002 guilty plea to two
                                                                counts of misapplication of funds. Cameron was
    Defendant Michele Nesbitt, former secretary                 sentenced to eight months incarceration, four
for Rehabco Development, a consultant company                   months community confinement/home detention,
for the Union County, NJ Office of Community                    and three years supervised release. She was also
Development, was sentenced in District Court for                barred from holding any position of fiduciary
the District of New Jersey on two counts of mail                responsibility without notification of her probation
fraud. Between March 2000 and May 2001, Nesbitt                 officer and employer, ordered to participate in the
embezzled Section 8 funds from Union County. She                Inmate Financial Responsibility Program, and
was sentenced to 27 months in prison on each                    ordered to pay $28,964 in restitution to the City of
count, to run concurrently, and three years proba-              Milwaukee. The restitution amount was based on
tion, and ordered to pay $212,000 in restitution,               money illegally transferred from the Williamsburg
$209,000 of which is to be paid to HUD.                         Heights Community Block Club Association, a HUD
                                                                funded nonprofit, to the election campaign bank


Chapter 5 — HUD’s Community Planning and Development Programs                                                     56
account of “Friends of Rosa Cameron-Rollins.” Money from this account was used to elect Cameron as alder-
woman for the City of Milwaukee. As part of her October 2002 plea agreement, Cameron was required to
resign as Milwaukee alderwoman within 24 hours. She sat on the Milwaukee Common Council’s Community
Development Committee, which oversees the City’s administration of HUD CDBG funds. Charges remain out-
standing against two of Cameron’s daughters, LaZonda Moore and LaRosa Roberta Cameron, both of whom
served as executive director of Williamsburg Heights after their mother’s election.

         Following his September 24, 2002 indictment by a Federal Grand Jury, Central District of California,
Tony Chisum, Jr., an employee of the American Philanthropy Association (APA), was arrested without incident
at his residence in Los Angeles, CA. APA, a nonprofit organization, owned and operated several homeless
shelters located in Los Angeles County. Chisum and co-conspirator Terry Lee Rhodes devised a billing scheme
that involved the creation and submission of fraudulent documents in order to receive government funding.
They submitted documents including fraudulent “Cold and Winter Shelter Program” attendance logs that falsely
claimed that certain persons had received food and shelter free of charge from APA. Between 1994 and 1998,
APA illegally received approximately $550,000 in federal funds through its participation in the Cold and Winter
Shelter Program, a program funded by HUD through the City and County of Los Angeles. The Los Angeles
Homeless Services Authority administered the program. The HUD loss was approximately $350,000.

   Defendants James Asselin, former co-administrator of the Greater Springfield, MA Entrepreneurial Fund
(GSEF), James Krzystofik, also a former co-administrator of GSEF, Cornell Lewis, former GSEF board member,
and Salvatore Anzalotti, Jr., a certified public accountant and professor of accounting at American International
College who also served as the GSEF accountant, were indicted by a Federal Grand Jury in the District of
Massachusetts. GSEF loaned and/or granted federal funds to assist business entities in the Springfield area.
GSEF received funding from HUD’s Office of Community Planning and Development, the Department of Com-
merce, and the Small Business Administration.


March 25, 2003




                                               The Boston Globe, March 25, 2003



Chapter 5 — HUD’s Community Planning and Development Programs                                                  57
    Defendant Asselin was charged with one count                orders, and invoices to obtain over $55,410 in EDA
of conspiracy, one count of false statements, 20                funds. She either took the funds in cash or depos-
counts of federal program fraud, and 20 counts of               ited them in six different bank accounts which she
money laundering. Asselin is the son of Ray                     opened in nearby cities. A review of the bank
Asselin, executive director of the Springfield                  records show that Anderson used these funds for
Housing Authority. Krzystofik was charged with                  her own personal benefit.
one count of conspiracy, three counts of Small
Business Administration fraud, seven counts of false                Home improvement contractor Thomas E.
statements, 20 counts of federal program fraud, and             Keehn, Jr., doing business as Certified, Inc., pled
32 counts of money laundering. Lewis was charged                guilty in Federal Court, District of Columbia, to
with one count of conspiracy and two counts federal             mail fraud. Keehn used the mails in furtherance of a
program fraud. Anzalotti, Jr., was charged with one             fraudulent scheme to obtain HUD funds from the
count of conspiracy and three counts of false state-            D.C. Department of Housing and Community
ments. Allegedly, Asselin and Krzystofik set up two             Development. He prepared false, inflated bids on
consulting firms to receive unauthorized GSEF                   behalf of fictitious contractors on at least 15 home
funds. In addition, along with Lewis, they allegedly            improvement contracts for which he was competing
took unauthorized personal trips that were paid for             in order to ensure that his bid was accepted. Keehn
with GSEF funds. The indictment also alleges that               obtained contracts totaling at least $220,000 under
there were numerous conflicts of interest resulting             false pretenses.
from self-dealing. GSEF rented space in a building
owned by Anzalotti; a business entity associated                    Defendant Francis Nicholas Armah-Afful, a
with Anzalotti received a GSEF loan. GSEF rented                Montgomery County, MD Housing Opportunities
space in a building owned by Asselin, Krzystofik,               Commission (HOC) subsidy recipient, was arrested
Lewis, and a GSEF borrower. Anzalotti did not                   subsequent to a controlled delivery and surveillance
report any of this activity in the annual GSEF audits.          operation which resulted in the execution of two
The four defendants were recently arrested.                     state arrest warrants and four simultaneous state
                                                                search warrants. Armah-Afful manufactured coun-
    Former Beaumont, TX Mayor David W.                          terfeit checks from a computer in his HOC apart-
Moore was found guilty in Federal Court, Eastern                ment, which was funded by HUD, purchased laptop
District of Texas, on 13 counts of conspiracy,                  computers from a distributor in Illinois, and had the
bribery, mail fraud, and money laundering. As a                 computers sent to his apartment. The computers
result of the same trial, former Beaumont City                  were then either sold on the street or pawned.
Councilman John K. Davis was found guilty on 11                 During the investigation, it was discovered that
counts of conspiracy, bribery, mail fraud, and                  Armah-Afful created fraudulent checks under the
money laundering. An investigation disclosed that               corporate names of “HUD Enterprises, Inc.,” “HUD
San Antonio, TX businessman Terry Samuel                        Accounts Payable, Inc.,” and “HUD Corporation.”
provided the defendants with cash payments,                     Armah-Afful was deported in 2000 and at the time
checks, and other things of value in return for their           of the investigation was considered an illegal entry.
assistance and influence in Samuel’s business                   The alias used by Armah-Afful, Divine Selasi
transactions with the City of Beaumont. This                    Ziorklui, had an active INS arrest warrant on file.
included Samuel’s participation in several programs             During the execution of the search warrant at
which received HUD funding.                                     Armah-Afful’s apartment, evidence was located
                                                                which linked him to two local strong-arm robberies.
    Defendant Betty Jane Anderson, former prop-                 The fraud in this scheme has thus far totaled over
erty manager of the Detroit Lakes, MN Economic                  $70,000 and is expected to double subsequent to
Development Authority (EDA), was indicted in                    findings from the search warrants. Two other
Minnesota State Court on seven counts of theft by               individuals, Eric Nensah and Trevonne McLean,
swindle. Anderson allegedly devised a scheme to                 were arrested during this operation.
create fictitious vendors, landlords, tenants, work

Chapter 5 — HUD’s Community Planning and Development Programs                                                     58
OIG Offices of Audit and                                        federal program fraud, and one count of threatening
                                                                a witness. Phillips served as a civilian commis-
Investigation — Joint Efforts                                   sioner for the Springfield Police Department until
                                                                his March 2002 arrest. Polimeni was charged with
    Defendant Bradley D. Jones, former controller               one count of conspiracy, nine counts of aiding and
for Utica, NY Community Action, Inc., pled guilty               abetting, four counts of wire fraud, three counts of
in Federal Court, Northern District of New York, to             federal program fraud, and three counts of obstruc-
a one-count felony information for theft of property            tion of justice. Dwyer was charged with one count
from an organization receiving federal assistance.              of conspiracy, nine counts of aiding and abetting,
Utica Community Action, Inc., is a federally                    four counts of wire fraud, three counts of federal
funded, nonprofit agency providing anti-poverty                 program fraud, and two counts of obstruction of
programs to the Utica area. A Congressional                     justice. Cardaropoli was charged with one count of
inquiry led to an investigation of Utica Community              conspiracy, three counts of aiding and abetting, two
Action’s financial activities; the investigation found          counts of wire fraud, one count of federal program
25 suspicious checks totaling $63,616 payable to                fraud, and one count of obstruction of justice.
Brad Jones. Jones admitted that, while employed as              Allegedly, Phillips, Polimeni, and Dwyer conspired
controller, he issued agency checks payable to                  to disburse unauthorized MCDI funds to Cardaropoli
himself, cashed the checks, and used the cash for               and other no-show employees of MCDI. The indict-
his personal benefit.                                           ment also alleges that there were numerous fraudu-
                                                                lent wire transactions in regard to health insurance
     Defendants Phuong Vu and Hang Hua entered                  and employment benefits illegally awarded to the
into a civil settlement at the U.S. Attorney’s Office           alleged no-show employees. During the course of
in Houston, TX, in connection with a False Claims               this investigation Phillips threatened, intimidated,
Act investigation. The investigation disclosed that             and persuaded a witness in order to prevent the
Vu misrepresented his income in order to receive                witness from testifying in a Federal Grand Jury
mortgage down payment assistance from a                         proceeding. The four defendants were arrested
subrecipient of the City of Houston under the HUD               shortly after their indictment.
HOME Program. Vu failed to disclose he was cohab-
iting with a girlfriend, Hang Hua, who was em-
ployed as a mortgage underwriter. Vu also reported
a fictitious employer because he was unemployed
and receiving worker’s compensation benefits. In
lieu of a civil complaint being filed, Vu and Hua
made full payment of damages totaling $9,500 per
the settlement agreement.

    Defendants Gerald A. Phillips, executive
director, Massachusetts Career Development
Institute (MCDI), Giuseppe Polimeni, former direc-
tor of MCDI, Jamie Dwyer, former MCDI employee
who handled the payroll, and Luisa Cardaropoli,
alleged MCDI no-show employee, were indicted by a
Federal Grand Jury in the District of Massachusetts.
                                                                   OIG Special Agent in Charge Peter Emerzian, on right,
MCDI provided educational and job training pro-                    attending press conference held by U.S. Attorney Michael J.
grams for income eligible individuals in the Spring-               Sullivan, District of Massachusetts, announcing Grand Jury
field area. MCDI received funds from many                          indictments and arrests of Gerald A. Phillips, Giuseppe
sources, including the HUD CDBG Program and the                    Polimeni, Jamie Dwyer, and Luisa Cardaropoli.
Department of Education. Phillips was charged with
one count of conspiracy, six counts of aiding and
abetting, four counts of wire fraud, three counts of

Chapter 5 — HUD’s Community Planning and Development Programs                                                               59
                                           This page intentionally left blank.




Chapter 5 — HUD’s Community Planning and Development Programs                    60
         Chapter 6             —    Other Significant Audits and Investigations

Audits                                                    ing funds; (6) improve processes for reviewing
                                                          obligation balances; (7) more effectively manage
    During this reporting period, the OIG audited         controls over the FHA systems’ portfolio; (8) place
HUD’s Principal Financial Statements and issued           more emphasis on monitoring lender underwriting
reports prepared by a contractor that audited FHA’s       and improving early warning and loss prevention for
Financial Statements as well as Ginnie Mae’s              FHA single family insured mortgages; (9) suffi-
Financial Statements. We also audited HUD’s               ciently monitor FHA’s single family property inven-
Information Security Program, Controls Over               tory; and (10) improve FHA’s controls over the
Social Security Numbers, and Resource Manage-             credit subsidy adjustment process. As part of the
ment System. In addition, we performed two                reportable condition that HUD needs to improve
reviews of Ginnie Mae’s Internal Controls.                processes for reviewing obligation balances, our
                                                          review showed that over $1.1 billion in excess funds
Financial Statement Audits                                could be deobligated. Most of these control weak-
    OIG issued its report presenting the results of       nesses were reported in prior efforts to audit HUD’s
our audit of HUD’s principal financial statements         financial statements and represent long-standing
for the years ended September 30, 2002 and 2001.          problems.
Assessments of HUD’s internal controls and compli-            The audit also includes the following instance of
ance with laws and regulations are also provided in       noncompliance with applicable laws and regula-
the audit report. In our opinion, the principal           tions: HUD did not substantially comply with the
financial statements present fairly, in all material      Federal Financial Management Improvement Act.
respects, the financial position of HUD as of Sep-        In this regard HUD’s financial management systems
tember 30, 2002 and 2001 and its net costs, changes       did not substantially comply with Federal Financial
in net position, budgetary resources, and reconcilia-     Management Systems Requirements; applicable
tion of net costs to budgetary obligations for the        accounting standards; and the U.S. Standard
fiscal years then ended, in conformity with account-      General Ledger at the transaction level. The report
ing principles generally accepted in the United           provides an assessment of HUD’s action to address
States.                                                   the weaknesses and makes various recommenda-
    Our audit disclosed material weaknesses in            tions for corrective action. (Report No. 2003-FO-
internal controls in FY 2002 related to the need to:      0004)
(1) comply with federal financial management
system requirements, including the need to enhance             The OIG issued a report on the results of KPMG
Federal Housing Administration (FHA) information          LLP’s audit of the Federal Housing
technology systems to more effectively support            Administration’s (FHA) financial statements for
FHA’s business processes; (2) improve oversight and       the years ended September 30, 2002 and 2001. In
monitoring of subsidy calculations and intermediar-       KPMG’s opinion, the financial statements present
ies’ program performance; and (3) improve FHA’s           fairly, in all material respects, FHA’s financial
controls over budget execution and funds control.         position as of September 30, 2002 and 2001, and its
                                                          net costs, changes in net position, budgetary re-
    Reportable conditions in internal controls in FY      sources, and reconciliation of net costs to budgetary
2002 related to the need to: (1) improve quality          obligations, for the years then ended, in conformity
control over performance measures data; (2) im-           with accounting principles generally accepted in the
prove controls over project-based subsidy payments;       United States.
(3) strengthen controls over HUD’s computing
environment; (4) improve personnel security prac-             While KPMG issued an unqualified audit opinion
tices for access to the Department’s systems; (5)         on FHA’s financial statements, their report identifies
improve funds controls over public housing operat-        two material weaknesses: (1) HUD/FHA’s automated

Chapter 6 — Other Significant Audits and Investigations                                                       61
data processing (ADP) system environment must be          Security Reform.” The Act requires that the OIG
enhanced to more effectively support FHA’s busi-          perform an annual independent evaluation of the
ness processes; and (2) controls over budget execu-       Department’s information system (IS) security
tion and funds control must be improved. The              program leading to a conclusion regarding its
report also identifies four reportable conditions on      overall effectiveness. While we observed improve-
internal control: (1) HUD/FHA can more effectively        ment in some aspects of HUD’s IS security program,
manage controls over the FHA ADP systems portfo-          weaknesses persist. Delays in the implementation of
lio; (2) FHA must place more emphasis on monitor-         corrective actions and tasks designed to strengthen
ing lender underwriting and continue to improve           the IS security program continue to put critical data
early warning and loss prevention for single family       and resources at risk. Although the Office of the
insured mortgages; (3) FHA must sufficiently              Chief Information Officer (OCIO) expanded its self-
monitor its single family property inventory; and         assessment program in FY 2002, we found that the
(4) FHA must improve the controls over the credit         results reported are unreliable in the absence of a
subsidy adjustment process.                               review process to ensure correct performance of the
                                                          assessments. We also found that despite the effort
    The report provides an assessment of actions
                                                          given to prepare HUD’s Critical Infrastructure
taken by FHA to mitigate these weaknesses and
                                                          Protection Plan, the OCIO has made little progress
conditions, and makes recommendations for correc-
                                                          in implementing tasks outlined in the plan to
tive actions. Report No. (2003-FO-0002)
                                                          strengthen HUD’s IS security program in the areas of
                                                          risk management, emergency management and
   OIG issued its report presenting the results of
                                                          interagency coordination, recruitment, education,
KPMG LLP’s audit of the Government National
                                                          and awareness. We attribute these delays to funding
Mortgage Association’s (Ginnie Mae) financial
                                                          limitations, poor planning and coordination, and
statements for the years ended September 30, 2002
                                                          administrative processes preventing the timely
and 2001. In KPMG’s opinion, the financial state-
                                                          establishment of contractual agreements.
ments present fairly, in all material respects, the
financial position of Ginnie Mae as of September              We made recommendations to strengthen the
30, 2002 and 2001 and the results of its operations       OCIO’s  role in monitoring the Department’s IS
and its cash flows for the years then ended, in           security program by overseeing the immediate
conformity with accounting principles generally           correction of long-standing security weaknesses and
accepted in the United States.                            implementing procedures to improve the reliability
                                                          of results obtained during its annual self-assessment
    In addition to KPMG’s unqualified opinion on
                                                          program. In addition, we recommended that the
Ginnie Mae’s financial statements, the audit results
                                                          OCIO ensure adequate resources are requested and
indicate that there were no material weaknesses in
                                                          allocated to facilitate full implementation of its
Ginnie Mae’s internal controls and no reportable
                                                          Entity-wide Security Program Plan as outlined in
instances of noncompliance with laws and regula-
                                                          the Department’s Critical Infrastructure Protection
tions. KPMG noted other matters involving internal
                                                          Plan. The OCIO’s Corrective Action Plan dated
control and its operations that are not material to
                                                          December 18, 2002, indicates concurrence with all
the financial statements and are being reported
                                                          of the report recommendations and scheduled
separately to Ginnie Mae management. (Report No.
                                                          completion of all corrective actions by November
2003-FO-0003)
                                                          2003. (Report No. 2003-DP-0801)

HUD’s Information Security                                HUD’s Controls Over Social
Program                                                   Security Numbers
    We completed an audit of HUD’s information
                                                             The Chairman of the House Ways and Means
security program and practices as required by the
                                                          Subcommittee on Social Security asked the
FY 2001 Defense Authorization Act (P.L. 106-398),
                                                          President’s Council on Integrity and Efficiency
Title X, subtitle G, “Government Information

Chapter 6 — Other Significant Audits and Investigations                                                      62
(PCIE) to evaluate federal agencies’ control over         has made significant progress in developing and
third party access to, and disclosure and use of,         implementing the key components of its Resource
Social Security numbers (SSNs). To accomplish this,       Management System since September 2000. The
the HUD OIG and other participating OIGs were             Department completed the REAP studies in January
requested to select one program area and determine        2002, began implementing the time reporting
whether their agency: (1) made legal and informed         component of TEAM in the third quarter of FY 2002,
disclosures of SSNs; (2) had appropriate controls         used REAP/TEAM data to improve the budget process
over contractors’ access to and use of SSNs; (3) had      for FYs 2003 and 2004 and staffing plan decisions
appropriate controls over other nongovernmental           for 2003, and anticipates using the allocation
and noncontractor entities’ access to and use of          module of TEAM to allocate FTEs for the
SSNs; and (4) had adequate controls over access to        Department’s FY 2004 appropriation. The Depart-
individuals’ SSNs maintained in databases.                ment now needs to develop a comprehensive strate-
                                                          gic workforce plan that includes elements as to how
    Our audit showed that Office of Housing and
                                                          the data from the REAP studies and TEAM system
Office of the Chief Information Officer (OCIO) staff
                                                          will be used to plan and allocate its human re-
had adequate controls over access to individuals’
                                                          sources among its various operating components.
SSNs maintained in databases containing sensitive
                                                          (Report No. 2003-PH-0801)
information. However, neither Housing nor OCIO
staff complied with procedures established to
control contractors’ access to records containing         Ginnie Mae’s Internal Controls
personal information. Specifically, OCIO did not              Our audit of Ginnie Mae’s internal controls
ensure the required background investigation was          identified several control weaknesses in its opera-
completed for all contract employees. We also             tions, including: (1) not requiring issuers to accu-
determined that Housing and OCIO staff did not            rately report FHA case numbers and use those
ensure that contract employees completed informa-         numbers as its primary management control; (2)
tion security training or maintained up-to-date lists     inadequate controls to ensure reliability of auto-
identifying contract employees having access to           mated data; (3) inadequate procedures for matching
these systems. These deficiencies, along with             data in Ginnie Mae’s systems to FHA’s systems; and
appropriate recommendations for corrective action,        (4) unreasonable time allowed for issuers to provide
were reported in HUD OIG’s Audit of HUD’s Finan-          the Mortgage Insurance Certificate (MIC) to the
cial Statements, FYs 2001 and 2000, dated February        document custodian. Because Ginnie Mae officials
27, 2002. Accordingly, no further recommendations         did not recognize the need to implement the con-
were made as part of this audit. (Report No. 2003-        trols, the Ginnie Mae database contained incom-
AO-0801)                                                  plete and inaccurate loan information and Ginnie
                                                          Mae’s risk of fraud was increased. These weak-
Components of HUD’s Resource                              nesses allowed one issuer to place over $21 million
Management System                                         of uninsured and fraudulent loans into Ginnie Mae
                                                          pools.
    We completed a review of the Department’s
progress in implementing the Resource Estimation               In response to our audit inquiries and through
and Allocation Process (REAP) and the Total Esti-         its own assessments of controls, Ginnie Mae imple-
mation and Allocation Mechanism (TEAM) compo-             mented several new procedures designed to
nents of its Resource Management System. The              strengthen and improve operations. It began elec-
Chief Financial Officer’s (CFO) Office of Budget is       tronically confirming that all case numbers are
responsible for coordination and implementation of        valid. It improved the loan level edits to identify
the system. Our primary objective was to assess the       syntax and format errors so that loans that are not
Department’s progress in implementing REAP and            in the proper format cannot be placed in pools. It
TEAM subsequent to the OIG’s September 2000
                                                          began follow-up with issuers to improve the reliabil-
REAP review. Generally, we found the Department
                                                          ity of information on existing portfolios, and contin-
                                                          ued to improve its tracking of timely MIC recogni

Chapter 6 — Other Significant Audits and Investigations                                                       63
tion. Ginnie Mae agreed with our recommendation               Defendant Regina F. Solomon, an operations
to match all FHA loans in its database with FHA’s         specialist with the HUD Detroit, MI Office, pled
database to ensure data is accurately reported and        guilty in Federal Court, Eastern District of Michi-
loans are insured, and expects to complete its first      gan, to a one-count bill of information for theft of
reconciliation by December 2003. (Report No.              government property for her unauthorized personal
2003-AT-0001)                                             use of a government vehicle. Within a negotiated
                                                          plea agreement, Solomon agreed to pay $2,863 in
    At the request of Ginnie Mae, we conducted a          restitution to one of the complainants in this case
limited review of the general controls over the           regarding a loan she used to repay past due amounts
information systems operated and maintained for           on a government credit card. Further, the plea
Ginnie Mae by Affiliated Computer Services –              agreement called for Solomon to immediately cease
Governmental Services, Inc. (ACS). Our review             her employment with the Federal Government,
found that security over certain server and applica-      which became effective on March 27, 2003.
tion access controls can be improved. We also             Solomon had been the HUD field office director and
found that required semiannual testing of the             senior community builder for the State of Michigan
disaster recovery process for one (the webserver) of      prior to her assignment as an operations specialist.
the three major ACS contracted services was not           Sentencing is scheduled for June 24, 2003.
being performed. We made five recommendations
to Ginnie Mae to improve internal controls in these
areas. (Report No. 2003-DP-0802)



Investigations
    Defendant Robert Barrera, owner of Financial
Research Services (FRS), Miami, FL, was sen-
tenced in Federal Court in the Southern District of
Florida to 27 months imprisonment and two years
supervised release, and ordered to pay over $4.46
million in restitution to HUD and Ginnie Mae.
Defendant Enos Ying, controller of FRS, was
convicted by a Federal Trial Jury in the Southern
District of Florida on two counts of conspiracy to
make false statements to HUD/Ginnie Mae, one
count of mail fraud, and 27 counts of submitting
false statements to HUD/Ginnie Mae. Barrera and
Ying were able to place 15 fictitious mortgages
totaling $1.29 million in several Ginnie Mae pools,
resulting in a loss to Ginnie Mae. In addition, the
defendants kept the loan pay-off proceeds on 39
mortgages amounting to over $3.17 million and
continued to make the monthly mortgage payments
so that Ginnie Mae would not discover the fraudu-
lent scheme. The total loss to Ginnie Mae was over
$4.46 million and the loss to the Federal Deposit
Insurance Corporation lender that provided the
warehouse line of credit was over $2 million. The
investigation involved 15 bank accounts and over
$200 million in financial transactions.

Chapter 6 — Other Significant Audits and Investigations                                                    64
                                     Chapter 7              —   Outreach Efforts
    In order to foster cooperative, informative, and mutually beneficial relationships with various agencies and
organizations whose intent is to assist in the accomplishment of HUD’s mission, the OIG participates in a number
of special outreach efforts. These outreach efforts, as described below, are in addition to our regular coordina-
tion with federal, state, and local law enforcement agencies, other OIGs, and various Congressional Committees
and Subcommittees. During these outreach efforts, we not only present the results of OIG audit and investigative
work and discuss our goals and objectives, but we also provide information about the OIG’s role and function.
    The HUD Secretary continues to maintain the highest level of interest in the fight against fraud and abuse,
and the OIG has found that by establishing working relationships with these agencies and organizations, we can
more readily and successfully reach our common goal of providing decent, safe, and sanitary housing for those
in need. The following are some of our outreach efforts carried out during this six-month reporting period.
Ø Inspector General Donohue addressed the American Association of Residential Mortgage Regulators in
  Annapolis, MD, at its first Mortgage Fraud Committee Task Force Symposium.
Ø Inspector General Donohue addressed the National Conference of the National Association of Housing
  and Redevelopment Officials in Seattle, WA.
Ø Inspector General Donohue addressed the graduates of both the Federal Law Enforcement Training
  Center in Glynco, GA, and the Inspector General Auditor Training Institute in Arlington, VA.
Ø As part of an ongoing partnership with Norfolk, VA State University, the OIG Headquarters Audits Division
  Director hosted two accounting students on a three-day job shadowing experience at HUD Headquarters.




               Participants in Job Shadowing Program: from l to r, Donna M. Hawkins, Assistant Director, Headquarters
               Audits Division; Saundra G. Elion, Director, Headquarters Audits Division; Tamara Artybridge, Norfolk State
               University accounting student; Kenneth M. Donohue, HUD Inspector General; James Riley, Jr., Norfolk State
               University accounting student; Seanna McGee, OIG Auditor; and Sharon Brown, OIG Auditor.




Chapter 7 — Outreach Efforts                                                                                                 65
                       Participants in Job Shadowing Program: from l to r, Tamara Artybridge, Norfolk State University
                       accounting student; Frank L. Davis, Director of HUD’s Office of Departmental Operations and
                       Coordination; James Riley, Jr., Norfolk State University accounting student; and Saundra G. Elion,
                       Director, Headquarters Audits Division.


Ø Inspector General Donohue addressed the School of Criminal Justice at the University of Alabama in
  Tuscaloosa, AL.

Ø At the Mortgage Bankers Association in San Francisco, CA, John E. Dupuy, Special Agent in Charge
  (SAC), Criminal Investigation Division (CID), and Stephen L. Bell, Assistant Special Agent in Charge
  (ASAC), CID, made a presentation on mortgage fraud at CampusMBA’s Advanced Fraud Seminar.




                     John E. Dupuy, SAC, CID, and Stephen L. Bell, ASAC, CID, make presentation on mortgage fraud to
                     Mortgage Bankers Association in San Francisco, CA.




Chapter 7 — Outreach Efforts                                                                                                66
Ø The OIG Office of Investigation held a liaison      Ø The OIG, in coordination with the HUD Offices
  meeting in Washington, DC, with enforcement           of Housing and Public and Indian Housing,
  staff from the Environmental Protection Agency        is embarking on a nationwide proactive effort to
  (EPA), Criminal Investigation Division staff          establish policies and procedures to prevent
  from EPA, program staff from HUD, and Depart-         overpayments of Section 8 housing assistance,
  ment of Justice staff to discuss ways to focus on     including up-front income verification, state-by-
  lead-based paint cases.                               state memoranda of understanding to obtain
                                                        state wage income information, and legislative
Ø The OIG Office of Audit made an extended
                                                        proposals to obtain information and for simpli-
  presentation on the audit process to all HUD
                                                        fying rent calculations.
  Principal Staff during a meeting of the HUD
  Executive Management Committee in Wash-             Ø OIG Audit and Investigation staff briefed HUD
  ington, DC.                                           employees on how the OIG works, providing a
                                                        look at the inner workings of our operations.
Ø Inspector General Donohue spoke to over 600
  Departmental managers from across the country
  at the National Management Training Sympo-
  sium meeting in Washington, DC.
Ø OIG Special Agents in Charge attended the FBI
  sponsored OIG Liaison Conference in New
  Orleans, LA.
Ø OIG Special Agent Joel Parisi, Mid-Atlantic
  Region, made a presentation in Grantville, PA,
  to the officers and members of the Pennsylva-
  nia Septic Management Association on the
  merits of avoiding fraud and misrepresentation
  in the course of conducting business.
Ø OIG staff met with the U.S. Attorney (USA) for
  the Great Plains Region, Chief Criminal
  Assistant USA, Chief Civil Assistant USA, and
  the Affirmative Civil Enforcement Coordina-
  tor for the District of Kansas, and presented
  potential proactive approaches to problems in
  Single Family and Multifamily Housing Pro-
  grams.
Ø D. Michael Beard, OIG Regional Inspector
  General for Audit from the Southwest Region,
  made a presentation on the OIG’s policy on civil
  referrals to Assistant U.S. Attorneys at the
  Joint Conference of the Southwest/Western
  Intergovernmental Audit Forum in Reno, NV.
Ø Acting OIG Assistant Special Agent in Charge
  Monica Haltmeyer, Mid-Atlantic Region, spoke
  at the Fidelity National Title Insurance Com-
  pany of New York Fall Seminar on single
  family loan origination fraud.



Chapter 7 — Outreach Efforts                                                                            67
                               This page intentionally left blank.




Chapter 7 — Outreach Efforts                                         68
     Chapter 8              —   Regulations, Handbooks and Other Directives
    Making recommendations on legislation,                  Notices Of Funding Availability
regulations, and policy issues is a critical part of the
OIG’s responsibilities under the Inspector General          (NOFA)
Act. This responsibility has taken on added dimen-
sion at HUD because of the dynamics of its rapidly          Fiscal Year 2003 SuperNOFA –
changing program and management environment.                General Section
During this six-month reporting period, the OIG
reviewed 148 regulations, funding notices, and                   The General Section of the SuperNOFA provides
other HUD directives and proposals. This Chapter            the general requirements, procedures, and prin-
highlights some of the resultant OIG recommenda-            ciples that apply to all of HUD’s Discretionary Grant
tions.                                                      Programs. The FY 2003 SuperNOFA, in its entirety,
                                                            will provide funding for 43 Discretionary Grant
Regulations                                                 Programs. The Program Section of the SuperNOFA
                                                            is reviewed on a program-by-program basis.
Public Housing Capital Fund                                     We nonconcurred with the General Section of
Program                                                     the SuperNOFA because we did not agree that the
                                                            OIG should be performing the pre-award survey
    This proposed rule governs public housing
                                                            reviews. Section V of the General Section required
agencies’ (PHA) use of HUD provided funds for
                                                            the OIG, in consultation with the Office of Grants
either the development of new housing or the
                                                            Management and Oversight, to arrange for pre-
modernization of existing housing, as well as
                                                            award surveys of the applicant’s financial manage-
management improvement activities. The HUD
                                                            ment system. In cases where the recommended
Appropriations Act provided $3 billion in FY 2001
                                                            applicant has no prior federal support, the program
and about $2.5 billion in FY 2002. The Appropria-
                                                            area has reason to question whether the applicant’s
tions Act contained a provision requiring that HUD
                                                            financial management system meets federal finan-
not distribute any of the funds until a risk assess-
                                                            cial management standards, or whether the appli-
ment was completed and mitigation controls initi-
                                                            cant is considered a high risk based on past perfor-
ated to eliminate any identified risks. HUD has
                                                            mance of financial management findings. Further,
already distributed over $5 billion in capital funds
                                                            HUD will not make an award to any applicant who
during the last two years without meeting the
                                                            does not have a financial management system that
requirements of this provision.
                                                            meets federal standards. We recommended that the
    We did not concur with the proposed rule                OIG be dropped from the General Section of the
because HUD has not yet completed the required              SuperNOFA and that the Office of Departmental
risk assessment, established controls for limiting          Grants Management and Oversight make alternative
new construction to the replacement of units in the         arrangements for the performance of the system
PHA inventory, or prescribed a methodology for the          reviews. The Office of Administration’s Office of
disposition of unappropriated funds designated for          Departmental Grants Management and Oversight
emergencies.                                                revised the language in the General Section of the
                                                            SuperNOFA to indicate that their office would make
    The Office of Public Housing is considering             alternative arrangements for the performance of the
OIG’s comments. The Department procured a                   system reviews.
consultant to conduct a risk assessment and this
study is underway. The draft regulation had not                 The SuperNOFA had not been published as of
been published as of the close of this semiannual           the close of this semiannual reporting period.
reporting period.


Chapter 8 — Legislation, Regulations and Other Directives                                                      69
Fiscal Year 2003 SuperNOFA – Rural                          assistance in excess of the authorized budget,
                                                            contrary to Section 421 of Public Law 107-73,
Housing and Economic Development                            issued November 26, 2001. The Appropriations Act
    This SuperNOFA would build capacity for the             required that no part of any appropriation for HUD
Rural Housing and Economic Development (RHED)               should be available for any activity in excess of the
Program. The program would provide assistance at            amount set forth in the budget estimates submitted
the state and local levels for rural housing and            to Congress. HUD did not provide any funding for
economic development. The funds made available              the demolition activity in its budget to Congress.
under this program will be awarded competitively,               The Office of Public and Indian Housing (PIH)
through a selection process conducted by HUD in             intends to distribute $40 million in appropriations
consultation with the Department of Agriculture             for the demolition of severely distressed housing
(USDA).                                                     and for the relocation and support services to
     We did not concur with this SuperNOFA because          families in the units scheduled for demolition.
it anticipated awarding $25 million in assistance in        These PIH actions are contrary to budget controls
excess of the authorized budget, contrary to Section        established in the Appropriations Act. Historically,
421 of Public Law 107-73, issued on November 26,            PIH has complied with this Appropriations Act
2001. The HUD Appropriations Act required that no           requirement and adjusted the Family Unification
part of any appropriation for HUD should be avail-          Program NOFA when the NOFA exceeded the amount
able for any activity in excess of the amount set           provided in the budget to Congress. PIH has effec-
forth in the budget estimates submitted to Congress.        tively reduced the amount of funds available for
The language in the budget states that the 2003             revitalization of severely distressed units by divert-
budget proposes no new funding for this program.            ing $40 million to the elimination of the public
Therefore, we were unable to concur with the                housing stock.
NOFA. Further, the NOFA stated that the selection               The NOFA had not been published as of the
process was to be done in consultation with USDA.           close of this semiannual reporting period.
However, neither the Public Law nor the budget
document discusses the role of USDA in this pro-
gram.
                                                            Notice
    The Department revised the language of the
proposed SuperNOFA to state that the SuperNOFA              Capital Fund – Replacement Housing
was contingent upon Congressional approval of the
proposed amount and dropped the requirement for
                                                            Factor Instructions
USDA oversight. We lifted our nonconcurrence                     This proposed Notice provided instructions to
based on these revisions.                                   public housing agencies to request funding for
    The SuperNOFA had not been published as of              replacement housing. The Department planned to
the close of this semiannual reporting period.              fund the public housing agencies’ request for
                                                            replacement housing through the capital fund
                                                            formula. The Department authorized public housing
HOPE VI Demolition Grants                                   agencies to obtain replacement funding for five
    This NOFA will announce the availability of $40         years, or 10 years if they will be leveraging substan-
million for PHAs from the HOPE VI Demolition                tial funding from other sources.
Grants appropriation. Demolition Grants provide                 We commented on the proposed plan because
funding to PHAs for the demolition of severely              the Department did not establish management
distressed public housing and for relocation and            controls to detect the development of replacement
other supportive services to residents of these units.      housing in excess of the maximum number of units
   We did not concur with this proposed NOFA                allowed for the public housing agency. The Depart-
because it anticipated awarding $40 million in              ment did not place a limit on the number of units a
                                                            public housing agency could develop with the
Chapter 8 — Legislation, Regulations and Other Directives                                                      70
replacement housing funds. The Housing Act of               Administrative Control of Funds
1937, as amended in Section 9(g), did limit the
number of units being developed to the number of            Policies and Procedures
units in the public housing inventory at October 1,             This proposed Handbook updates, strengthens,
1999. A public housing agency developing units in           and consolidates five of HUD’s previous Handbooks
excess of the maximum allowed cannot obtain                 relating to the administration of funds. The purpose
subsidies for the excess units.                             of this Handbook is to prescribe requirements for:
    PIH has revised the Notice and established a            (1) distributing HUD’s budget authority through an
management control for detecting units in excess of         apportionment/allotment process that affixes per-
the maximum allowed. This Notice had not been               sonal responsibility and accountability for specific
issued as of the close of this semiannual reporting         budgetary resources; (2) establishing and maintain-
period.                                                     ing internal controls that provide reasonable assur-
                                                            ance that HUD’s obligations and expenditures are
                                                            within the budget authority limits established by the
                                                            Congress for specific budgetary resources; and (3)
Handbooks                                                   reviewing, reporting, and acting on possible and
                                                            confirmed violations of the Anti Deficiency Act.
Multifamily Accelerated Processing
                                                                We initially did not concur with the new poli-
(MAP) Guide – Quality Assurance                             cies and procedures because the Handbook lacked:
Enforcement Actions                                         (1) a clear statement to HUD staff to avoid obligat-
                                                            ing funds prior to the signing of grant agreements;
    This Handbook change adds a Chapter 15 that
                                                            (2) an audit trail of the Office of General Counsel’s
provides the Department with enforcement actions
                                                            conclusions and opinions provided to allotment
against lenders and participants in the Multifamily
                                                            holders; (3) complete instructions for year-end
Accelerated Processing (MAP) Program. The en-
                                                            closing processes and rules for carrying over funds
forcement procedures allow for an informal confer-
                                                            for the next fiscal year; (4) a clear definition of the
ence between the sanctioning board and the lender
                                                            term “carryover” to ensure this process is com-
or participant.
                                                            pleted in accordance with the Office of Manage-
    We did not concur with this change because it           ment and Budget reapportionment process; (5) a
did not require HUD to document any discussions as          requirement for the Office of General Counsel’s
a part of the procedural record. We determined that         involvement in handling possible Anti Deficiency
board members would be using the discussions                Act violations; and (6) provision for the Office of
from the informal conference when considering               General Counsel’s involvement in the team make-up
sanctions. Without these discussions as part of the         for performing reviews of violations of the Anti
written record, final determinations may appear to          Deficiency Act.
be unsupported. Conversely, if their discussions are
                                                                The Department concurred with our recommen-
not taken into consideration, we did not see the
                                                            dations to strengthen the Handbook by establishing
relevance of having the participant attend the infor-
                                                            policies and procedures for maintaining internal
mal conference. In response, HUD revised the
                                                            controls of funds and processes. Our recommenda-
Handbook Chapter to now allow for written argu-
                                                            tions were added to the Handbook, which was
ments and additional documents or evidence to be
                                                            issued on December 19, 2002.
entered into the written record if submitted within
five days of the informal conference. This appears
to be an opportunity to adequately support the
written record; it also supports a reason to hold the
conference.
    The Handbook change was not finalized as of
the close of this semiannual reporting period.

Chapter 8 — Legislation, Regulations and Other Directives                                                       71
HUD Standard Forms                                              HUD is currently evaluating our comments. The
                                                            revised closing documents had not been finalized as
Revised FHA Multifamily and Health                          of the close of this semiannual reporting period.

Care Closing Documents
    The closing documents for multifamily rental
projects and health care facilities have not been
updated since the 1960’s. Therefore, the Depart-
ment conducted a thorough review and comparison
to modern day instruments to offer the requisite
protection to all parties to the transaction, consistent
with modern real estate and mortgage lending laws
and procedures. The Department now has one
regulatory agreement for rental housing projects
(Sections 202 and 811 will have a separate agree-
ment, to be revised at a later date), and another
regulatory agreement for health care facilities.
Major changes have been made to the regulatory
agreements, including adding current policies and
administrative procedures and incorporating the
Mortgagor’s Certificate into the agreement. Most
notably, the regulatory agreement of health care
facilities makes lessees responsible for the same
level of financial reporting, posting all personal
property as security for the mortgage, and agreeing
that the certificate of need and license cannot be
transferred from the project. These changes were
made, in part, based on management decisions
made in response to a prior OIG audit.
    We did not concur with the health care facilities
regulatory agreement because it falls short where
program areas cross over between rental and health
care. For example, board and care facilities have
rental issues as well as health care issues. The
health care facilities regulatory agreement does not
cover rental issues and vice versa.
    We also nonconcurred with the terminology on
the Mortgagee’s Certificate (Form HUD-92434)
with regard to reserve for replacement deposits.
Section 232 mortgages are underwritten with a two-
part reserve for replacement deposit due each
month. A stated portion of this deposit is to be used
for major moveable equipment, while the balance is
for long-term physical plant needs. Owners have
been using the entire reserve for replacement
balance on major moveable equipment without
regard to reserving funds for future major repairs.


Chapter 8 — Legislation, Regulations and Other Directives                                                    72
                               Chapter 9        —      Audit Resolution
    In the audit resolution process, the OIG and HUD       Audits of FHA’s FY 1991 through
management come to an agreement as to the needed
actions and timeframes for resolving audit recom-          2002 Financial Statements
mendations. Through this process, we hope to                    First issued March 27, 1992. FHA has been
achieve measurable improvements in HUD programs            preparing financial statements for 12 years under
and operations. The overall responsibility for             the Chief Financial Officers Act, beginning with FY
assuring that the agreed upon changes are imple-           1991. The audit of FHA’s FY 2002 financial state-
mented rests with HUD managers. This Chapter               ments discussed problems similar to those that have
describes some of the more significant pending             been reported since the audit of FHA’s FY 1991
issues where resolution action has been delayed. It        financial statements. The audit continues to recog-
also contains a status report on HUD’s implementa-         nize that FHA needs to: (1) improve its information
tion of the Federal Financial Management Improve-          technology (primarily accounting and financial
ment Act of 1996. In addition to this Chapter on           management systems) to more effectively support
audit resolution, see Appendix 2, Table A, “Audit          FHA’s business processes; (2) sufficiently monitor
Reports Issued Prior to Start of Period With No            its single family property inventory; and (3) con-
Management Decision at 3/31/03,” and Table B,              tinue to improve early warning and loss prevention
“Significant Audit Reports Described in Previous           for single family insured mortgages. This third
Semiannual Reports Where Final Action Had Not              reported condition was expanded in FY 2002 to
Been Completed as of 3/31/03.”                             include the need to place more emphasis on moni-
                                                           toring lender underwriting. A weakness reported
Delayed Actions                                            since the FY 1992 financial statement audit relates
                                                           to the need for FHA to enhance the design and
Audits of HUD’s FY 1991 through                            operation of information systems’ general and
2002 Financial Statements                                  application level security controls. A weakness first
                                                           reported in the FY 1998 financial statement audit
    First issued June 30, 1992. HUD has been               relates to the need to improve controls over budget
preparing financial statements under the require-          execution and funds control. A number of previ-
ments of the Chief Financial Officers Act for 12           ously reported problems have been satisfactorily
fiscal years, beginning with Fiscal Year (FY) 1991.        resolved over the years. FHA’s latest action plan
Various internal control weaknesses have been              continues to report progress toward resolving these
reported in these audits. In our most recent audit         remaining long-standing issues, with final actions
effort for FY 2002, we were able to express an             targeted over the next one to three years. The FY
unqualified opinion on HUD’s principal financial           2003 financial statement audit will assess FHA’s
statements. The results of our FY 2002 report on           accomplishments in correcting these conditions.
internal controls were consistent with results re-
ported in Semiannual Reports from prior years.
While there has been progress, material weaknesses         Empowerment Zone Program, Cities
continue with respect to the need to: (1) complete         of Chicago, Philadelphia, and
improvements to financial systems; (2) improve
oversight and monitoring of subsidy calculations
                                                           Atlanta
and intermediaries’ program performance; and (3)               Issued September 28, 1998, September 30,
improve FHA’s controls over budget executions and          1998, and October 15, 1998. Audits of the Cities of
funds control. Corrective action plans to resolve          Chicago, IL, Philadelphia, PA, and Atlanta, GA,
these issues have continued to change over the last        found that the Cities used empowerment zone funds
decade.                                                    inappropriately. The questioned amounts totaled
                                                           over $2 million for the three Cities. The unique


Chapter 9 — Audit Resolution                                                                                  73
nature of the Empowerment Zone Program, autho-          nity Development Block Grant (CDBG) requirements
rized by the Omnibus Budget Reconciliation Act of       for activities administered by subgrantees. The
1993, provided HUD the authority to oversee the         subgrantees operated a community-based program
program, but provided funding through tax credits       which provided business training and incubator
and Social Services Block Grant funds from the          space for the benefit of low- and moderate-income
Department of Health and Human Services (HHS).          residents. The training component included busi-
HHS has responsibility for resolving questions          nesses outside of the grantee’s City limits. However,
concerning the permissible use of zone funds.           the City could not provide documentation to sup-
                                                        port the number of jobs for low- and moderate-
    In 1999, HUD management agreed with our
                                                        income persons created or retained, or document
findings and promised to have the Cities repay, by
                                                        future benefits accruing to its residents. We recom-
June 2000, program funds spent inappropriately.
                                                        mended that HUD require the grantee to submit
HUD, however, did not take corrective actions
                                                        documentation of job creation and retention activi-
timely. In February 2000, HUD’s Community
                                                        ties or return any unsupported amounts to its letter
Planning and Development (CPD) Comptroller
                                                        of credit, from non-federal funds. In December
started taking corrective actions and planned to have
                                                        1999, the Los Angeles Office of CPD agreed with
the outstanding recommendations closed by July
                                                        our recommendations and agreed to complete
2001. In July 2001, the CPD Comptroller requested
                                                        actions by October 31, 2000.
that HHS decide whether the Cities’ use of zone
funds to provide services to non-zone residents was          In November 2000, the Los Angeles Office of
an eligible use of funds. If HHS decides that the       CPD requested revised management decisions,
Cities used zone funds improperly, HUD plans to         because the City’s program benefited low- and
execute a repayment agreement with the Cities           moderate-income persons. Therefore, it would not
requiring repayment within two to three years. At       be necessary for the City to repay the program. We
present, HHS has not responded to the                   disagreed with the Los Angeles Office of CPD and
Comptroller’s request.                                  referred the matter to the Acting General Deputy
                                                        Assistant Secretary for CPD for decision in February
     On September 10, 2002, the Deputy Assistant
                                                        2001. In July 2001, the CPD Comptroller agreed
Secretary for Operations, CPD, sent a letter to HHS’
                                                        with OIG’s position and the Los Angeles Office of
Director of Community Services outlining the
                                                        CPD advised the City to reimburse about $732,000
outstanding issues relating to OIG Empowerment
                                                        to its line of credit. A demand for repayment was
Zone audit reports. CPD requested HHS’ decision on
                                                        sent to the City in February 2002. During the last
the eligibility of the questioned costs for which the
                                                        year, CPD and the Office of General Counsel
OIG recommended repayment. The letter also
                                                        requested additional information from the City. The
included HUD’s suggestions for resolving the
                                                        City did not provide any new information. In
outstanding issues. At present, HHS has not re-
                                                        February 2003, the Acting General Deputy Assis-
sponded to HUD’s letter. Therefore, on March 20,
                                                        tant Secretary for CPD referred this matter to HUD’s
2003, HUD’s Assistant Secretary for CPD sent a
                                                        Departmental Enforcement Center for appropriate
letter to HHS’ Assistant Secretary for Children and
                                                        enforcement action. (Report No. 1999-SF-1003)
Families requesting an immediate response to HUD’s
September 2002 letter. HUD has no control over
HHS’ actions, but will continue to pursue these         Nationwide Audit of the Officer/
issues until they are resolved. (Report Nos. 1998-      Teacher Next Door Programs
CH-1005, 1998-CH-1006, and 1999-CH-1002)
                                                            Issued June 29, 2001. A nationwide audit of
                                                        HUD’s Officer Next Door and Teacher Next Door
City of Lynwood, CA, Community                          (OND/TND) Property Disposition Programs found
Development Block Grant Program                         that HUD had not established adequate management
                                                        controls over the programs. The audit found that:
   Issued August 19, 1999. The City of Lynwood
                                                        (1) 23 of 108 homebuyers in our sample, who
could not demonstrate its compliance with Commu-

Chapter 9 — Audit Resolution                                                                               74
received program discounts of nearly $735,000,
abused the OND Program by not fulfilling three-year
                                                         Federal Financial Management
occupancy requirements; (2) achievement of the           Improvement Act of 1996
OND and TND Programs’ goals and objectives were
not assessed; and (3) homes were sold outside of
                                                         (FFMIA)
revitalization areas and were therefore improperly           FFMIA requires that HUD implement a
discounted by about $1.2 million.                        remediation plan that will bring financial systems
    Management agreed to improve controls and            into compliance with federal financial system
guidance over the programs in January 2002.              requirements within three years or obtain Office of
Actions to be taken included establishing a monitor-     Management and Budget (OMB) concurrence if
ing plan to detect and deter program abuse and           more time is needed. FFMIA requires us to report,
ensure occupancy requirements are met, redefining        in our Semiannual Reports to the Congress, in-
the occupancy starting date, assessing whether           stances and reasons when an agency has not met the
program achievements justify the high cost of            intermediate target dates established in the
discounted property sales, and establishing mini-        remediation plan required by FFMIA. In April 1998,
mum standards for designating revitalization areas.      HUD determined that 38 of its systems were not in
All actions were to be completed by December             substantial compliance with FFMIA. At the end of
2002; however, completion of action has been             FY 2002, the Department continued to report that
delayed. Actions to improve monitoring of the            17 systems were not in substantial compliance with
program have been delayed because HUD has                FFMIA. Our audit of HUD’s FY 2002 financial
decided to implement an automated system to              statements cites additional financial management
monitor the program instead of issuing written           system weaknesses, which we reported as reasons
procedures. We have yet to see the details of these      for the Department’s FFMIA noncompliance. These
plans. Accordingly, it is unknown whether the            include noncompliance with: (1) federal financial
revised action will satisfy the recommendations          management systems requirements; (2) federal
contained in our report. In March 2003, the OIG          accounting standards; and (3) the standard general
formally requested the Office of Housing to provide      ledger at the transaction level. HUD has made
the details of their revised management decisions to     progress by implementing a new FHA automated
revise the actions that they are taking to address the   general ledger in October 2002. The FHA Subsid-
reported recommendations. HUD’s plan to complete         iary General Ledger Project has been designed to
an assessment of whether program goals and               bring HUD into substantial compliance with FFMIA
objectives are being met has been delayed until          and is to be completed by December 2006.
December 31, 2003, because of scheduling conflicts
and other priorities. The remaining recommenda-
tions required issuing guidance to improve proce-
dures for designating revitalization areas and better
defining the starting date for the required three-year
occupancy period. HUD now plans to issue the
guidance by April 2003 and December 2003,
respectively, but did not inform OIG why this delay
occurred. (Report No. 2001-AT-0001)




Chapter 9 — Audit Resolution                                                                              75
                               This page intentionally left blank.




Chapter 9 — Audit Resolution                                         76
Appendices
                                       APPENDIX 1 - AUDIT REPORTS ISSUED
                                                                             FOR THE PERIOD
                                                       OCTOBER 1,          2002 THROUGH MARCH            31, 2003

                                                                                       Internal Reports
      Housing                                                                                 Audit Reports

2003-DE-0001                HUD Office of Multifamily Housing Assistance Restructuring’s (OMHAR) Oversight of the Section 514 Program
                                Activities, 03/31/03.
2003-FO-0002                Federal Housing Administration, Audit of Fiscal Years 2002 and 2001 Financial Statements, 1/21/03.


 Miscellaneous
2003-AO-0001                Financial Activities of the Commission on Affordable Housing and Health Facility Needs for Seniors in the
                                21st Century, 10/11/02.
2003-AT-0001                Ginnie Mae, Review of Internal Controls, Washington, DC, 3/05/03.
2003-FO-0001                HUD’s Energy Management and Conservation Program, 12/9/02.
2003-FO-0003                Ginnie Mae’s Financial Statements for Fiscal Years 2002 and 2001, 1/31/03.
2003-FO-0004                HUD’s Financial Statements for Fiscal Years 2002 and 2001, 1/31/03. Funds Put To Better Use: $1,100,000,000.


  Single Family                                                                          Audit Memoranda
2003-BO-0802                New England Region’s Officer Next Door and Teacher Next Door Property Disposition Programs, 2/12/03.
2003-KC-0801                Inappropriate Home Ownership Center Instructions, Denver, CO, 3/18/03. Funds Put to Better Use: $1,807,534.


   Multifamily

2003-BO-0801                Office of Housing’s Use of the Financial Assessment Subsystem, 12/20/02.
2003-FW-0801                HUD Houston Multifamily’s Oversight of Wood Hollow Place Apartments, Texas City, TX, 1/31/03.
2003-SE-0801                Housing Authority of the City of Bremerton, WA, Performance as Contract Administrator for HUD’s Section 8 Project-
                                Based Assistance Program for the State of Washington, 3/11/03.

These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                           1
                                                                                                                                      APPENDIX 1

                                                                          Internal Reports - continued
  Miscellaneous                                                                 Audit Memoranda - continued

2003-AO-0801                Controls over Third Party Access to, and Disclosure and Use of Social Security Numbers, 12/13/02.
2003-AO-0802                HUD’s Implementation of the Federal Activities Inventory Reform Act, 12/20/02.
2003-DP-0801                Annual Evaluation of HUD’s Information Security Program, 10/30/02.
2003-DP–0802                General Information Technology Controls at Affiliated Computer Services – Governmental Services, Inc. (ACS),
                               12/3/02.
2003-FW-0802                HUD’s Houston, TX Office of Administration, Time and Attendance, 2/5/03.
2003-PH-0801                HUD’s Progress in Implementing the Resource Estimation and Allocation Process (REAP) and Total Estimation and
                               Allocation Mechanism (TEAM) Components of Its Human Resource Management System, 12/3/02.



                                                                                      External Reports
  Single Family                                                                              Audit Reports

2003-DE-1004                Pryme Investment and Mortgage Brokers, Inc., Murray, UT, Non-Supervised Loan Correspondent, 3/27/03.
2003-KC-1001                Cendant Mortgage Corporation, Mt. Laurel, NJ, Non-Supervised Direct Endorsement Lender, 10/2/02.
                                Funds Put To Better Use: $101,216,328.
2003-KC-1004                First Horizon Home Loans, Irving, TX, Non-Supervised Direct Endorsement Lender, 1/17/03.
                                Funds Put To Better Use: $46,371,676.
2003-KC-1005                Choice Enterprises, Inc., Denver, CO, 3/10/03. Funds Put To Better Use: $6,567,024.
2003-NY-1002                Chapel Mortgage Corporation, Rancocas, NJ, Non-Supervised Mortgagee, 3/11/03.
                                Funds Put To Better Use: $2,937,120.

   Multifamily

2003-AO-1001                National Center of Tenants Ownership, Washington, DC, Intermediary Technical Assistance Grants, 12/3/02. Questioned
                               Costs: $88,946; Unsupported Costs: $7,953.
2003-AO-1002                National Housing Trust, Washington, DC, Outreach and Training Assistance Grants, 12/9/02.
                                Questioned Costs: $36,711.
2003-BO-1001                Farmington Health Care Center, Farmington, CT, 3/7/03. Questioned Costs: $341,682.

These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                            2
                                                                                                                                         APPENDIX 1

                                                                          External Reports - continued
   Multifamily                                                                      Audit Reports - continued

2003-BO-1002                People to End Homelessness, Providence, RI, Outreach and Training Assistance Grants, 3/31/03.
                               Questioned Costs: $16,499; Unsupported Costs: $4,041.
2003-CH-1003                Tenants United for Housing, Inc., Chicago, IL, Outreach and Training Assistance Grants, 10/29/02.
                               Questioned Costs: $6,900.
2003-CH-1004                Indiana Coalition on Housing and Homeless Issues, Indianapolis, IN, Outreach and Training Assistance Grant, 10/31/02.
                               Questioned Costs: $35,783; Unsupported Costs: $14,113.
2003-CH-1005                Jewish Community Federation of Cleveland, OH, Special Purpose Grant, 11/15/02. Questioned Costs: $44,720;
                               Unsupported Costs: $44,720.
2003-DE-1003                Audit of the June 1998 Memorandum of Understanding Between HUD’s Office of Multifamily Housing and the
                               Corporation for National Service, Washington, DC, 10/28/02. Questioned Costs: $57,916.
2003-KC-1002                Housing Comes First, St. Louis, MO, Outreach and Training Assistance Grant, 12/17/02.
                               Questioned Costs: $336,108; Unsupported Costs: $336,108; Funds Put To Better Use: $363,579.
2003-NY-1001                Marion Scott Real Estate, Inc., Management Agent, New York, NY, 2/12/03. Questioned Costs: $902,425;
                               Unsupported Costs: $721,998.
2003-SE-1001                Community Alliance of Tenants, Portland, OR, Outreach and Training Assistance Grant and Intermediary Technical
                               Assistance Grant, 10/31/02. Questioned Costs: $52,244; Unsupported Costs: $45,751.
2003-SE-1002                Tenants Union, Seattle, WA, Outreach and Training Assistance Grant and Intermediary Technical Assistance Grant,
                               12/2/02. Questioned Costs: $164,198; Unsupported Costs: $96,430.

         PIH

2003-AT-1001                Northwestern Regional Housing Authority, Boone, NC, Public Housing Programs, 1/9/03.
                               Questioned Costs: $4,372,282.
2003-AT-1002                Procurement of Management Agents, Puerto Rico Public Housing Administration, San Juan, PR, 3/21/03.
                               Questioned Costs: $2,007,019; Funds Put to Better Use: $10,824,363.
2003-AT-1003                Fairfield, AL Housing Authority, Housing Programs, 3/24/03. Questioned Costs: $560,251;
                               Unsupported Costs: $12,865.
2003-CH-1001                Housing Authority of Champaign County, Champaign, IL, 10/24/02. Questioned Costs: $27,360;
                               Unsupported Costs: $3,761.
2003-CH-1010                Coshocton, OH Metropolitan Housing Authority, Section 8 Housing Program, 3/21/03.
                               Questioned Costs: $32,341.
2003-CH-1011                Coshocton, OH Metropolitan Housing Authority, Comprehensive Improvement Assistance Program, 3/24/03.
                               Questioned Costs: $323,632.
These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                              3
                                                                                                                                   APPENDIX 1

                                                                         External Reports - continued
         PIH                                                                       Audit Reports - continued

2003-CH-1012                Coshocton, OH Metropolitan Housing Authority, Tenant Opportunities Program, 3/25/03.
                               Questioned Costs: $46,623; Unsupported Costs: $41,827.
2003-CH-1013                Coshocton, OH Metropolitan Housing Authority, Public Housing Drug Elimination Program, 3/26/03.
                               Questioned Costs: $21,044.
2003-CH-1014                Coshocton, OH Metropolitan Housing Authority, Public Housing Program, 3/28/03.
                               Questioned Costs: $242,138; Unsupported Costs: $165,972.
2003-DE-1001                Sicangu Wicoti Awanyakape Corporation, Rosebud, SD, HUD Indian Housing Block Grant Program, 10/8/02.
                               Questioned Costs: $144,410.
2003-DE-1002                Delta, CO Housing Authority, Low-Rent Housing and Section 8 Housing Assistance Payments, 10/7/02.
                               Questioned Costs: $101,233.
2003-FW-1001                Housing Authority of Morgan City, LA, Low-Rent Program, 2/21/03, Questioned Costs: $58,510;
                               Unsupported Costs: $23,035.
2003-FW-1002                Caddo Nation of Oklahoma, Binger, OK, Indian Housing Block Grant, 3/7/03. Questioned Costs: $4,795;
                               Unsupported Costs: $3,795.
2003-PH-1002                Philadelphia, PA Housing Authority, Contracting and Purchasing Activity, 1/27/03.
                                Questioned Costs: $716,970; Unsupported Costs: $250,892.

        CPD

2003-CH-1002                New Covenant Housing Corporation, Inc., Milwaukee, WI, CDBG and HOME Programs, 10/29/02.
                               Questioned Costs: $18,700.
2003-CH-1006                Cities of Huntington, WV and Ironton, OH, Empowerment Zones Program, 12/31/02. Questioned Costs: $160,000.
2003-CH-1007                City of Minneapolis, MN, Empowerment Zone Program, 1/3/03. Questioned Costs: $9,705.
2003-CH-1008                City of Cleveland Heights, OH, Housing Preservation Program, 1/23/03. Questioned Costs: $504,717;
                               Unsupported Costs: $119,793.
2003-CH-1009                City of Cincinnati, OH, Empowerment Zone Program, 1/28/03. Questioned Costs: $326,710;
                               Unsupported Costs: $311,346.
2003-FW-1003                City of Dallas, TX, Mortgage Assistance Program, HOME Investment Partnerships, 3/17/03.
                               Questioned Costs: $67,889; Unsupported Costs: $34,890.
2003-KC-1003                St. Louis, MO/East St. Louis, IL, Empowerment Zones, 12/26/02.
2003-NY-1003                Empire State Development Corporation, New York, NY, CDBG Disaster Assistance Funds, 3/25/03.
                               Questioned Costs: $354,691.
These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                      4
                                                                                                                                         APPENDIX 1

                                                                         External Reports - continued
        CPD                                                                        Audit Reports - continued

2003-PH-1001                Joint Empowerment Zone Program of the Cities of Norfolk and Portsmouth, VA, 12/20/02.
                               Questioned Costs: $332,154; Unsupported Costs: $74,041.

   Multifamily                                                                           Audit Memoranda

2003-FW-1801               Wood Hollow Place Apartments, Texas City, TX, 11/18/02. Questioned Costs: $266,057;
                              Unsupported Costs: $7,500.
2003-FW-1803               Coffman Investment Company, Inc., Little Rock, AR, Multifamily Management Agent, 1/10/03.
2003-KC-1801               University Forest Nursing Care Center, University City, MO, 11/14/02. Funds Put To Better Use: $4,784,000.
2003-KC-1803               Richmond Terrace Retirement Center, Richmond Heights, MO, 3/24/03. Funds Put to Better Use: $50,063.
2003-PH-1801               Royal Arms Apartments, Front Royal, VA, Management Improvement Operating Funds, 03/27/03.


         PIH

2003-AT-1801                South Carolina Regional Housing Authority No. 3, Barnwell, SC, 10/9/02. Questioned Costs: $1,362,268;
                              Unsupported Costs: $1,118,925.
2003-AT-1802                Housing Authority of the City of Key West, FL, 1/16/03.
2003-AT-1803                Fort Pierce, FL Housing Authority, 1/31/03. Questioned Costs: $10,664; Unsupported Costs: $10,664.
2003-DE-1801                Housing Authority of the City and County of Denver, CO, Section 8 Housing Choice Voucher Program, 2/11/03.
2003-KC-1802                Housing Authority of Independence, MO, Section 8 Review, 12/26/02.

        CPD

2003-FW-1802               Sale of Hargest College, City of Houston, TX, Community Development Block Grant (CDBG) Program, 1/9/03.
2003-SE-1801               Community Resource Center, Bremerton, WA, HOME Program and CDBG Funds, 1/31/03.




These reports are available on the HUD OIG website at www.hud.gov/offices/oig/reports/auditreports.cfm                                           5
                                                                                             APPENDIX 2
                                          TABLE A
                        AUDIT REPORTS ISSUED PRIOR TO START OF PERIOD         WITH
                              NO MANAGEMENT DECISION AT 03/31/03


                                                                                         ISSUE DATE/
                                                                                         TARGET FOR
REPORT NUMBER & TITLE                  REASON    FOR   LACK   OF   MANAGEMENT DECISION
                                                                                         MANAGEMENT
                                                                                           DECISION




                                         Nothing to report.
                                                                                                                         APPENDIX 2
                                                         TABLE B
                        SIGNIFICANT AUDIT REPORTS DESCRIBED IN PREVIOUS SEMIANNUAL REPORTS
                            WHERE FINAL ACTION HAD NOT BEEN COMPLETED AS OF 03/31/03
  Report                                                                                             Issue    Decision     Final
  Number                                            Report Title                                     Date      Date        Action

1995CH1009 Alliance Mortgage Corporation, Single Family Mortgage Insurance Program, Villa Park, IL   08/08/95 11/30/95     Note 1

1997FW1003 Medlock Southwest Management Corporation, Multifamily Management Agent, Lubbock, TX       08/26/97 01/16/98     Note 1

1997CH1010 Major Mortgage Corporation, Section 203(k) Rehabilitation Home Mortgage Ins. Program,     09/17/97 01/06/98     Note 1
           Livonia, MI

1998AT1001 Housing Authority of the City of Alma, GA                                                 01/20/98 05/04/98     09/30/03

1998CH1005 City of Atlanta, GA Empowerment Zone Program                                              09/28/98 09/20/99     Note 1

1998CH1006 City of Philadelphia, PA Empowerment Zone Program                                         09/30/98 09/20/99     Note 1

1999NY1004 Homestead Financial Services, Inc., Non-supervised Mortgagee, Syracuse, NY                02/17/99 06/25/99     Note 1

1999FO0003 U.S. Department of HUD Fiscal Year 1998 Financial Statements                              03/29/99 09/30/99     Note 2

1999PH0801 Chester, PA Housing Authority Receivership                                                06/01/99 12/02/99     7/31/03

1999SF1003 City of Lynwood, CA, CDBG and HOME Programs                                               08/19/99 12/16/99     Note 1

1999CH1803 Fairfield County, Community Housing Improvement Program, Lancaster, OH                    09/15/99 01/13/00     Note 1

1999NY1007 Alliance Mortgage Banking Corporation, Non-supervised Mortgagee, Rochester, NY            09/27/99 02/16/00     Note 1

1999DE0001 Nationwide Review of HUD’s Loss Mitigation Program                                        09/30/99 03/31/00     06/30/03

2000DP0002 Initial Development Efforts of the Departmental Grants Management System                  11/04/99 09/19/01     10/31/04

2000NY1002 Target V Phase I Development Associates, Multifamily Housing Program, Bronx, NY           12/08/99 05/08/00     Note 1
                                                                   1
                                                                                                        APPENDIX 2, TABLE B

  Report                                                                                      Issue     Decision   Final
                                                    Report Title
  Number                                                                                      Date       Date      Action

2000FO0002 Federal Housing Administration, Audit of Fiscal Year 1999 Financial Statements   02/29/00   08/09/00    12/31/05

2000FO0003 Attempt to Audit the Fiscal Year 1999 HUD Financial Statements                   03/01/00   09/29/00    09/30/03

2000AT1003 Puerto Rico Public Housing Administration, Procurement Management                03/06/00   09/28/01    10/31/07

2000AT1005 Benson, NC Housing Authority, Public Housing Programs                            03/27/00   09/13/00    8/21/03

2000SF0001 Single Family Production                                                         03/30/00   01/19/01    Note 2

2000CH1002 Cuyahoga Metropolitan Housing Authority, Title V Account, Cleveland, OH          03/31/00   09/29/00    Note 2

2000SF1001 San Francisco, CA Housing Authority, Low-Income and Section 8 Programs           03/31/00   09/01/00    Note 1

2000CH1003 State of Ohio, Community Housing Improvement Program, Columbus, OH               06/15/00   10/18/00    Note 1

2000NY1005 Poughkeepsie, NY Housing Authority, Low-Rent Housing Program                     09/25/00   02/13/01    Note 1

2000AT0001 Single Family Property Disposition Program                                       09/28/00   02/20/01    Note 2

2000DP0804 Department’s September 2000 Purchase of COTS Financial Management System         09/29/00   03/30/01    Note 1

2000KC0002 Housing Subsidy Payments                                                         09/29/00   02/21/01    09/30/05

2000SE0003 Nationwide Audit, Use of and Disposition of Residual Receipts                    09/29/00   08/15/01    12/30/03

2001AT1001 Housing Authority of the City of Miami Beach, FL                                 10/20/00   02/13/01    Note 1

2001CH1001 City of Ironton, OH Community Development Block Grant Program                    11/16/00   03/21/01    Note 1

2001NY1001 Bay Towers, Far Rockaway, NY, Multifamily Mortgage Operations                    12/07/00   04/20/01    Note 2

2001SF1802 HUD Earthquake Loan Program Funds, Woodland Hills, CA                            02/08/01   06/14/01    Note 2


                                                                   2
                                                                                                                 APPENDIX 2, TABLE B

 Report                                                                                               Issue      Decision   Final
 Number                                             Report Title                                      Date        Date      Action
2001DP0801 Review of the Department’s Internet Privacy Status                                         02/21/01   04/23/01   Note 1

2001FO0002 FHA Audit of Fiscal Year 2000 Financial Statements                                         03/01/01   07/24/01   12/21/06

2001FO0003 Audit of HUD’s Fiscal Year 2000 Financial Statements                                       03/01/01   07/18/01   09/30/03

2001CH1005 London, OH Metropolitan Housing Authority, Safeguarding of Monetary Assets and Inventory   03/22/01 07/18/01     03/17/04

2001SF1803 Supportive Housing Program Grant, Los Angeles, CA                                          03/23/01 07/24/01     Note 2

2001FO0004 HUD’s Internal Controls over Fiscal Year 1999 Annual Performance Data                      03/28/01 07/24/01     01/31/04

2001PH1003 Housing Authority of Baltimore City, MD, Section 8 Certificate and Voucher Programs        03/28/01 09/10/01     Note 2

2001AT1005 San Juan, PR Public Housing Administration HOPE VI, Comprehensive Grant, and Economic      03/30/01 09/28/01     Note 2
           Development & Support Services Programs

2001NY1002 Belmax Management Corporation (Management Agent), Brooklyn, NY                             04/17/01 07/13/01     Note 2

2001PH1005 Housing Authority of the City of Pittsburgh, PA                                            05/03/01 02/06/02     06/06/03

2001SF1804 Supportive Housing Program Grant, County of Orange, Santa Ana, CA                          05/09/01 09/26/01     Note 2

2001FW0001 New Orleans, LA Housing Authority                                                          05/11/01   11/02/01   10/15/03

2001CH1007 Detroit, MI Housing Commission, HOPE VI Program                                            05/15/01 09/13/01     03/06/06

2001PH0803 Philadelphia, PA Home Ownership Center, Single Family Disposition Activities               06/14/01 06/14/01     Note 2

2001AT0001 Nationwide Audit on the Officer/Teacher Next Door Programs                                 06/29/01 01/29/02     12/31/03

2001FW1005 Harmony House, Inc., Harrison, AR, Supportive Housing Program                              08/27/01 12/21/01     Note 2

2001AO0003 Drug Elimination Funds Used for Creative Wellness Program                                  08/29/01 01/22/02     06/30/03

                                                                   3
                                                                                                                    APPENDIX 2, TABLE B

 Report                                                                                                  Issue     Decision    Final
 Number                                               Report Title                                       Date       Date       Action
2001FW1809 Jefferson Parish, LA Housing Authority, Limited Procurement Review                           09/25/01   11/07/01   Note 2

2001DE1003   Foster and Associates, Whitefish, MT, Review of Management Activities for Projects Clark   09/28/01   01/16/02   09/30/03
             Fork Manor and Whitefish Manor

2001DP0003 Real Estate Management System                                                                09/28/01   01/30/02   Note 2

2001KC1005 First Community Resources, Inc., St. Louis, MO, Section 203(b) Home Mortgage Insurance       09/28/01   01/17/02   03/16/04
           Program

2002SF0001   Nonprofit Participation, HUD Single Family Program                                         11/05/01   08/30/02   06/07/03

2002NY1801 City of Utica, NY, CDBG, HOME and Section 8 Existing Housing Programs                        12/03/01   03/27/02   04/03/03

2002CH1801 City of Evansville, IN Housing Authority                                                     01/29/02   05/18/02   05/15/05

2002FO0002 Federal Housing Administration, Audit of Fiscal Years 2000 and 2001 Financial Statements     02/22/02   05/30/02   12/31/06

2002NY0001 Nationwide Audit-Asset Control Area Program, Single Family Housing                           02/25/02   06/17/02   06/17/03

2002FO0003 Audit of HUD’s Fiscal Years 2000 and 2001 Financial Statements                               02/27/02   08/16/02   01/30/04

2002DE0001 Nationwide Review of HUD’s Loss Mitigation Program (Follow-up)                               02/28/02   06/28/02   06/30/03

2002PH1001 City of Williamsport, PA, CDBG and HOME Investment Partnership Programs                      03/19/02   09/04/02   Note 2

2002AT1807 Jardines de Valencia Housing Cooperative, Rio Piedras, PR                                    03/20/02   07/15/02   07/10/03

2002NY1001 City of Ithaca, NY, Community Planning and Development Programs                              03/21/02   07/23/02   07/23/03

2002DE0801 Review of Alleged Violations of the Anti-Deficiency Act and the HUD Reform Act by the Office 03/22/02   09/30/02   Note 2
           of Multifamily Housing Assistance Restructuring

2002CH1001 Ypsilanti, MI Housing Commission, Safeguarding Monetary Assets and Inventory                 03/26/02   07/24/02   12/31/03
                                                                     4
                                                                                                                    APPENDIX 2, TABLE B

  Report                                                                                                Issue      Decision   Final
  Number                                         Report Title                                           Date        Date      Action

2002PH1803 Philadelphia, PA Housing Authority, Limited Personnel Review                                 03/26/02   07/25/02   04/30/03

2002BO1001   City of Worcester, MA, Community Development Block Grant Program                           03/27/02   08/29/02   07/01/05

2002CH1002 Alton, IL Housing Authority, Low-Income and Public Housing Drug Elimination Programs         03/29/02   08/02/02   12/31/03

2002NY1002 Hudson County Division of Community Development, Jersey City, NJ, CPD Programs               04/15/02   08/09/02   04/30/03

2002BO1003 Newport, RI Resident Council, Incorporated                                                   04/30/02   09/16/02   01/15/08

2002DP0801   HUD’s Multi-Year Information Technology Plan                                               05/01/02   10/31/02   06/30/03

2002NY1802 CDBG Disaster Assistance Funds Administered by Empire State Development Corp.,               05/22/02   08/08/02   05/01/03
           New York, NY

2002PH0001 HUD’s Utilization of the Public Housing Assessment System                                    05/23/02   09/20/02   04/30/03

2002AT1001   Magnolia Lane Apartments, Project Management Operations, Conway, SC                        06/05/02   09/24/02   08/29/03

2002PH0002 Single Family Sales to Owner-Occupant Purchasers                                             06/10/02   09/30/02   Note 2

2002AT1002   City of Tupelo, MS Housing Authority, Housing Programs Operations                          07/03/02   10/31/02   04/30/10

2002AO0001 Grants Management Center’s Operations                                                        07/12/02   11/18/02   10/31/03

2002AT1003   National Scholarship Service and Veteran’s Opportunity and Resource Center, Atlanta, GA,   07/25/02   10/21/02   02/28/04
             Supportive Housing Program Grant

2002KC0002 HUD’s Office of Housing Section 232 Nursing Home Program (Nationwide Survey)                 07/31/02   11/22/02   06/30/04

2002SF0801   HOME Investment Partnerships Program                                                       07/31/02   12/06/02   04/30/03

2002SF1804   HOME Investment Partnerships Program, City of Stockton, CA and San Joaquin County,         07/31/02   12/06/02   04/30/03
             CA
                                                                 5
                                                                                                                   APPENDIX 2, TABLE B
 Report                                                                                                 Issue     Decision    Final
 Number                                            Report Title                                         Date       Date       Action
2002DE1004 Housing Advocacy Coalition, Colorado Springs, CO, Outreach and Training Assistance Grant 08/26/02      03/31/03   12/31/03

2002SF1002   Oakland, CA Housing Authority, Rehabilitation of the 49th Street Housing Development      09/17/02   02/06/02   05/23/03

2002FW1002 Houma, LA Housing Authority, Low-Rent Housing Program, Cash & Procurement Controls          09/18/02   01/16/03   11/30/03

2002KC1003 Iowa Coalition for Housing and the Homeless, Des Moines, IA, Outreach and Technical Assis- 09/19/02    03/31/03   12/31/03
           tance Grant

2002AT1808 Homeless and Housing Coalition of Kentucky, Inc., Frankfort, KY, Outreach and Technical     09/20/02   03/31/03   12/31/03
           Assistance Grants

2002NY1004 Ironbound Community Corporation, Newark, NJ, Outreach and Technical Assistance Grant        09/23/02   03/31/03   12/31/03
           and Public Entity Grant

2002NY1005 Legal Aid Society, New York, NY, Outreach and Technical Assistance Grants and Public Entity 09/23/02   03/31/03   12/31/03
           Grant

2002DE1005 Crossroads Urban Center, Salt Lake City, UT, Outreach and Training Assistance Grants        09/25/02   03/31/03   12/31/03

2002SE0001   Follow-up on Down Payment Assistance Programs Operated by Private Nonprofit Entities      09/25/02   09/25/02   06/30/03

2002SF1003   Los Angeles, CA Community Development Bank, Economic Development Initiative Grant         09/25/02   01/27/03   09/30/03

2002AT1004   Ashley Crossings Apartment Homes, Largo, FL                                               09/26/02   09/26/02   10/31/03

2002SF1005   Housing Rights Committee of San Francisco Tides Center, San Francisco, CA, Outreach and   09/26/02   03/31/03   12/31/03
             Training Assistance Grants

2002AT1005   North Carolina Low-Income Housing Coalition, Inc., Raleigh, NC, Outreach and Technical    09/27/02   03/31/03   12/31/03
             Assistance Grant and Intermediary Technical Assistance Grants

2002DP0002 Review of Departmental IT Security Plans                                                    09/27/02   09/27/02   09/30/03

2002AT1006   Ridgeview Manor Apartments, Hopkins, SC                                                   09/30/02   11/19/02   11/01/03
                                                                  6
                                                                                                                           APPENDIX 2, TABLE B

 Report                                                                                                         Issue    Decision     Final
 Number                                                Report Title                                             Date      Date        Action

2002BO1004 Anti-Displacement Project, Springfield, MA, Outreach and Training Assistance Grant                 09/30/02   03/31/03   12/31/03

2002BO1005 Chelsea, MA Housing Authority                                                                      09/30/02   12/17/02   12/01/03

2002DE1002 Affordable Housing and Homeless Alliance, Honolulu, HI, Outreach and Training Assistance 09/30/02             03/31/03   12/31/03
           Grant and Intermediary Outreach and Technical Assistance Grants

2002FW1003 New Mexico Public Interest Education Fund, Albuquerque, MN, Outreach and Training                  09/30/02   03/31/03   12/31/03
           Assistance Grants and Public Entity Grant

2002PH1002 Virginia Poverty Law Center, Richmond, VA, Outreach and Training Assistance Grant                  09/30/02   03/31/03   12/31/03

2002PH1003 Delaware Housing Coalition, Dover, DE, Outreach and Training Assistance Grant and Inter-           09/30/02   03/31/03   12/31/03
           mediary Technical Assistance Grants

2002PH1004 Tenants’ Action Group of Philadelphia, PA, Outreach and Training Assistance Grant                  09/30/02   03/31/03   12/31/03

2002PH1005 Philadelphia Regional Alliance of HUD Tenants, Philadelphia, PA, Outreach and Training             09/30/02   03/31/03   12/31/03
           Assistance Grant and Intermediary Outreach and Technical Assistance Grant

2002PH1006 Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant                      09/30/02   03/31/03   12/31/03

2002PH1007 Legal Aid Bureau, Inc., Baltimore, MD, Outreach and Training Assistance Grant                      09/30/02   03/31/03   12/31/03

2002SF1004 Low-Income Housing Fund, Oakland, CA, Intermediary Technical Assistance Grants                     09/30/02   03/31/03   12/31/03

2002SF1006 Legal Aid Society of Honolulu, HI, Outreach and Training Assistance Grant                          09/30/02   03/31/03   12/31/03

2002SF1007 Southern Arizona People’s Law Center, Tucson, AZ, Outreach and Training Assistance Grant 09/30/02             03/31/03   12/31/03

AUDITS EXCLUDED:                                                      NOTES:

19 audits under repayment plans                                       1  Management did not meet the target date. Target date is over 1 year
14 audits under formal judicial review, investigation, or                old.
   legislative solution                                               2 Management did not meet the target date. Target date is under 1 year
                                                                         old.
                                                                        7
                                                                                                                                                           APPENDIX 2
                                                                          TABLE C
                                                    INSPECTOR GENERAL ISSUED REPORTS WITH
                                                 QUESTIONED AND UNSUPPORTED COSTS AT 03/31/03
                                                           (DOLLARS IN THOUSANDS)
                                                                                                                Number of Audit           Questioned    Unsupported
                                                 Reports                                                           Reports                  Costs          Costs
A1 For which no management decision had been made by the commencement of the reporting                                   30                    $8,847      $6,545
   period
A2 For which litigation, legislation or investigation was pending at the commencement of the                              7                   $28,956     $14,415
   reporting period
A3 For which additional costs were added to reports in beginning inventory                                                -                      $13           $5
A4 For which costs were added to non-cost reports                                                                         -                       $0           $0
B1 Which were issued during the reporting period                                                                         37                   $14,156      $3,451
B2 Which were reopened during the reporting period                                                                        0                       $0           $0
                                                                                          Subtotals (A+B)                74                   $51,972     $24,416
C    For which a management decision was made during the reporting period                                               481                   $11,741      $7,376
     (1) Dollar value of disallowed costs:
         • Due HUD                                                                                                       332                   $2,854      $1,696
         • Due Program Participants                                                                                      17                    $7,924      $4,948
     (2) Dollar value of costs not disallowed                                                                             23                     $963        $732
D    For which management decision had been made not to determine costs until completion of                               7                   $29,178     $15,354
     litigation, legislation, or investigation
                                                                                                                       19                 $11,053         $1,686
E   For which no management decision had been made by the end of the reporting period
                                                                                                                      <63> 4            <$11,053>4      <$1,686> 4




1
    5 audit reports also contain recommendations with funds to be put to better use.
2
    2 audit reports also contain recommendations with funds due program participants.
3
    2 audit reports also contain recommendations with funds agreed to by management.
4
    The figures in brackets represent data at the recommendation level as compared to the report level. See Explanations of Tables C and D.
                                                                                                                                                     APPENDIX 2

                                                                   TABLE D
                                        INSPECTOR GENERAL ISSUED REPORTS
                          WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE AT 03/31/03
                                             (DOLLARS IN THOUSANDS)

                                                      Reports                                                            Number of            Dollar Value
                                                                                                                           Audit
                                                                                                                          Reports
A1 For which no management decision had been made by the commencement of the reporting period                                  3                  $12,370
A2 For which litigation, legislation or investigation was pending at the commencement of the reporting                         4                 $521,757
   period
A3 For which additional costs were added to reports in beginning inventory                                                     -                       $0
A4 For which costs were added to non-cost reports                                                                              -                       $0
B1 Which were issued during the reporting period                                                                              10               $1,274,922

                                                                                                    Subtotals (A+B)           17               $1,809,049
C For which a management decision was made during the reporting period                                                         71                $119,280
    (1) Dollar value of recommendations that were agreed to by management:
        • Due HUD                                                                                                              4                  $98,674
        • Due Program Participants                                                                                             2                   $6,866
    (2) Dollar value of recommendations that were not agreed to by management                                                  22                 $13,740
D For which management decision had been made not to determine costs until completion of litigation,                           3                 $521,211
  legislation, or investigation
                                                                                                                             7                 $1,168,558
E For which no management decision had been made by the end of the reporting period                                        <17>3             <$1,168,558>3




1
    5 audit reports also contain recommendations with questioned costs.
2
    1 audit report also contains recommendations with funds agreed to by management.
3
    The figures in brackets represent data at the recommendation level as compare to the report level. See Explanations of Tables C and D.
                                                                                                                                           APPENDIX 2
EXPLANATIONS OF TABLES C AND D

    The Inspector General Act Amendments of 1988 require Inspectors General and agency heads to report cost data on management decisions and
final actions on audit reports. The current method of reporting at the “report” level rather than at the individual audit “recommendation” level results
in misleading reporting of cost data. Under the Act, an audit “report” does not have a management decision or final action until all questioned cost
items or other recommendations have a management decision or final action. Under these circumstances, the use of the “report” based rather than the
“recommendation” based method of reporting distorts the actual agency efforts to resolve and complete action on audit recommendations. For ex-
ample, certain cost items or recommendations could have a management decision and repayment (final action) in a short period of time. Other cost
items or nonmonetary recommendation issues in the same audit report may be more complex, requiring a longer period of time for management’s
decision or final action. Although management may have taken timely action on all but one of many recommendations in an audit report, the current
“all or nothing” reporting format does not take recognition of their efforts.

   The closing inventory for items with no management decision on Tables C and D (Line E) reflects figures at the report level as well as the
recommendation level.
                                                                                                                                                           APPENDIX 3

                                                 PROFILE                OF      PERFORMANCE
                                                                           for the period
                                                       October 1, 2002 through March 31, 2003
                                Audit and Investigation Results                                          Audit           Investigation         Combined
      Recommendations That Funds Be Put to Better Use                                              $1,274,921,687                           $1,274,921,687
      Management Decisions on Audits with Recommendations That Funds Be Put to
                                                                                                    $119,280,372                              $119,280,372
         Better Use
      Questioned Costs                                                                               $14,169,087                              $14,169,087
      Management Decisions on Audits with Questioned Costs                                           $11,741,242                              $11,741,242
      Indictments/Informations                                                                                                260                  260
      Convictions/Pleas/Pre-Trial Diversions                                                                                  186                  186
      Months in Prison                                                                                                       3,284                3,284
      Months of Probation                                                                                                    5,462                5,462
      Hours of Community Service                                                                                             1,385                1,385
      Investigative Recoveries                                                                                           $65,214,234          $65,214,234
      Collections from Audits                                                                        $7,283,159 1                              $7,283,159 1
      Administrative Sanctions                                                                              4                 242                  246
      Arrests                                                                                                                 252                  252
      Search Warrants                                                                                                          24                   24
      Weapons Seized                                                                                                            9                    9
      Value of Drugs Seized                                                                                                 $10,020              $10,020
      Subpoenas Issued                                                                                      4                 245                  249




1
    Amount reduced by $181,589 since it is included in Investigative Recoveries due to a civil settlement negotiated by HUD, resulting from a joint audit and
    investigation effort.
